No. _________
In the Supreme Court of the United States
COREY STAPLETON, MONTANA SECRETARY OF STATE,

v.

Applicant,

THE MONTANA DEMOCRATIC PARTY,

Respondent.
On Application to the Honorable Elena Kagan to Stay the Orders
Of the Montana Supreme Court
APPENDIX TO EMERGENCY APPLICATION FOR
STAY

Jim Renne, Counsel of Record
4201 Wilson Blvd., Ste. 110521
Arlington, VA 22203
jrenne@rennelaw.com
Matthew T. Meade (admission pending)
Smith Oblander & Meade, PC
P.O. Box 2685
Great Falls, MT 59403-2685
matt@bigskylaw.com
Austin James
Secretary of State’s Office
P.O. Box 202801
Helena, MT 59620-2801
Austin.james@mt.gov

Counsel for Applicant
August 24, 2020

TABLE OF CONTENTS
Supreme Court of Montana, Denial of Stay (August 20, 2020)

App. 1

Supreme Court of Montana, Order Affirming District Court Decision
(August 19, 2020)

App. 3

District Court, Findings of Fact and Conclusions of Law (August 11, 2020)

App. 5

District Court, Order on Secondary Issues (August 11, 2020)

App. 55

Supreme Court of Montana, Consolidation and Scheduling Order
(August 11, 2020)

App. 60

Supreme Court of Montana, Petition Signers Motion to Intervene
(August 13, 2020)

App. 62

Supreme Court of Montana, Denial of Motion to Intervene
(August 13, 2020)

App. 71

Supreme Court of Montana, Appellant’s Opening Brief
(August 12, 2020)

App. 73

Supreme Court of Montana, Appellant’s Reply Brief (August 18, 2020)

App. 111

Supreme Court of Montana, Brief of Amici Curiae Petition Signers
(August 12, 2020)

App. 143

District Court, Motion to Intervene by Petition Signers and Brief in
Support (July 2, 2020)

App. 194

District Court Trial Transcript, Denial of Motion to Intervene
(July 14, 2020)

App. 239

District Court, Defendants Motion to Dismiss for Failure to Join
Necessary Parties and Brief in Support (June 22, 2020)

App. 244

District Court, Brief of Amici Curiae Petition Signers in (July 17, 2020)

App. 296

Relevant Excerpts from Trial Transcript (July 14, 2020)

App. 323

ORIGINAL

08/20/2020

IN THE SUPREME COURT OF THE STATE OF MONTANA

Case Number: DA 20-0396

DA 20-0396

MONTANA DEMOCRATIC PARTY and
TAYLOR BLOSSOM,RYAN FILZ,
MADELEINE NEUMEYER,and REBECCA
WEED,individual electors,

FILED
AUG 2 0 2020
Bovven Greenvvood
Clerk of Supreme Court
State of Montana

Plaintiffs and Appellees,
ORDER

v.
STATE OF MONTANA,by and through its
SECRETARY OF STATE,COREY
STAPLETON,
Defendant and Appellant.

On August 7, 2020, the State of Montana, by and through its Secretary of State
Corey Stapleton, appealed from Findings of Fact, Conclusions of Law, and Order issued
that same day by the First Judicial District Court, Lewis and Clark County, in its Cause
No. DDV-2020-856. After expedited briefing, this Court issued an Order affirming the
District Court on August 19, 2020. The District Court's rulings and this Court's
affirmation of such resulted in the removal of the Montana Green Party candidates from
the State's election ballots for the 2020 general election.
The Secretary has moved for a stay ofthis Court's Order. He asserts that he intends
to petition the United States Supreme Court for certiorari and argues that judicial review
will be frustrated if the matter is not stayed as the Secretary must certify the 2020 general
election ballots today, August 20,2020. The Secretary maintains that the candidates cannot
be added to the ballot at a later date should he prevail on appeal, but the candidates could
be marked out or covered up if this Court's determination is ultimately upheld.
The Secretary offers no legal authority for a motion to stay an order of this Court
because the party intends to petition the United States Supreme Court for certiorari. The

App. 1

Secretary cites generally to Billings High Sch. Dist. No. 2 v. Billings Gazette, 2006 MT
329, 335 Mont. 94, 149 P.3d 565, in which this Court held that Appellants' appeal to this
Court was mooted by their failure to move the district court to stay execution ofits decision,
but the procedure for staying a district court ruling pending appeal to this Court, set forth
in M.R. App. P. 22, is inapplicable to the present matter.
IT IS THEREFORE ORDERED that Appellant's motion for stay is DENIED.
The Clerk is directed to provide immediate notice of this Order to all counsel of
record.
DATED this

day of August 2020.

Justices

2

App. 2

ORO it

08/19/2020

IN THE SUPREME COURT OF THE STATE OF MONTANA
Case Number: DA 20-0396

DA 20-0396.

MONTANA DEMOCRATIC PARTY and
TAYLOR BLOSSOM,RYAN FILZ, MADELINE
NEUMEYER,and REBECCA WEED,individual
electors,

ALE
AUG 1 9 2020
Bowen Greenwood Clerk of Supreme Court
State of Montana

Plaintiffs and Appellees,
ORDER

v.
STATE OF MONTANA,by and through its
SECRETARY OF STATE,COREY
STAPLETON,
Defendant and Appellant.

On August 7, 2020, the State of Montana, by and through its Secretary of State
Corey Stapleton, appealed from Findings of Fact, Conclusions of Law, and Order issued
that same day by the First Judicial District Court, Lewis and Clark County, in its Cause
No. DDV-2020-856. There, the District Court denied the Secretary's motion for partial
summary judgment and .granted the cross-motion for summary judgment of Plaintiffs and
,
Appellees Montana Democratic Party, and individual electors Taylor Blossom, Ryan Filz,
Madeline Neumeyer, and Rebecca Weed. The District Court concluded that a petition to
obtain ballot access for the Montana Green Party for the November 2020 general election
ballot failed to meet the requirements.of § 13-10-601(2), MCA, and thus enjoined the
Secretary and all persons acting under his authority from giving any effect to the Green
Party petition for ballot access.
By Order of August 11, 2020, this Court set an exPedited briefing schedule in this
matter. Pursuant to our Order,the parties timely filed their appellate briefs. We have read
and considered each ofthose briefs, as well as the amicus briefs filed in this matter, along
with the record on appeal.
Having now done so, and with due consideration ofthe arguments and issues raised,

App. 3

IT IS THEREFORE ORDERED that the August 7, 2020 Order ofthe First Judicial
District Court, Lewis and Clark County, in its Cause No. DDV-2020-856, enjoining the
Secretary of State and all persons acting under his authority from implementing or giving
effect to the petition to qualify the Green Party as a minor party eligible for the 2020
election ballot is AFFIRMED. This Court's opinion, analysis, and rationale will follow in
due course.
The Clerk is directed to provide immediate notice of this Order to all counsel of
record.
DATED this

4/1day of August, 2020.

Justices

Justices Jim Rice and Beth Baker would reverse on the issues presented on appeal.

2
App. 4

08/11/2020

1
2

FILED

3

AUG 0 7 2020

Case Number: DA 20-0396

4
rict Court
ty Clerk

5
6
7
8

MONTANA FIRST JUDICIAL DISTRICT COURT
LEWIS AND CLARK COUNTY

9
10

MONTANA DEMOCRATIC PARTY,

Cause No.: DDV-2020-856

11
12

and

13

TAYLOR BLOSSOM,RYAN FILZ,
MADELINE NEUMEYER,and
REBECCA WEED,individual electors,

14

FINDINGS OF FACT,
CONCLUSIONS OF LAW,AND
ORDER

15
Plaintiffs,

16
17

v.

18
19
20
21

STATE OF MONTANA,by and through
its SECRETARY OF STATE COREY
STAPLETON,
Defendant.

22
23

This Court heard this matter on July 14 and 15, 2020.1 Peter

24

Michael Meloy and Matthew Gordon represented Plaintiffs Taylor Blossom,

25

Ryan Filz, Madeline Neumeyer,Rebecca Weed, and the Montana Democratic

The more extensive and complicated procedural history of this matter is recited in the Findings of Fact,
below.

App. 5

1

Party(MDP). Austin James and Matthew T. Meade represented Defendant State

2

of Montana, by and through Secretary of State Corey Stapleton (Secretary).
The parties presented testimony and evidence and made oral

3
4

arguments. Following the hearing, the parties submitted proposed findings of

5

fact and conclusions oflaw and briefs. On July 17, 2020,the parties submitted

6

notices of submitta1.2
From the file, the testimony and evidence presented, the Court

7
8

makes the following:
FINDINGS OF FACT

9
10
11

1.

This matter came before the Court on an order to show cause

on Plaintiffs' Complaint for Declaratory and Injunctive Relief
2.

12

Plaintiffs filed the complaint on June 1, 2020, against the

13

Secretary, alleging that the Secretary erroneously failed to honor the requests of

14

several hundred Montana voters to withdraw their names from a petition to

15

obtain ballot access for the Montana Green Party for the November 2020 general

16

election ballot. Plaintiffs alleged that once the withdrawals are accounted for, the

17

petition fails to meet the requirements of Section 13-10-601(2), MCA,the

18

political party qualification statute, because it does not contain the requisite

19

number of valid signatures from at least thirty four legislative House Districts.

20

3.

On Monday, June 22, 2020, the First Judicial District Court,

21

Judge Kathy Seeley presiding, began a hearing on an order to show cause. Six

22

days before the hearing, Plaintiffs filed a trial brief containing exhibits and

23

declarations from Plaintiffs' trial witnesses. Late Friday before the hearing, and

24

on the morning of the hearing, the Secretary filed various motions to dismiss the

25

complaint and to vacate the hearing. Plaintiffs opposed all motions. At the

2

The Court has also granted status to certain entities and people to file briefs as amici curiae as set forth in
the findings of fact below and in the accompanying Order on Supplemental Motion.
Findings of Fact, Conclusions of Law, and Order — page 2
DDV-2020-856

App. 6

1

hearing before Judge Seeley, counsel argued the Secretary's motions about

2

whether to proceed, and upon hearing argument, the Court decided to proceed

3

with the hearing and hear evidence and testimony. The Secretary then requested

4

a two-minute recess during which the Secretary filed a motion to substitute Judge

5

Seeley. Judge Seeley referred the matter to Judges Mike Menahan and Michael

6

F. McMahon, both of whom declined to assume jurisdiction. Judge Seeley then

7

referred the matter to the undersigned, who accepted jurisdiction and set a

8

continuation of the show cause hearing for Tuesday, July 7.

9

4.

Prior to the July 7 hearing, the Montana Republican Party

10

(MTGOP)and two petition signers filed motions to intervene as defendants. The

11

MTGOP also filed a motion to reschedule the Tuesday, July 7 hearing. The

12

Secretary filed a response joining in the MTGOP's request to reschedule the

13

Tuesday, July 7 hearing. Plaintiffs opposed the motions to intervene and the

14

motion to reschedule the hearing. On the Sunday before the July 7 hearing, the

15

Secretary filed an emergency motion to continue the hearing due to a family

16

emergency that befell one of its counsel.
5.

17

Plaintiffs filed a supplemental trial brief containing exhibits

18

and declarations that reflected subsequent productions of public records by

19

county elections offices and the Secretary since the first hearing in the case. This

20

filing included copies of every signature withdrawal form known to Plaintiffs to

21

have been submitted to county elections offices or to the Secretary.
6.

22

On July 7, the parties convened before the Court. The Court

23

granted the Secretary's request to continue the hearing, and re-set the hearing to

24

begin Tuesday, July 14.

25

/////

Findings of Fact, Conclusions ofLaw, and Order — page 3
DDV-2020-856

App. 7

1

7.

On July 8, the Secretary moved for partial summary judgment

2

regarding the use of electronic signatures on withdrawal forms. Plaintiffs opposed

3

the Secretary's motion and cross-moved for summary judgment on this issue.

4
5
6

8.

On July 14 and 15, the Court held a two-day evidentiary

9.

At the outset ofthe hearing on July 14, the Court denied the

hearing.

7

motions to intervene by the MTGOP and two individual signers of the petition.

8

The Court granted these entities the right to file briefs as amici curiae. The two

9

individual signers immediately filed a petition for a writ of supervisory control in

10

the Montana Supreme Court seeking to reverse the Courfs order denying their

11

motion to intervene. The Montana Supreme Court denied the petition on July 15,

12

noting Plaintiffs did not object to the signers' participation as amici curiae.

13

Campbell v. Montana First Judicial District Court, No. OP 20-360.

14

10.

The Court heard testimony from five witnesses for the

15

Plaintiffs, including IVIDP representatives Kendra Miller and Trent Bolger, and

16

individual plaintiffs Madeleine Neumeyer(Neumeyer), Rebecca Weed (Weed),

17

and Taylor Blossom (Blossom). The Secretary called one witness, Dana Corson,

18

the Secretary's Elections Director. On rebuttal, Plaintiffs re-called Kendra Miller

19

and Trent Bolger to testify. All witnesses were subject to cross examination, and

20

both parties offered exhibits into evidence. The Court concluded the hearing

21

with closing argument on the issues presented in the case.

22

11.

The political party qualification statute, § 13-10-601, MCA,

23

specifies how parties are eligible to conduct a primary election. The statute has

24

two ways by which a party may appear on the primary election ballot. First, a

25

political party will appear on the primary ballot if it had a candidate for statewide

Findings of Fact, Conclusions of Law, and Order — page 4
DDV-2020-856

App. 8

1

office in either of the last two general elections who received a total vote that was

2

at least five percent of the total vote received by the successful candidate for

3

governor. § 13-10-601(1), MCA. Under this provision, MDP,the MTGOP and

4

the Montana Libertarian Party have qualified to appear on the primary ballot.
12.

5

If a party does not qualify under this previous subsection, it

6

may nevertheless qualify for the primary by submitting a petition, on a form

7

prescribed by the Secretary, requesting a primary election. Section 13-10-

8

601(2)(a), MCA. Section 13-10-601(2)(b), requires:

9
10
11
12
13
14

The petition must be signed by a number of registered voters
equal to 5% or more ofthe total votes cast for the successftil
candidate for governor at the last general election or 5,000 electors,
whichever is less. The number must include the registered voters in
more than one-third of the legislative districts equal to 5% or more of
the total votes cast for the successful candidate for governor at the
last general election in those districts or 150 electors in those
districts, whichever is less.

15

13.

Montana has 100 legislative districts. Mont. Const. Art. V,

16

section 2. Therefore, as set forth in this statute, the petition must include the

17

verified signatures of registered voters in at least 34 legislative districts, being

18

"more than one-third of the legislative districts." Section 13-10-601(2)(b), MCA.

19

14.

Plaintiff Neumeyer signed the petition in Helena in February

20

2020. Neumeyer believed the petition was being advanced by an environmental

21

organization. She did not know the circulation ofthe petition was being funded

22

by the MTGOP,as explained below. Neumeyer generally supports the

23

Democratic Party and Democratic candidates for office. Had she known that the

24

MTGOP was behind the petition, she would not have signed it.

25

/////

Findings of Fact, Conclusions of Law, and Order — page 5
DDV-2020-856

App. 9

1

15.

Plaintiff Weed signed the petition in Bozeman in February

2

2020. Weed believed the petition circulator was working with the Montana

3

Green Party to get the Green Party on the ballot. Weed generally leans towards

4

supporting the Democratic Party and usually supports Democratic candidates for

5

office. She did not know the circulation of the petition was being funded by the

6

MTGOP. Had she known that the MTGOP was behind the petition, she would

7

not have signed it.

8

16.

9

Plaintiff Blossom signed the petition in in Bozeman in

February 2020. Based on his conversation with the petition circulator, Blossom

10

believed that the petition circulator was working with the Montana Green Party to

11

get the Green Party on the ballot. Blossom considers himself to be a member of

12

the Democratic Party and supports Democratic candidates for office. He did not

13

know the circulation of the petition was being funded by the MTGOP. Had he

14

known that the MTGOP was behind the petition, he would not have signed it.

15

17.

By mid-February when the circulators had finished

16

collecting almost all ofthe petition signatures that they would eventually turn in,

17

there was not any public information as to whom was financing the Montana

18

Green Party petition effort, although there was discussion in the general news

19

media raising the question as to whom was financing this effort.

20

18.

On February 12, the Montana Green Party posted a message

21

on its Facebook page stating:

22

/////

23

/////

24

/////

25

/////

Findings of Fact, Conclusions ofLaw, and Order — page 6
DDV-2020-856

App. 10

1
2
3
4
5
6
7
8
9
10

We have been receiving notice that there are people falsely
collecting information on behalf of the Green Party. As ofthe
moment, we are still in a legal battle against the state of MT,and in
such a state are not collecting, nor have we hired or asked for
volunteers to collect information this 2020 cycle... As of now, we
have no house senate or state office candidates running for the 2020
election, at least until the lawsuit reaches resolution. Any individual
acting in rude or suspicious behavior claiming to be collecting
information on our behalf is not affiliated with our name and
mission.
See, Finding of Sufficiency, Luckey v. Advanced Micro Targeting,
No. COPP 2020-CFP-004, at 3(June 25, 2020)(hereinafter Luckey).
19.

Local news reporters discovered that on February 14, the

11

Club for Growth Action, a political arm of a Washington D.C. SuperPAC, filed

12

paperwork with the Commissioner ofPolitical Practices(COPP)as a committee

13

to petition to qualify a minor political party for primary elections, identifying the

14

Green Party as the minor party. Luckey at 2.

15

20.

In response to reporters' inquiries, however, a spokesman

16

for Club for Growth Action denied that it was behind the signature gathering

17

efforts. Luckey, at 2. The spokesman told MTN News on February 13 that Club

18

for Growth Action had explored undertaking that effort for the Montana Green

19

Party and then decided against it.

20

21.

As a result, well after the circulators had finished collecting

21

the petition signatures, Montanans still did not know who was financing the

22

Montana Green Party petition effort. For example, one local news report

23

published February 13 stated "A group other than the Montana Green Party has

24

been attempting to qualify the party for the 2020 ballot in Montana — but it's not

25

Findings of Fact, Conclusions of Law, and Order — page 7
DDV-2020-856

App. 11

1

clear who." In a radio interview published February 21, one local reporter posed

2

the following question to her colleague:

3
4
5
6

[I]n the realm of shenanigans, some unknown group has gathered
signatures and submitted petitions around the state to qualify the
Green Party for the ballot, a move that is seen as possibly helping
Republican candidates. The Green Party in Montana says it's not
them. And a conservative PAC,the Club for Growth, says it's not
them either. So who is it?

7
8
9
10
11

Her colleague, a local politics reporter, responded: "That's a really
good question that I would like to find out the answer to. .

[H]opefully we'll

see some sort of paperwork filed soon to give us an idea of who's behind it."
22.

During the 2019 legislative session, the Montana legislature

12

passed legislation to require prompt disclosure of contributions and expenditures

13

made to petition to qualify a minor political party for primary elections. Sections

14

13-37-601 to -607. These statutes became effective October 1, 2019. Despite

15

these newly enacted statutes, Montanans did not know who was funding the

16

petition to place the Green Party on the ballot. This 2019 legislative action was

17

in response to a similar effort on the part of unknown individuals or groups in

18

2018 to petition to qualify the Montana Green Party for ballot access.

19

23.

In 2018, Advanced Micro Targeting, a Nevada political

20

consulting firm operating through thirteen paid signature gatherers, many from

21

out of state, independently collected 9,461 signatures from four counties in

22

support ofthe Montana Green Party petition. Larson v. State By & Through

23

Stapleton, 2019 MT 28 ¶ 4,394 Mont. 167, 434 P.3d 241. A representative of

24

the Green Party testified that it did not commission or coordinate with this

25

eleventh-hour paid signature gathering effort and was unaware of it until learning

Findings of Fact, Conclusions of Law, and Order — page 8
DDV-2020-856

App. 12

1

of it through news media reports. Id. ¶ 4 n.2. Based on the failure of Advanced

2

Micro Targeting to comply with statutory requirements applicable to political

3

party petition signatures, this Court invalidated some of the affected signatures

4

and enjoined the Secretary from affording the Montana Green Party ballot access

5

in the 2018 general election. The Montana Supreme Court, by a six to one vote,

6

affirmed this Court's decision on appeal.Id. ¶ 65.
24.

7

Based on the events surrounding the 2018 Montana Green

8

Party petition, MDP filed a campaign practices complaint with the COPP against

9

Advanced IVIicro Targeting, alleging that the firm failed to register and report

10

contributions and expenses for its electioneering activities performed through its

11

petition campaign.
25.

12

The COPP determined that Advanced Micro Targeting's

13

activities did not qualify as expenditures under then-existing Montana campaign

14

finance law. The COPP dismissed MDP's complaint. Dismissal and Sufficiency

15

Decision, Mont. Democratic Party v. Advanced Micro Targeting, No. COPP

16

2018-CFP-004, at 4-5 (July 20, 2018).
26.

17

As noted above, during the 2019 legislative session, the

18

Montana legislature enacted new campaign finance disclosure requirements

19

applicable to political party qualification petitions. As a result ofthe 2019

20

legislation, Montana law now imposes disclosure and reporting requirements on

21

efforts to petition to qualify a minor political party for primary elections similar

22

to the requirements applicable to efforts to petition to qualify initiatives and

23

referenda. See §§ 13-37-601 et seq., MCA.

24

/////

25

/////

Findings of Fact, Conclusions of Law, and Order — page 9
DDV-2020-856

App. 13

1

27.

Among the disclosure requirements mandated by these

2

statutes, organizations making efforts to qualify a minor political party for

3

primary elections using a political party qualification petition are now required to

4

file an organizational statement with the COPP within five days of spending or

5

receiving $500 towards the effort. § 13-37-602, MCA;§ 13-37-601(4)-(7), MCA.

6

28.

The organizational statement is required to contain details

7

about the minor party qualification committee, including its name and complete

8

address, the identity of its treasurer and depository accounts, the names and

9

addresses of its officers, and an organizational statement.

10

29.

No entity filed an organizational statement under § 13-37-

11

602, MCA,as a minor party qualification committee for the petition with the

12

COPP until February 14, after almost all the petitions had been signed. The

13

February 14th filing, however, still did not reveal the entity funding the petition.

14

Club for Growth immediately denied that it was behind the signature gathering

15

effort. Luckey, at 2.

16

30.

According to the Secretary's pre-election calendar, the

17

deadline for petition circulators to submit minor party qualification petitions to

18

county elections offices was March 2nd.

19

31.

On March 6, the Secretary announced to county elections

20

officials and to the media that the Montana Green Party had submitted enough

21

signatures to satisfy the requirements of § 13-10-601, MCA. The Secretary thus

22

added the Green Party to the list of political parties on its website.

23

32.

The Secretary's announcement did not identify in which

24

house districts the petition had exceeded the minimum required number of

25

signatures or the number of signatures in each ofthose districts.

Findings of Fact, Conclusions ofLaw, and Order — page 10
DDV-2020-856

App. 14

1

33.

At the time of the Secretary's announcement on March 6,

2

Montanans still did not know who was financing the Montana Green Party

3

petition effort. For example, a local news report published on March 7 stated "It's

4

unclear who paid the out-of-state signature gatherers. Montana's Green Party has

5

said it wasn't them."

6

34.

As the news began to spread in late February and early

7

March that the Montana Green Party had not sponsored the petition to qualify the

8

Montana Green Party for ballot access, and that some unknown entity was behind

9

the effort, signers began to demand that their names be removed from the

10

petition. For example, Plaintiff Blossom attempted to withdraw his signature on

11

March 6. Plaintiff Weed attempted to withdraw her signature on March 5.

12

Blossom and Weed each filled out a signature withdrawal form the same day they

13

leamed that the Montana Green Party had disavowed the petition to put the Green

14

Party on the ballot and submitted it shortly thereafter.

15

35.

Montana law has long recognized the right of petition

16

signers to withdraw their names from a petition. The Montana Legislature has

17

not provided specific statutory requirements that signers of political party

18

qualification petitions must follow to withdraw their names from such petitions.

19

36.

By contrast, Montana law does specify a process by which

20

signers ofpetitions for constitutional amendments, calls for constitutional a

21

convention, initiatives, or referenda may withdraw their signatures: and grants to

22

the Secretary the authority to prescribe the form to be used by an elector desiring

23

to have the elector's signature withdrawn from such a petition. Section 13-27-

24

301(3), MCA. This statute does not mention political party qualification

25

petitions nor is this statute incorporated by reference in the statutes governing

Findings of Fact, Conclusions of Law, and Order — page 11
DDV-2020-856

App. 15

1

political party qualification petitions. Cf, § 13-10-601(2)(c), MCA,

2

incorporating §§ 13-27-403 through 13-27-306, MCA,for process to be used in

3

verifying signatures on a political party qualification petition.3

4

37.

As noted, this statutory process for withdrawals from

5

petitions for a "constitutional amendment, constitutional convention, initiative, or

6

referendum" requires the Secretary to prescribe a form for the signer to use.

7

Section 13-27-301(3), MCA.

8
9

38.

The statutory process for withdrawals frorn petitions for a

"constitutional amendment, constitutional convention, initiative, or referendum"

10

also provides a deadline for withdrawals. That deadline is the same day that

11

petitions for a "constitutional amendment, constitutional convention, initiative, or

12

referendum" must be submitted to county elections officials. Section

13

13-27-301(1),(3), MCA:

14

Signatures may be withdrawn from a petition for constitutional
arnendrnent, constitutional convention, initiative, or referendum up
to the time of final submission of petition sheets as provided in
subsection (1). The secretary of state shall prescribe the form to be
used by an elector desiring to have the elector's signature withdrawn
from a petition.

15
16
17
18

39.

19

Based on this statutory authority, the Secretary has

20

prescribed a withdrawal forrn for petitions for a "constitutional amendment,

21

constitutional convention, initiative, or referendum." The withdrawal form

22

expressly states that, "Signatures may be withdrawn frorn a petition for

23

constitutional amendment, constitutional convention, initiative, or referendum up

24

to the time offinal submission of petition sheets to the county election office." Id.

25

3

This shows the legislatures ability and awareness to incorporate statutes into the political party
qualification petition statutes if it desires to do so.
Findings of Fact, Conclusions of Law, and Order — page 12
DDV-2020-856

App. 16

1

The form does not reference withdrawal of signatures from a political party

2

qualification petition.

3

40.

The withdrawal form also requires that the "signer must sign

4

in the presence of a notary public or an officer of the office where the form is

5

filed." Id. However, the statute authorizing the Secretary to prescribe such a

6

form for withdrawals from petitions for a "constitutional amendment,

7

constitutional convention, initiative, or referendum" does not mention a

8

requirement that the form be notarized or signed in person in the presence of an

9

election official. Cf, § 13-27-301(3), MCA.

10

41.

The Secretary did not present, and the Court cannot find,

11

evidence that the Secretary's withdrawal form was prescribed through an

12

administrative rulemaking process, pursuant to § 2-4-302, MCA.

13

42.

Unlike § 13-27-301, MCA,governing the withdrawal of

14

signatures from a petition for a constitutional amendment, constitutional

15

convention, initiative, or referendum, no statute grants the Secretary authority to

16

prescribe a form for withdrawing from political party qualification petitions.

17

Austin James, as chief staff attorney for the Secretary, advised the Secretary that

18

§ 13-27-301(3) was not relevant to signature withdrawal from a political party

19

qualification petition because the statutes expressly referenced by the political

20

party qualification statute do not include Section 13-27-301, MCA.

21

43.

Section 13-10-601(2)(a) directs and grants the Secretary the

22

authority to prescribe a form for petition circulators to use when gathering

23

signatures for a political party qualification petition. The Secretary has

24

prescribed such a form. That petition form does not require that a petition signer

25

sign in the presence of a notary or county elections official.

Findings of Fact, Conclusions of Law, and Order — page 13
DDV-2020-856

App. 17

1

44.

Nevertheless, the Secretary believed that petition signers

2

who wanted to withdraw their names from the Green Party qualification petition

3

must use the withdrawal form applicable to petitions for a constitutional

4

amendment, constitutional convention, initiative, or referendum. The Secretary's

5

election director testified that if a petition signer wishing to withdraw his or her

6

signature submitted a different form or submitted a withdrawal form that was not

7

notarized or signed by a county elections official, it would not be honored.

8
9

45.

The Secretary has not prescribed any administrative rule or

issued any publicly accessible statement of policy regarding withdrawals from a

10

political party qualification petition. Likewise, the Secretary has not promulgated

11

through administrative rulemaking a form for a signer of a political party

12

qualification petition to use to withdraw their signature from such a petition.

13

46.

The Secretary did not notify the public or issue any publicly-

14

accessible statement regarding the Secretary's belief that petition signers who

15

wanted to withdraw their names from the Green Party qualification petition must

16

use the withdrawal form, or that ifthey submitted a different form, or submitted a

17

withdrawal form that was not notarized or signed by a county elections official, it

18

would not be honored. The Court has not found or been directed to any statute,

19

administrative rule, or public policy statement from the Secretary in support of

20

these positions ofthe Secretary.

21

47.

The Secretary did not notify the public or issue any publicly

22

accessible statement regarding the Secretary's belief that the deadline for signers

23

of political party qualification petitions to withdraw would be at the moment the

24

Secretary determined sufficiency and that the Secretary would not honor

25

withdrawal requests received after that moment. The Court has not found or

Findings of Fact, Conclusions of Law,and Order — page 14
DDV-2020-856

App. 18

1

been directed to any statute, administrative rule, or public policy statement from

2

the Secretary in support of these positions ofthe Secretary.
48.

3

The Secretary did not notify the public in advance or issue

4

any publicly-accessible statement that he would on March 6, 2020 make a

5

determination of sufficiency for the Green Party petition or that he would refuse

6

to accept any signature withdrawal forms that were submitted after that moment.

7

The Court has not found or been directed to any statute, administrative rule, or

8

public policy statement from the Secretary in support of these positions ofthe

9

Secretary.

10

49.

The Secretary did not notify the public or issue any publicly

11

accessible statement that the Secretary believed that a petition withdrawal request

12

that is electronically signed is not valid and would not be honored. The Court has

13

not found or been directed to any statute, administrative rule, or public policy

14

statement from the Secretary in support of this position ofthe Secretary.
50.

15

Regarding the Secretary's foregoing determinations as to

16

processes for the withdrawal of a petitioner signer's signature, the Secretary did

17

not provide any opportunity for public input or participation prior to adopting

18

these various determinations.

19

51.

On March 3, 2020, the same day the Secretary's Elections

20

Director received a legal memorandum from the Secretary's chief counsel

21

regarding signature withdrawal from a minor party petition, the Director sent an

22

email to county elections officials on that topic, revising prior guidance:

23

/////

24

11111

25

11111

Findings of Fact, Conclusions of Law, and Order — page 15
DDV-2020-856

App. 19

1
2
3
4
5

There are questions about if an election office can accept a request
from a signer of a petition to withdraw their signature. Yes, in
reviewing this, any person signing the petition has the right to
withdraw at any time before the person or body created by law to
determine the matter submitted by the petition has finally acted.
52.

The Director's March 3 email, however, did not identify the

6

Secretary as "the person or body created by law to determine the matter

7

submitted by the petition." Likewise, the Director's March 3 email did not

8

identify the Secretary's act of announcing that a political party qualification

9

petition contained a sufficient number of signatures as "the time the person or

10

body created by law to determine the matter submitted by the petition has finally

11

acted." The Director's March 3 email also did not contain any statement

12

regarding the Secretary's belief that the deadline for signers of political party

13

qualification petitions to withdraw their signatures was March 6, 2020.

14

53.

The Director's March 3 email contained instructions for the

15

process for withdrawals, including an instruction to time stamp withdrawal forms

16

as they arrived in county election officials' offices, and that if there were no date

17

stamp, to determine the arrival date ofthe form with the best data available to the

18

county election official.

19

54.

The Director's March 3 email did not instruct county

20

elections administrators to review withdrawal forms for completeness or

21

compliance with any specific requirements. For example, the March 3 email did

22

not contain any instructions regarding whether a withdrawal form must be signed,

23

or what kinds of signatures are acceptable. The March 3 email did not instruct

24

county elections administrators to compare a signature on a withdrawal form to a

25

voter's signature on file with the county elections office. See, § 13-27-303,

Findings of Fact, Conclusions of Law, and Order — page 16
DDV-2020-856

App. 20

1

MCA,incorporated into political party qualification statute, requiring local

2

county election officials to check the names and signatures of petition signers

3

against county registration records of the office.

4
5

55.

The March 3 email was not made public until July 14, when

the Secretary disclosed it as an exhibit in this action.

6

56.

The Secretary's March 3 internal memorandum from

7

attorney Austin James opined that Section 13-27-301, MCA,which sets out the

8

statutory process for withdrawals from petitions for a "constitutional amendment,

9

constitutional convention, initiative, or referendum," is "not a relevant statute

10

regarding signature withdrawal from a political party qualification petition"

11

because the statutes expressly referenced by the political party qualification

12

statute do not include Section 13-27-301, MCA.

13

57.

14

Section 13-27-308, MCA,provides:

When a petition for referendum, initiative, constitutional
convention, or constitutional amendment containing a sufficient
number of verified signatures has been filed with the secretary of
state within the time required by the constitution or by law, the
secretary of state shall immediately certify to the governor that the
completed petition qualifies for the ballot.

15
16
17
18
19

This statute does not refer to §§ 13-10-601 through -605, MCA,

20

the political party qualification statutes, nor do the political party qualification

21

statutes refer to or incorporate this statute, regarding certification of a petition to

22

the governor. No statute provides that, for a political party qualification petition,

23

the Secretary is delegated authority to "certify to the governor" that a minor party

24

qualification petition meets the threshold to get on the primary ballot.

25

/////

Findings of Fact, Conclusions of Law, and Order— page 17
DDV-2020-856

App. 21

1

58.

The Secretary did not introduce evidence that he certified to

2

the Governor that the political party qualification petition "qualifies for the

3

ballot."

4

59.

The Secretary's March 3 internal memorandum was not

5

made public until July 14, when the Secretary disclosed it as an exhibit in this

6

action.
60.

7

On March 24, more than two weeks after the Secretary

8

announced on March 6 the petition contained enough valid signatures, it was

9

revealed for the first time that the group funding the circulation of the petition

10

was the MTGOP. One local news report published on March 24 stated:"A

11

mystery of the 2020 election was solved Tuesday as it became clear the MTGOP

12

paid for an effort to qualify the Montana Green Party for the ballot this election."

13

Ex. 16, at 1.
61.

14

Local reporters uncovered that the MTGOP Central

15

Committee contracted directly with a Texas-based petition signature gathering

16

firm, Advanced Micro Targeting, to hire paid circulators to gather signatures for

17

the petition. As the COPP later found, the MTGOP Central Committee made an

18

expenditure of$50,000 to Advanced Micro Targeting on January 21. Luckey,

19

pp. 1-2.
62.

20

The MTGOP Central Committee did not file an organization

21

statement as a minor party qualification committee with the COPP within five

22

days of spending $50,000 towards the effort, as required by §§ 13-37-602, and

23

§ 13-37-601(7), MCA. Luckey, p. 4.

24

11111

25

11111

Findings of Fact, Conclusions of Law, and Order — page 18
DDV-2020-856

App. 22

1

63.

Instead, on January 24, an entity called Montanans for

2

Conservation filed an organization statement with the COPP. Montanans for

3

Conservation did not file an organization statement as a minor party qualification

4

committee. Rather, it filed an organization statement as an independent political

5

committee with the COPP.Luckey, p. 2. On February 3, Montanans for

6

Conservation amended its organization statement. The amendment added a

7

statement that the committee "would serve as the minor party qualification

8

committee to qualify the Montana Green party to hold primary elections in

9

Montana." The amendment did not request a committee status change from an

10

independent committee to a minor party qualification committee. Luckey, p. 2.

11

64.

By registering as an independent political committee instead

12

of a minor party qualification committee, Montanans for Conservation concealed

13

its role in ftmding the petition. There are hundreds of independent committees

14

listed in the COPP's Campaign Electronic Reporting System database. By

15

contrast, there are only two minor party qualification committees listed in the

16

database. If an individual had at the time filtered the records in the Campaign

17

Electronic Reporting System to show only minor party qualification committees,

18

he or she would not have discovered the Montanans for Conservation filing.

19

65.

It was not until March 23, seventeen days after the

20

Secretary's March 6, announcement,that Montanans for Conservation filed

21

another amended organization statement to change its committee type from

22

independent committee to minor party qualification committee. Luckey, p. 2.

23

The next day, local reporters ran articles revealing that Montanans for

24

Conservation was the entity serving as the minor party qualification committee

25

for the petition, and that the MTGOP Central Committee was the entity that

Findings of Fact, Conclusions ofLaw, and Order — page 19
DDV-2020-856

App. 23

1

contracted with and paid Advanced Micro Targeting to gather signatures for the

2

Green Party Qualification Petition.
66.

3

The only contributions to Montanans for Conservation were

4

a cash contribution of$800 from the MTGOP Central Committee to set up the

5

committee, and an in-kind contribution from the MTGOP Central Committee of

6

$100,000 for hiring Advanced Micro Targeting. Luckey, p. 4. No other entity

7

contributed to Montanans for Conservation. Id.
67.

8

Because the MTGOP Central Committee was the entity that

9

contracted directly with Advanced Micro Targeting to gather signatures on the

10

petition, the sole purpose of Montanans for Conservation was to serve as a shell

11

group to which the MTGOP Central Committee could attribute its expenditures.

12

This enabled the MTGOP Central Committee to avoid having to register as the

13

minor party qualification committee within five days of expending funds on

14

petition signature gathering activities.
68.

15

COPP later determined that Montanans for Conservation,

16

the MTGOP,and Club for Growth Action, violated Montana's campaign finance

17

law. Luckey, p. 8-10. COPP found that Montanans for Conservation failed to

18

timely file as a minor party qualification committee as required by Section 13-37-

19

602, MCA.Id. According to the COPP,this delay in reporting its efforts in

20

violation of Montana law "added to the confusion surrounding the Green Party

21

qualification effort in February and March of2020." Luckey, p. 8.
69.

22
23

As confiision proliferated over the Green Party petition

effort, MDP mobilized to inform signers that an unknown entity unaffiliated with

24
25

/////

Findings of Fact, Conclusions of Law, and Order — page 20
DDV-2020-856

App. 24

1

the Montana Green Party—eventually revealed to be the MTGOP—was behind

2

the petition, and assisted signers who wanted to withdraw their names from the

3

Petition.
70.

4

To determine who had signed the petition, and the number

5

of signatures on the petition and in each house district, MDP downloaded from

6

the Secretary's website a copy of the Petition Signers Report. The Secretary's

7

website describes the Petition Signers Report as "a county-by-county record of a

8

specific petition's signere and contains fields for each signer, including the

9

signer's "County, Submittal Number, Sheet, Line, Voter ID,Name,Residence,

10

Status, Verification Reason (if the signature was rejected, the rejection reason

11

selected by the county is included), House District, and Circulator."
71.

12

It was difficult for MDP to reach signers of the petition.

13

MDP did not have email addresses, cell phone numbers or phone numbers for

14

many signers. Many phone numbers and addresses were incorrect or out of date.
72.

15

When MDP organizers were able to reach signers and

16

inform them that the Montana Green Party was not involved in the petition, and

17

that the backers of the petition were unknown,some signers wanted to withdraw

18

their names from the petition.
73.

19

When it was revealed on March 24 that the MTGOP had

20

sponsored, organized, and paid for the circulation of the petition, there was a

21

significant increase in the number of signers who took steps to withdraw from the

22

petition. Four times as many signers sought to withdraw in the first two weeks

23

after March 24 as compared to the two weeks prior.

24

/////

25

/////

Findings of Fact, Conclusions of Law, and Order — page 21
DDV-2020-856

App. 25

74.

1

Many signers reached by MDP were surprised to learn that

2

the MTGOP was behind the Petition and that the Montana Green Party had

3

nothing to do with the petition. For example, until she was reached by MDP in

4

April, Plaintiff Neumeyer was not aware that the MTGOP had any involvement

5

in the Petition.

6

75.

Although MDP did not believe it was necessary for signers

7

of a political party qualification petition attempting to withdraw their signature to

8

complete the withdrawal form for signers of"constitutional amendment,

9

constitutional convention, initiative, or referendum" petitions,4 MDP advised

10

signers that county elections officials would likely accept that form, and took

11

steps to assist signers in completing and submitting such forms.

12

76.

The withdrawal form states that it should be signed in the

13

presence of a county elections official or a notary. Although some signers were

14

able to make the trip to their county elections office to sign the form or were able

15

to arrange a meeting with a notary to get the form notarized and submitted, for

16

other signers, these steps were burdensome. MDP attempted to assist where

17

possible by arranging for a notary to meet such signers at a convenient location

18

77.

Shortly before the Governor issued the stay-at-home order in

19

response to the COVID-19 pandemic, signers who wanted to withdraw their

20

signatures told MDP organizers that they were unable or unwilling to travel to a

21

county elections office or meet with a notary because of concerns about

22

maintaining social distancing and attempting to eliminate non-essential travel.

23
24

78.

MDP also arranged for online notary services for signers.

Those services, however, require a computer, a high-speed intemet connection,

25
4

This is consistent with the opinion of the Secretary's chief counsel that the withdrawal form for
constitutional amendment, constitutional convention, initiative, or referendum was not relevant to withdrawing of
signatures on a political party qualification petition, a conclusion with which the Court agrees.
Findings of Fact, Conclusions ofLaw, and Order — page 22
DDV-2020-856

App. 26

1

video conferencing capability, installing software, and navigating the software's

2

user interface.

3

79.

The online notary solution proved difficult and cumbersome

4

for some signers, especially elderly voters who were unfamiliar with the

5

technology. For some signers, the online notary solution did not work at all; for

6

others, it took up to forty-five minutes to work.

7

80.

Because the online notary service was not an option for

8

many signers, and because MDP did not want to encourage signers to risk their

9

health by venturing out, MDP set up a process that allowed signers to complete

10

the withdrawal form electronically from their computers or smartphones and sign

11

the document using the electronic document signature platform DocuSign.

12

81.

DocuSign collects and records information about the signer

13

and the signature, including the signer's email address, the signer's IP address,

14

and the date and time the document was transmitted, opened, and signed.

15

DocuSign collects the same information about the sender ofthe document—in

16

this case, the name, email address, and IP address of the MDP organizer who sent

17

a copy ofthe DocuSign withdrawal form to the signer ofthe petition. After the

18

signer affixes an electronic signature to a PDF,the document is assigned a unique

19

identifying code that allows for subsequent audits. DocuSign also provides an

20

electronic copy of the signed document to the signer for their records.

21

82.

MDP would receive copies ofthe electronically signed

22

withdrawal forms from the signers and transmit them to county elections offices

23

by email in batches.

24

11111

25

11111

Findings of Fact, Conclusions of Law, and Order — page 23
DDV-2020-856

App. 27

83.

1

Plaintiff Neumeyer completed and signed a withdrawal form

2

via DocuSign on April 28, and MDP transmitted her form to the Lewis and Clark

3

County elections department on May 4.

4

84.

Plaintiff Filz did not testify at the hearing. According to

5

Bolger and Miller, Filz completed and signed a withdrawal form on DocuSign on

6

April 3, and MDP transmitted his form to the Yellowstone County elections

7

department on April 13. The Secretary claims it did not receive a withdrawal

8

form from the Yellowstone County elections department on behalf of Filz.

9

85.

MDP was not informed by any county elections official that

10

the official would not accept DocuSign withdrawal forms because they were

11

electronically signed. Expressed differently, MDP was not informed by any

12

county elections official that withdrawal forms must have a "wef' signature.5

13

Similarly, MDP was not informed by the Secretary that it would not accept

14

DocuSign withdrawal forms because they were electronically signed. Likewise,

15

the Secretary did not inform MDP or anybody who submitted a signature

16

withdrawal form of any requirement that withdrawal forms must have a "wet"

17

signature.
86.

18

On April 13, the Yellowstone County Election Administrator

19

stated that he was forwarding MDP's transmission of withdrawal forms with

20

electronic signatures to the Secretary. On May 13, the Lewis & Clark County

21

Election Administrator stated that she was sending MDP's transmission of

22

withdrawal forms with electronic signatures to the Secretary.

23

/////

24
25
5

A 'wet ink' signature is where the parties to the document write (sign) their names with their own hands
upon a paper document by ink pen. Although some specific types of legal documents do still have to be signed by
the traditional 'wet ink' method, most documents including commercial contracts can be signed by electronic
signature' https://www.nextgearcapital.co.uk/help-centre/how-to-use-docusign/what-is-the-difference-betweenan-electronic-signature-and-a-wet-ink-signature/
Findings of Fact, Conclusions of Law, and Order — page 24
DDV-2020-856

App. 28

1

87.

On May 4, 2020 and again on May 22, 2020, at the request

2

of the Missoula County Election Administrator, MDP sent withdrawal forms with

3

electronic signatures directly to the Secretary.

4

88.

The Secretary's Petition Signers Report identifies each

5

signer ofthe petition and whether the Secretary accepted and counted a signature

6

towards the total number of verified signatures of registered voters required from

7

each house district.

8
9
10
11

89.

The Petition Signers Report identifies 116 signatures the

Secretary rejected and did not count towards the total number of verified
signatures because the signer withdrew his or her signature.
90.

The Petition Signers Report indicated that the signatures of

12

Plaintiffs Blossom, Filz, Neumeyer, and Weed were among the signatures

13

accepted and counted towards the total number of required signatures.

14

91.

The Petition Signers Report indicates that the Petition

15

exceeded the required number of accepted signatures in forty-two house districts,

16

including house districts 46, 53, 54, 68, 69, 80, 84, 96, and 97.

17

92.

By late May, over 500 signers ofthe petition who were

18

marked in the Petition Signers Report as accepted and counted towards the

19

required number of accepted signatures had submitted requests to withdraw their

20

signature. MDP obtained copies of withdrawal forms submitted to counties and

21

to the Secretary through public records requests and by retaining copies of

22

withdrawal forms that MDP transmitted to counties or to the Secretary on

23

signers' behalf.

24
25

93.

All but ten ofthese withdrawal forms were received by

county elections offices no later than June 1, as demonstrated either by a stamp or

Findings of Fact, Conclusions of Law, and Order — page 25
DDV-2020-856

App. 29

1

notation placed on the form, by the date that MDP transmitted the forms to the

2

counties, or based upon metadata contained in the documents produced by

3

counties and the Secretary in response to MDP's public records requests. Ten

4

additional withdrawal forms were received by county elections offices no later

5

than June 12.
94.

6
7
8
9

After accounting for the withdrawal forms set out in

Plaintiffs' Exhibits 4 and 5,the Petition contains signatures above the thresholds
set by the Political Party Qualification Statute in no more than 33 House
Districts, as set forth in Plaintiffs' Exhibit 7:

10
11

House District

Signatures
Required

46
53
54
68
69
80
84
96
97

138
129
130
106
109
132
150
150
138

12
13
14
15
16
17
18

Signatures
Accepted by
Secretary (Petition
Signers Report)
161
160
166
136
141
180
208
229
195

Signatures
Withdrawn

Remaining
Signatures
Accepted by
Secretary

At least 29
At least 36
At least 46
At least 43
At least 39
At least 53
At least 74
At least 91
At least 68

At most 132
At most 124
At most 120
At most 93
At most 102
At most 127
At most 134
At most 138
At most 127

19
95.

20

Plaintiffs' Exhibit 7 uses the number of signatures withdrawn

21

based on withdrawal forms received by county elections offices or the Secretary

22

no later than June 12. If the chart used the number of signatures withdrawn based

23

only on withdrawal forms received by county elections offices or the Secretary no

24

later than June 1, the conclusion would not change: the petition contains

25

11111

Findings of Fact, Conclusions of Law, and Order — page 26
DDV-2020-856

App. 30

1

signatures above the thresholds set by the political party qualification statute in no

2

more than 33 House Districts.

3

96.

As conceded by counsel for the Secretary in closing

4

argument, if the Court determines that all the withdrawal requests contained in

5

Plaintiffs' Exhibit 5 should be given effect, the petition does not meet the

6

statutory threshold for qualification.

7
8
9

97.

Kendra Miller, the former data director of MDP,obtained

and relied upon Petition Signers Reports for numerous petitions in the past.
98.

In 2018,in Larson v. State By & Through Stapleton,

10

2019 MT 28 ¶ 4, 394 Mont. 167, 434 P.3d 241,IVIDP requested a copy ofthe

11

Petition Signers Report for the 2018 Green Party petition, and introduced into

12

evidence numerous exhibits that expressly relied upon the data in the Petition

13

Signers Report. See, e.g., Apr. 24, 2018 Hrg. Tr. 48:20-66:10, Larson et al v.

14

Stapleton, CDV 2018-295 (lst Jud. Dist. Ct. 2018). Counsel for the Secretary in

15

the Larson case did not object to the introduction of these exhibits based upon

16

Petition Signers Report data. Nor did the Secretary reveal that the Petition

17

Signers Report was not the record of the petition's signers, and that a different

18

record maintained by the Secretary contained the true record ofthe petition's

19

signers. Corson, testifying on behalf ofthe Secretary in the Larson case, did not

20

testify that the Petition Signers Report was not the record of the petition's

21

signers, or that a different record maintained by the Secretary's office contained

22

the record of the petition's signers. In rendering their decisions in Larson, this

23

Court and the Montana Supreme Court relied upon those exhibits containing data

24

from the Petition Signers Report.

25

Findings of Fact, Conclusions of Law, and Order — page 27
DDV-2020-856

App. 31

99.

1

MDP first obtained a copy ofthe Petition Signers Report for

2

the Green Party petition from the Secretary on March 12 and relied on it to

3

determine how many withdrawal forms had not been honored by the Secretary

4

and to calculate the effect on the Green Party petition's sufficiency ifthose

5

withdrawals were honored.
100. During the July 14-15 evidentiary hearing, Elections

6
7

Director Corson, testifying on behalf ofthe Secretary, stated for the first time that

8

the Petition Signers Report was not the official record ofthe signers ofthe

9

petition. Corson testified that the Secretary used a different decisional document

10

to record the signers ofthe petition and whether their signatures were accepted or

11
12

rejected, and to determine whether the petition contained a sufficient nurnber of
signatures under the political party qualification statute.
101. The Petition Signers Report indicates that Plaintiffs Weed's

13

and Blossorn's signatures were accepted and counted towards the thresholds set
14
by the political party qualification statute in their House Districts. Elections
15
16
17
18

Director Corson testified that withdrawal forms submitted by Weed and Blossom
were received, and that their signatures were not counted towards the thresholds.
Corson testified that the separate decisional document reflected this disposition of
Weed's and Blossom's withdrawal forms.

19

102. The Secretary did not produce this separate decisional

20

document to MDP in response to their public records request for the Petition

21

Signers Report.

22

103. Until the July 14 evidentiary hearing, the Secretary had not

23

informed MDP or the general public that a separate decisional document

24

contained the record ofthe signers ofthe petition and whether their signatures

25

/////

Findings of Fact, Conclusions of Law, and Order — page 28
DDV-2020-856

App. 32

1

were accepted or rejected. The Secretary did not offer this separate decisional

2

document as an exhibit. The document is not part of the record before the Court.

3

104. Director Corson submitted a chart purporting to contain the

4

number of accepted signatures in each house district. Plaintiffs' Exhibit 1

5

compares the number of accepted signatures in each house district as set forth in

6

Director Corson's chart with the number of accepted signatures set forth in the

7

Petition Signers Report. In twelve house districts, Corson's chart records fewer

8

accepted signatures than the Petition Signers Report. In one house district,

9

Corson's chart records more accepted signatures than the Petition Signers Report.

10

105. Plaintiffs' Exhibit 7 uses the number of signatures marked as

11

accepted by the Secretary's Petition Signers Report. If Exhibit 7 instead used the

12

number of signatures marked as accepted on the Corson chart, the conclusions

13

would not change: the petition contains signatures above the thresholds set by the

14

political party qualification statute in no more than thirty-three House Districts.

15

106. After filing an emergency request to continue the hearing,6

16

the Secretary purported to compile records of withdrawal forms in his possession

17

at the time and attempt to determine the effect of honoring such withdrawal

18

forms. The Secretary's compilation, however, did not include all the withdrawal

19

forms that had been submitted to county elections offices.' The Secretary's

20

compilation purported to analyze the effects by house district, but the tabulation

21

is inaccurate because the Secretary relied on current address information rather

22

than address information at the time of petition signing and did not assign all

23

individuals to a house district. The Secretary did not provide the Court with the

24

underlying withdrawal forms on which his tabulation is based.

25
To be clear, the Court does not dispute that the Secretary's emergency motion to continue the hearing was
filed in good faith.
7
Corson testified that the Secretary could not count withdrawal forms it had not received. While this is true,
the Secretary had advised county election officials that withdrawals received after March 6 should not be counted.
Findings of Fact, Conclusions of Law, and Order — page 29
DDV-2020-856

6

App. 33

1

107. At least 562 signers of the Petition submitted requests to

2

withdraw their signature that the Secretary has not honored, according to the

3

Petition Signers Report.

4

108. The Secretary's failure to honor signers' requests to

5

withdraw their signature injures these signers because their signatures are being

6

counted in support of a petition that they no longer wished to support, as

7

demonstrated by their submission of requests to withdraw their signature.

8

109. The Secretary's failure to honor signers' requests to

9

withdraw their signatures also injures these signers because they continue to be

10

associated with a petition and a petition sponsor with whom they no longer wish

11

to be associated. For example, Plaintiffs Neumeyer, Weed, and Blossom testified

12

they are not supporters of the MTGOP, do not support a petition whose purpose

13

is harming the Democratic Party, and do not want to be associated with the

14

MTGOP or its efforts relative to the petition.

15

110. Ifthe Green Party qualifies for ballot access pursuant to the

16

Petition, MDP would be harmed both financially and electorally. IVIDP would be

17

harmed financially because it would need to spend additional funds on voter

18

persuasion, voter education, and polling, and would have to expend additional

19

time and resources to address an additional swath of center-left voters. MDP

20

would be harmed electorally because voters who might otherwise vote for MDP

21

candidates might vote instead for Green Party candidates.

22

111. MDP's mission is to elect Democratic Party candidates in

23

local, county, state, and federal elections. MDP works to accomplish this

24

mission through its efforts to educate, persuade, mobilize, assist, and turn out

25

voters throughout the state.

Findings of Fact, Conclusions of Law, and Order — page 30
DDV-2020-856

App. 34

1

112. In past elections, IVIDP expended millions of dollars to

2

persuade and mobilize voters to support candidates who affiliate with the

3

Democratic Party in Montana. IVIDP again intends to make substantial

4

expenditures to support Democratic candidates in the 2020 general election and

5

in future elections.

6

113. If candidates nominated in the primary election for the

7 Green Party as a result of the petition are given ballot access in the 2020 General

8

Election, MDP will incur additional expenditures and will divert resources from

9 other IVIDP priorities.
114. These expenditures and diversions of resources would be

10
11

caused by the need for MDP to educate voters about the differences between

12 candidates from the Democratic Party and candidates nominated in the Green Party
13

primary, and to persuade voters to vote for candidates from the Democratic Party

14 over candidates nominated in the Green Party primary.
115. For example, MDP will need to calibrate their internal voter

15

16 file differently to target a different ideological area ofthe universe of voters MDP
17 needs to reach to convince them to vote for MDP candidates. This is not
18 something that MDP has planned for and would require MDP to spend money and
19 time to address.
20

116. MDP would also need to contact more voters for persuasion,

21

which in turn requires more volunteers, staff, and campaign materials. MDP would

22 need to put out more expensive and more complicated polling to determine which
23

kinds of voters to target and what kinds of messages to use. All these efforts cost

24 money, and IVIDP would need to devote additional time and effort to fundraising to
25

accomplish them.

Findings of Fact, Conclusions of Law, and Order — page 31
DDV-2020-856

App. 35

From the foregoing findings offact, the Court draws the following:

1

CONCLUSIONS OF LAW

2
3

1.

The Court has jurisdiction to grant declaratory and

4

injunctive relief pursuant to the Montana Uniform Declaratory Judgments Act,

5

Section 27-8-101 et. seq. MCA,and Sections § 27-8-201 et seq., MCA,which

6

authorize the Court to declare rights, status, and other legal relations among the

7

parties. See Larson,¶ 31.
2.

8
9
10
11
12
13

As a court of general jurisdiction, this Court has authority to

hear Plaintiffs' claims under the Montana Constitution. See Section 3-5-302,
MCA.
3.

The Court has subject matter jurisdiction to determine the

validity of a political party qualification petition, like this one. Larson, ¶ 43.
4.

MDP has standing to assert the claims in the Complaint

14

because it is injured by the Secretary's failure to give effect to Montanans'

15

withdrawal requests seeking to remove their names from the Petition. Allowing

16

the Montana Green Party to qualify under the political party qualification statute,

17

and thus obtain primary and general election ballot access, when it has not shown

18

sufficient support as required by statute, would result in MDP having to expend

19

additional funds and resources to educate and persuade voters to support

20

Democratic candidates over candidates claiming to be affiliated with the Montana

21

Green Party in the 2020 general election. See Larson,¶ 43.

22

5.

IVIDP also has standing to assert the claims in the Complaint

23

because MDP,which performs the functions of a membership organization by

24

providing the means by which Democratic voters in Montana express their

25

collective views and protect their collective interest, is harmed because some of

Findings of Fact, Conclusions of Law, and Order —page 32
DDV-2020-856

App. 36

1

its members or associates, including but not limited to Plaintiffs Blossom,

2

Neumeyer, and Weed, are injured by being forced to associate with a petition of a

3

political party with which they never wanted to be associated and by being

4

deprived oftheir right to withdraw their names from that petition.
6.

5

Plaintiffs Blossom, Neumeyer, and Weed have standing to

6

assert the claims in the Complaint because they will suffer a concrete injury by

7

being forced to be associated with a petition organized and funded by a political

8

party with which they do not want to be associated, and by being deprived of

9

their right to withdraw their names from the petition.

10

7.

Montanans have the right to withdraw their signatures from

11

a petition. State ex reL Lang v. Furnish, 48 Mont. 28, 36, 134 P. 297,300(1913)

12

("signers of a petition have an absolute right to withdraw therefrom at any time

13

before final action thereon"); See also Ford v. Mitchell, 103 Mont. 99,61 P. 2d

14

815, 822(1936)("[T]he signers of an initiative petition may, in an appropriate

15

manner and at the proper time ifthey so desire, withdraw from such petition.").

16

The Montana Supreme Court has described this longstanding right as "a

17

necessary inference from the very nature ofthe right of petition." Lang, 134 P.

18

at 300.

19

8.

Pursuant to this right, individuals can withdraw their

20

signature so long as:(1)there is no express legal prohibition on doing so; and (2)

21

individuals withdraw before final action is taken on a petition. Lang, 134 P. at

22

300; Ford,61 P. 2d at 821 (finding right to withdraw in the absence of"an

23

express sanction or prohibition of withdrawalC).

24
25

9.

Even after final action is taken on a petition, signers may

still withdraw if signers learn that representations made to them as an inducement

Findings of Fact, Conclusions ofLaw, and Order — page 33
DDV-2020-856

App. 37

1

to sign the petition, and on which they relied, were false. State ex rel. Peck v.

2

Anderson, 92 Mont. 298, 306, 13 P.2d 231, 234(1932).

3

10.

The statutes governing political party qualification petitions

4

do not contain any express prohibition against persons who have signed the

5

petition from withdrawing their signatures.

6

11.

The statutes governing political party qualification petitions

7

do not defme what constitutes final action for the purposes of those statutes. Nor

8

do those statutes confer any express authority on the Secretary to certify that a

9

minor political party has submitted sufficient signatures to qualify for the general

10

ballot. This contrasts with the statute governing petitions for initiatives,

11

referenda, constitutional amendments, or calls for constitutional conventions.

12

Section 13-27-308, MCA,provides that the Secretary, after tabulating signatures

13

for a "petition for referendum, initiative, constitutional convention, or

14

constitutional amendment," "shall immediately certify to the governor that the

15

completed petition qualifies for the [general election] ballot." This statute, by its

16

plain terms, does not apply to political party qualification petitions. Although the

17

political party qualification statutes incorporate by reference certain statutes

18

applicable to ballot issues, Section 13-27-308, MCA is not among those statutes.

19

See Section 13-10-601, MCA. The political party qualification statute makes no

20

mention of certification by the Secretary, to the Governor or to anybody else, and

21

no other statute delegates certification authority to him.

22

12.

The process by which a political party not otherwise eligible

23

for listing on the primary ballot under § 13-10-601(1), MCA,defines only a

24

process by which a "minoe' political party may nominate its candidates by a

25

primary election. The statute is silent as to the general election. The purpose of

Findings of Fact, Conclusions of Law, and Order — page 34
DDV-2020-856

App. 38

1

this statute is thus different than that for approval of an initiative, referendum,

2

constitutional amendment, or constitutional convention. In these latter petitions,

3

the proposed change to statute or constitution is to be voted on by the electorate

4

at the general election. Initiatives, referenda, constitutional amendments, or

5

constitutional conventions are placed directly upon the general election ballot so

6

long as proponents submit enough valid signatures by the deadline—there is no

7

requirement to first go through a primary election or to take any other

8

preliminary steps. See Mont. Const. art. III, § 4. Once the Secretary certifies to

9

the Governor that the initiative petition qualifies for the ballot, Section

10

13-27-308, MCA,there are no other procedural steps or contingencies that must

11

occur before all voters are afforded the right to vote on the initiative.

12

13.

Political party qualification petitions serve a different

13

function than initiative referenda, constitutional amendments, and constitutional

14

conventions petitions. Final action for purposes of an initiative petition is not the

15

same as fmal action for purposes of a political party qualification petition. The

16

unique characteristics of petitions for political party qualification in Montana

17

compel the conclusion that action on such a petition is not final until votes have

18

been cast and canvassed in the primary election and certificates of nomination

19

have issued.

20

14.

Filing a political primary qualification petition is one of

21

several initial steps in a process through which voters decide whether a political

22

party's candidates in a primary election will obtain ballot access in the general

23

election. Primary election voters make the ultimate decision whether to nominate

24

candidates for office through this procedure, and the state canvassing board,

25

which counts votes and issues certificates of nomination based on those votes, is

Findings of Fact, Conclusions ofLaw, and Order — page 35
DDV-2020-856

App. 39

1

"the person or body created by law to determine the matter submitted by the

2

petitionH" See State ex rel. O'Connell v. Mitchell, 111 Mont. 94, 106 P.2d 180,

3

181 (1940)(citing Ford,61 P.2d 815).

4

15.

The filing of a political party qualification petition with the

5

Secretary simply initiates this multi-step procedure that a party's voters may use

6

to determine who to nominate, but no right to ballot access is acquired until

7

primary votes have been cast and counted for candidates running for a party's

8

nomination. Accordingly, no final action is taken on the petition until that time.

9

See Town ofBlooming Grove v. City ofMadison, 253 Wis. 215, 33 N.W.2d 312

10

(1948).(Holding that tabulation ofthe signatures on a petition was a necessary

11

step in a process that concluded with a vote on the ordinance proposed by the

12

petition, but the court held that no final action had occurred, and no rights were

13

acquired by anyone, until the vote on the ordinance was finally taken).

14

16.

The Secretary's tabulation ofthe number of signatures on a

15

political party qualification petition and announcement that the petition meets the

16

requirements of the political party qualification statute confers no right to

17

placement on the general election ballot. No statute so holds. The act of

18

subrnitting a political party qualification petition simply authorizes a political

19

party to use the state-administered procedure of a primary election to determine

20

whether to nominate candidates and which candidates to nominate.

21

17.

Many other procedural requirements and contingencies must

22

first be met before a primary election can even take place: candidates for the

23

nomination of the political party must:(1)timely file a declaration of nomination,

24

Section 13-10-201, MCA;(2) not die or withdraw their candidacies, Section

25

13-10-326, MCA;(3) maintain their constitutional and statutory eligibility for the

Findings of Fact, Conclusions of Law, and Order — page 36
DDV-2020-856

App. 40

1

offices in question, Section 13-12-201(3), MCA; and(4)file certain campaign

2

finance and business disclosure statements and reports, Section 13-37-126, MCA.

3

18.

In addition, candidates for a nomination must stand for

4

primary election and receive voters from electors; the act of seeking a party's

5

nomination has no legal significance until votes are canvassed and counted and

6

until certificates of nomination are issued. Section 13-15-507, MCA (state

7

canvassing board declares nominated the individual having the highest number of

8

votes); see also Section 13-10-303, MCA (providing that candidates nominated

9

by more than one party must choose one party or appear on the general election

10
11

ballot without a party designation).
19.

Montana statutes do not support the Secretary's claim that

12

he has the authority to "certifr a political party qualification petition to the

13

Governor, or that his act of determining and announcing sufficiency constitutes

14

final action on the petition. A political party qualification petition confers no

15

access to the general election ballot without additional procedural steps and

16

contingencies. The Secretary could not have certified to the Governor that the

17

petition "qualifies for the ballot," like an initiative petition or referendum would.

18

20.

To illustrate the issue, if a petition is submitted and a

19

primary election is held for which no qualified person8 received any votes, would

20

defeat the petition and the party would have no right to appear on the general

21

election ballot. The Court concludes that under the unique procedures applicable

22

to petitions for political party qualification, it is not until the Board of State

23
24
25

There is evidence before the Court that the Montana Green Party disavowed the signature gathering process
and has also disavowed the persons filing under the Green Party banner as not being true Green Party members or
adherents. See, § 13-10-602(1), MCA:"(1) Except as provided in subsection (3), a political party and its regularly
nominated candidates, members, and officers have the sole and exclusive right to the use ofthe party name. A
candidate for office may not use any word ofthe name of any other political party or organization other than that
by which the candidate is nominated in a manner that indicates or implies the individual is a candidate ofthe
nonnominating party."
Findings of Fact, Conclusions of Law, and Order — page 37
DDV-2020-856

App. 41

1

Canvassers tabulates the votes that the process is final. Until that date, there is no

2

final action on the petition. Therefore, the withdrawal requests at issue here—

3

nearly all submitted prior to the June 2, 2020 primary election, and all before

4

June 12, 2020—must be given effect because they were submitted to officials

5

before final action was taken on the political party qualification petition.

6

21.

Even assuming that the Secretary had authority to take "final

7

action" on a political party qualification petition under some circumstances, the

8

evidence at trial revealed that the Secretary's actions in connection with the

9

petition, which were not revealed to the public, cannot constitute final action.

10

22.

Article II, § 8 of the Montana Constitution requires that

11

government agencies conduct a transparent process that allows for public input

12

"prior to the final decision." Mont. Const. Art. II, § 8. Bryan v. Yellowstone Cty.

13

Elementary Sch. Dist. No. 2,2002 MT 264, ¶ 39,312 Mont. 257, 269,60 P.3d

14

381, 390 (discussing "the constitutional mandate on open government.").

15

23.

The Secretary has purported to issue "final action" on the

16

petition without first announcing his cutoff date or the procedural requirements

17

applicable to withdrawals, and without disclosing, even to this Court, the data

18

underlying his decision, despite knowing that such data was squarely at issue in

19

this litigation. The Secretary also announced for the first time during this case, in

20

a motion for summary judgment, that he has a policy forbidding electronic

21

signatures on petition withdrawal forms.

22

24.

While the Montana Supreme Court has not definitely

23

resolved what "final actioe generally means in the context of a political party

24

qualification petition, it cannot be what the Secretary contends it is under these

25

circumstances: an announcement of sufficiency based upon a decisional

Findings of Fact, Conclusions of Law, and Order — page 38
DDV-2020-856

App. 42

1

document not revealed to the public, made without prior notice that the Secretary

2

would refuse to honor withdrawal requests past a certain date, which date was not

3

revealed, and made without prior notice of purported procedural requirements

4

that withdrawal requests would have to satisfy. Cf, State ex rel. Lang v. Furnish,

5

48 Mont. 28, 134 P. 297(1913)(board of county commissioners set a hearing

6

date to consider petition and counter-petitions supporting and opposing formation

7

of a new county).

8

25.

In addition, "final action" necessarily presupposes a final

9

decision by "the person or body created by law to determine the matter submitted

10

by the petition," so even ifthe Secretary were such person, the Secretary's choice

11

to shield the process, applicable procedural requirements, and decisional

12

documents from the public means that his decision cannot be a "final action" that

13

precludes the withdrawal requests submitted in this case from being honored.

14

"The public has the right to expect governmental agencies to afford such

15

reasonable opportunity for citizen participation in the operation of the agencies

16

prior to the fmal decision as may be provided by law." Mont. Const. Art. II, § 8.

17

"No person shall be deprived ofthe right to examine documents or to observe the

18

deliberations of all public bodies or agencies of state government and its

19

subdivisions, except in cases in which the demand ofindividual privacy clearly

20

exceeds the merits of public disclosure." Mont. Const. Art. II, § 9.

21

26.

These constitutional limits on the Secretary's power comport

22

with similar legal principles, like those codified in the Montana Administrative

23

Procedure Act, Sections 2-4-101 et seq., MCA. Under that statute, state agencies

24

must"make available for public inspection all rules and all other written

25

statements of policy or interpretations formulated, adopted, or used by the agency

Findings of Fact, Conclusions of Law, and Order — page 39
DDV-2020-856

App. 43

1

in the discharge of its functions." Section 2-4-103(1)(a), MCA. When an agency

2

fails to do so, it exceeds its authority, and its interpretations have no legal effect.

3

See Section 2-4-103(3), MCA ("No agency rule is valid or effective against any

4

person or party whose rights have been substantially prejudiced by an agency's

5

failure to comply with the public inspection requirement herein.").
27.

6
7

prescribe forms for withdrawing from political party qualification petitions.

8
9
10

The Legislature has not granted the Secretary authority to

28.

The Legislature has not granted the Secretary the authority

or directed him to certify, to the to the governor or otherwise, the results of a
political party qualification petition.
29.

11

The Legislature has not established a statutory deadline for

12

submitting requests to withdraw signatures from a political party qualification

13

petition.
30.

14

The Secretary has not properly adopted rules or public

15

policies to prescribe forms and requirements for withdrawing from political party

16

qualification petitions or established a deadline for submitting requests to

17

withdraw signatures from a political party qualification petition.
31.

18

Therefore, the Secretary's determinations of a cut-off date

19

for the withdrawal of signatures from the political party qualification petition and

20

offorms and requirements for withdrawing signatures from the petition in this

21

matter were without statutory authority and were arbitrary and capricious.
32.

22

Further, the withdrawal requests at issue are valid because

23

Plaintiffs and other petition signers withdrew after leaming that representations

24

made to induce them to sign the petition were false.

25

11111

Findings of Fact, Conclusions ofLaw, and Order — page 40
DDV-2020-856

App. 44

1

33.

The identity ofthe group that sponsored and organized the

2

petition—the IVITGOP—was not revealed until well after signers signed the

3

petition and the Secretary found that the signatures satisfied the requirements of

4

the political party qualification statute.
34.

5

Montana law provides that even after final action is taken on

6

a petition, signers can still withdraw ifthey learn that representations made to

7

them as an inducement to sign the petition, and on which they relied, were false.

8

See, Anderson,92 Mont. at 298, 13 P.2d at 231, 234.
35.

9

To determine when a misrepresentation justifies a

10

signatory's withdrawal, courts often apply general common law and statutory

11

principles of contract and tort law. See Anderson, 13 P.2d at 234(citing contract

12

principles); see also Nelson v. Morse, 91 N.H. 177, 177(1940)(drawing on

13

principles oftort law to disqualify signatures obtained by deception) e[F]raud

14

lies in silence or concealment which constitutes dishonesty as well as in actual

15

misrepresentationsLP).
36.

16

Montana law provides for an independent statutory

17

prohibition on the willful deception of another with the intent to induce that

18

person to act. See, e.g., Section 27-1-712(2)(c), MCA (describing deception as

19

including "the suppression of a fact by one who is bound to disclose it or who

20

gives information of other facts that are likely to mislead for want of

21

communication of that fact"); Dewey v. Stringer, 2014 MT 136, ¶ 15, 375 Mont.

22

176, 182, 325 P.3d 1236, 1241.

23

37.

The doctrine of negligent misrepresentation imposes liability

24

on those who make untrue representations about material facts with the intent to

25

11111

Findings of Fact, Conclusions of Law, and Order — page 41
DDV-2020-856

App. 45

1

induce reliance. See Morrow v. Bank ofAm., N.A., 2014 MT 117, ¶ 45, 375

2

Mont. 38, 52, 324 P.3d 1167, 1180 (citing Kitchen Krafters v. Eastside Bank,242

3

Mont. 155, 165,789 P.2d 567, 573 (1990)).

4

38.

The doctrine of constructive fraud provides both contractual

5

and damages remedies—including the right of rescission—for the breach of a

6

duty which, even without fraudulent intent, creates an advantage for the

7

breaching party by misleading another person to that person's prejudice. See

8

Morrow,¶ 62; Section 28-2-406(1), MCA;McGregor v. Mommer,220 Mont. 98,

9

109, 714 P.2d 536, 543(1986)(noting that a material misrepresentation sufficient

10

to constitute constructive fraud that can lead to rescission of a contract may be

11

implicit, such as when a party "create[s] a false impression concerning .. .

12

important matters and subsequently fail to disclose the relevant fact?).

13

39.

The doctrine of unilateral mistalce justifies rescission of a

14

contract when one party has a "belief in the present existence of a thing material

15

to the contract which does not exist or in the past existence of such a thing which

16

has not existed," and the other party knew or suspected the mistake. See E.H.

17

Ofiedal & Sons, Inc. v. State ex reL Mont. Transp. Comm 'n, 2002 MT 1,¶ 47,

18

308 Mont. 50, 64-65,40 P.3d 349, 358; Section 28-2-409(2), MCA.

19

40.

The actions taken by the MTGOP and their agents to induce

20

Montanans to sign the petition without disclosing their role in organizing and

21

sponsoring the petition closely track the elements of each of these doctrines, and

22

by analogy,justify the acceptance of withdrawal forms at issue in this case.

23

41.

The MTGOP and its agents failed to properly and timely

24

disclose its involvement in the petition in violation of Montana's campaign

25

finance rules, and only made such disclosure weeks after signers had signed the

Findings of Fact, Conclusions of Law, and Order — page 42
DDV-2020-856

App. 46

1

petition and even after it was submitted to officials. See 27-1-712(2)(c), MCA

2

(deceit entails "the suppression of a fact by one who is bound to disclose ir or

3

"giving facts that are likely to mislead for want of communicatioe); Morrow,¶

4

45 (negligent misrepresentation requiring an untrue representation made without

5

any reasonable ground for believing it to be true); Dewey,¶ 9(constructive fraud

6

requiring a false representation with knowledge of its falsity).
42.

7

These misrepresentations and failures to disclose mattered to

8

signers, who would not have signed the petition had they known who was

9

sponsoring and organizing it, and who took action to withdraw their signature

10

once they learned what had happened.
43.

11

The actions ofthe MTGOP and its agents demonstrate that

12

its misrepresentations and failures to disclose in violation of Montana campaign

13

finance law were intentionally designed to create an advantage for the MTGOP at

14

the expense of unwitting signers. The MTGOP's conduct regarding its disclosure

15

obligations—under a disclosure regime enacted in direct response to the very

16

same petitioning firm gathering signatures for the very same petition just two

17

years earlier—further demonstrates that these misrepresentations and failures to

18

disclose were designed to confer a strategic benefit.
44.

19

The Secretary's failure to give effect to Plaintiffs' and other

20

signers' withdrawal requests also violates Article II, Sections 6 and 7 of the

21

Montana Constitution as applied to the circumstances of this case because it

22

severely burdens Plaintiffs' and other signers' constitutional right to not associate

23

with a petition sponsored by a political party with which they do not want to be

24

associated.

25

11111

Findings of Fact, Conclusions of Law, and Order — page 43
DDV-2020-856

App. 47

1

45.

Article II, Section 6 ofthe Montana Constitution provides

2

that"Whe people shall have the right peaceably to assemble, petition for redress

3

or peaceably protest government action." Article II, Section 7 provides that"Mo

4

law shall be passed impairing the freedom of speech or expression." Like the

5

First Amendment,these provisions protect "the unfettered interchange of ideas

6

for the bringing about of political and social changes desired by the people."

7

Dorn v. Bd. ofTrs. ofBillings Sch. Dist. No. 2, 203 Mont. 136, 145, 661 P.2d

8

426,431 (1983).

9

46.

Activities that involve associating to promote political

10

preferences, like signing a petition, are protected conduct under the First

11

Amendment. See, e.g., Clingman v. Beaver, 544 U.S. 581, 586(2005); Filo

12

Foods, LLC v. City ofSeaTac, 179 Wn. App. 401,406, 319 P.3d 817, 819(2014)

13

(concluding that "an individual expresses a view on a political matter by signing

14

an initiative petition," and "this expression of a view implicates the signer's First

15

Amendment rights").

16

47.

Under Montana law, state action that burdens fundamental

17

rights, like those protected by Sections 6 and 7 of Article II of the Montana

18

Constitution, must be justified by a compelling state interest narrowly drawn.

19

See, e.g., Montana Envtl. Info. Ctr. v. Dep't ofEnvtl. Quality, 1999 MT 248, 63,

20

296 Mont. 207, 225, 988 P.2d 1236, 1246 (holding that strict scrutiny applies to

21

statutes infringing the rights protected under Article II ofthe Montana

22

Constitution); State v. Lilburn, 1993 NIL 78, *4(Mont. Dist. Ct. 1993)

23

("Significant interference with First Amendment rights may be allowed only if a

24

compelling government interest is shown, and all such infringements will be

25

subject to close judicial scrutiny.")(citation omitted).

Findings of Fact, Conclusions of Law, and Order — page 44
DDV-2020-856

App. 48

1

48.

The right to associate is burdened not only when a law

2

harms a voter's ability "to associate in the electoral arena to enhance their

3

political effectiveness as a group," Anderson v. Celebrezze, 460 U.S. 780, 793

4

(1980), but also when a voter's "right not to associate is harmed, Cal.

5

Democratic Party v. Jones, 530 U.S. 567, 574(2000)(emphasis added); See also

6

Kusper v. Pontikes, 414 U.S. 51, 57(1973)(finding First Amendment rights

7

burdened when a statute "`lock[ed]' the voter into his pre-existing party

8

affiliation for a substantial period oftime).

9

49.

The Secretary's imposition of an arbitrary deadline for

10

withdrawal requests, set well before the MTGOP's involvement was revealed,

11

imposes a severe burden on Plaintiffs' associational rights in this case by

12

"locking in" their association—and the consequences that flow from such

13

association under statute—in support of a petition they no longer support, and a

14

political party with whom they do not want to affiliate and whose political

15

effectiveness they do not want to advance. See Kusper,414 U.S. at 58 (holding

16

statute prohibiting voter from changing pre-existing party affiliation substantially

17

abridged her ability to associate effectively with the party of her choice).

18

50.

The severity ofthis burden imposed by the Secretary's

19

deadline and refusal to credit the withdrawal requests at issue in this case is

20

heightened by the fact that Plaintiffs' association was "locked in" before they had

21

any way to know that they were affiliating with, and advancing the interests of,

22

the MTGOP.

23

51.

The Secretary's refusal to give effect to Plaintiffs'

24

withdrawal requests in this case is not justified by any weighty state interest—

25

much less one narrowly tailored to advance a compelling state interest.

Findings of Fact, Conclusions of Law, and Order — page 45
DDV-2020-856

App. 49

1

52.

No statute, regulation, or policy statement requires that

2

requests for withdrawal from political party qualification petitions contain the

3

requestor's signature, nor does any statute afford the Secretary the authority to

4

require signatures or prescribe what forms of signatures are sufficient.

5

53.

All that is required is that the requestor clearly express their

6

intent to withdraw by identifying the petition at issue. See Ford v. Mitchell, 103

7

Mont. 99,61 P.2d 815, 822-23 (1936). The withdrawal forms at issue—which all

8

contain an unambiguous request to withdraw their petition signature, include the

9

requestor's name, address, and contact information, and include a signature

10

captured electronically through the DocuSign platform—easily satisfy this

11

requirement.9

12

54.

Assuming that it was necessary for a voter to provide a

13

signature in order to withdraw from a political party qualification petition, the

14

submission of withdrawal requests to the Secretary are not "transactions"

15

between the voter and the Secretary under the Montana Uniform Electronic

16

Transactions Act, Section 30-18-101, MCA(UETA)that require the Secretary's

17

consent to the use of electronic signatures. Withdrawing from a political party

18

qualification petition is a unilateral act by the voter, not a "transactioe between

19

the voter and the Secretary.

20

55.

Taking it one step further, if one assumes that political party

21

qualification petition withdrawals require a voter's signature and that such

22

withdrawals are "transactions" between the voter and the Secretary for purposes

23

of UETA,the context, surrounding circumstances, and the parties' conduct,

24

specifically the failure to the Secretary to promulgate or announce the deadline

25
9 Section

13-10-601(2)(c), MCA, delegates to county election administrators the authority to verify signatures on
political party qualification petition, like the process used for other ballot issues under §§ 13-27-303 through -306,
MCA. The statute does not delegate to the Secretary any authority to verify signatures.
Findings of Fact, Conclusions of Law, and Order — page 46
DDV-2020-856

App. 50

1

for withdrawals and that certain requests for withdrawal would not be accepted,

2

all demonstrate that the Secretary consented to receiving withdrawals from the

3

Green Party political party qualification petition through electronic means.

4

Accordingly, electronic signatures satisfy any purported signature requirement.

5

See §§ 30-18-105, -106, MCA.

6

56.

The Secretary's previously undisclosed opposition to the use

7

of electronic signatures would also impose an unconstitutional burden as applied

8

to the signers who, in the absence of contrary guidance from the Secretary,

9

electronically signed their withdrawal request in the middle of a global pandemic.

10

Failing to honor the withdrawal forms at issue here serves no state interest.

11

Courts and other institutions have consistently recognized the security and

12

validity ofthe DocuSign platform for electronic signatures across a wide variety

13

of contexts. The DocuSign platform used in this case collected the same

14

identifying information that would be collected by paper forms promulgated by

15

the Secretary for withdrawals from other kinds of petitions, and its security,

16

tracking, and its additional auditing features more than adequately serve any

17

interest in preventing and investigating fraudulent activity.
57.

18

As with the Secretary's adoption of a deadline for the

19

submission of withdrawal forms,the Secretary's adoption of a rule or policy

20

banning the submittal of electronic signatures was done without public input or

21

proper notice to the public. Mont. Const. Art. II, § 8. No statute grants the

22

Secretary the authority to adopt such a rule or policy. The Secretary has not

23

properly adopted such a rule or policy.

24

11111

25

11111

Findings of Fact, Conclusions of Law, and Order — page 47
DDV-2020-856

App. 51

58.

1

The Secretary's adoption of a rule or policy barring

2

submittals of electronic signatures midway through this petition-gathering

3

process is arbitrary and capricious.
59.

4

When Plaintiffs' and other Montanans' valid and timely

5

withdrawal requests are given effect, the petition fails to meet the requirements of

6

Section 13-10-601(2), MCA. The statute requires that a political party

7

qualification petition contain:(1) an overall signature count of the lesser of"5%

8

or more of the total votes cast" for the last-elected governor, or 5,000 registered

9

voters; and (2) a threshold number of signatures for each state house district in at

10

least 34 districts. See Section 13-10-601(2)(b), MCA.
60.

11

After accounting for the valid withdrawal forms set out in

12

Plaintiffs' Exhibits 4 and 5,the Petition contains signatures above the thresholds

13

set by the political party qualification statute in no rnore than 33 House Districts,

14

as set forth in Plaintiffs' Exhibit 7.
Based on the foregoing findings of fact and conclusions oflaw, the

15
16

Court enters the following
ORDER

17
1.

18

The Secretary's motion for partial surnmary judgrnent on the

19

acceptance of electronic signatures is DENIED. MDP's cross-motion for

20

summary judgment regarding electronic signatures is GRANTED.

21

2.

The withdrawal requests are valid under Montana law;

22

3.

The Secretary's failure to accept and honor these withdrawal

23

requests violates Mont. Const. Art. II, §§ 6 and 7;

24

11111

25

11111

Findings of Fact, Conclusions ofLaw, and Order — page 48
DDV-2020-856

App. 52

1

4.

The Petition fails to satisfy the requirements of section

2

13-10-601(2)(b), MCA;in that the petition does not satisfy the requirement that

3

the signatures come in sufficient numbers from at least 34 different legislative

4

House Districts; and

5
6
7

8
9

5.

The Secretary and all persons acting under his authority are

enjoined from implementing or giving any effect to the Petition.
MEMORANDUM
It was presented to the Court that this is a unique situation, not
likely to re-occur. Indeed, Dana Corson, the Secretary's Election Director,

10

testified he had never encountered anything quite like the situation presented by

11

this case. Further, the statutes governing the qualifications for minor political

12

parties are new and untested, having been passed by the Legislature in 2019 and

13

becoming effective only on October 1, 2019. As the various entities involved in

14

these kinds of election processes become familiar with these statutes'

15

requirements, the kinds of difficulties encountered in this case might be avoided.

16

Nonetheless, the Court concludes that the Secretary's ad hoc

17

decision-making with regards to the petition defeats the purpose of these statutes.

18

The Secretary took steps not authorized by statute or regulation, inade decisions

19

"on-the-fly" and without public input or knowledge as to the deadline and

20

process for withdrawing signatures from the petition, and made those decisions

21

based on documents not made public, even during this hearing. Such actions fly

22

in the face of well-established principles for open govermnental action requiring

23

public participation and knowledge. The remedy for these actions is to set aside

24

the Secretary's decisions as set forth above.

25

Findings of Fact, Conclusions of Law, and Order — page 49
DDV-2020-856

App. 53

It was represented by the Secretary that he will be making

1
2

proposals to the next legislature about improvements and clarification to these

3

statutes. The Court fully supports this effort.

4

DATED this

day of August 2020.

5
6

Jf
4/./. 2
J
S P. REYNOL S
District Court Judge

7
8
9
10
11
12

cc:

eloylawfirm.com)
Peter Michael Meloy,(via email to: mike
Mathew Gordon,(via email to: mgordon@perkinscoie.com)
Austin James,(via email to: Austin.james@mt.gov)
Matthew T. Meade,(via email to: matt@bigskylaw.com)

JPRAm/DDV-2020-856 Montana Democratic Party, et al. v. State of Montana - Findings of Fact, Conclusions of Law,and Order.doc

13
14
15
16
17
18
19
20
21
22
23
24
25

Findings of Fact, Conclusions of Law, and Order — page 50
DDV-2020-856

App. 54

08/11/2020

1

Case Number: DA 20-0396

2
3

FILED

4

AUG 0 7 2020

5
6
7
8

MONTANA FIRST JUDICIAL DISTRICT COURT
LEWIS AND CLARK COUNTY

9
10

MONTANA DEMOCRATIC PARTY,

Cause No.: DDV-2020-856

11
12
13
14

and
TAYLOR BLOSSOM,RYAN FILZ,
MADELINE NEUIVIEYER, and
REBECCA WEED,individual electors,

ORDER ON SECONDARY AND
POST-HEARING MOTIONS

15
Plaintiffs,

16
17

v.

18
19
20
21

STATE OF MONTANA,by and through
its SECRETARY OF STATE COREY
STAPLETON,
Defendant.

22
23

The Court heard this matter on July 14 and 15. As part ofthis

24

proceeding, the Court has several secondary and post-hearing motions. The

25

Court having issued its Findings of Fact, Conclusions of Law and Order in this

App. 55

1

matter, issues the following summary order with regards to these secondary and

2

post-hearing motions. In issuing this Order, the Court notes several

3

considerations.

4

1.

Challenges to political election matters must often be

5

decided on an expedited schedule, due to election calendar requirements. Larson

6

v. State By & Through Stapleton, 2019 MT 28, 394 Mont. 167, 434 P.3d 241.

7

2.

The Court has already conducted its evidentiary hearing, at

8

which the parties had the opportunity to present witnesses and exhibits. The

9

Court cannot envision a process whereby that hearing would be re-opened and

10

still give this Court time to issue a decision in time for Supreme Court review.

11

3.

The Court's ruling only affects proceedings in this Court.

12

Should this matter be appealed, as it almost certainly will, various entities

13

seeking to intervene may apply to the Supreme Court as they deem appropriate.

14

For the foregoing reasons, the Court enters the following Orders.

15

1.

The Court DENIES the rnotions ofthe Montana Republican

16

Party(MTGOP)and Lorrie Corette Campbell and Jill Loven to intervene. These

17

parties were granted leave to participate as amici curiae if they desired.

18
19
20

2.

The Court GRANTS Mark Mackin's unopposed motion for

leave to file a brief as amicus curiae.
3.

The Court has reviewed the amici briefs submitted by the

21

Montana Republican Party(MTGOP)and Campbell and Loven. The fact is that

22

while these entities may have rights with regards to this election, these rights

23

arise only ifthe petition in support ofthe Green Party is properly submitted and

24

supported. In other words, if20,000 people sign petitions in support ofthe Green

25

Party being on the ballot, but those 20,000 signatures do not satisfy the

Order on Secondary Motions —page 2
DDV-2020-856

App. 56

1

distribution required by § 13-10-601 (2)(b), MCA,those signers have no

2

associational rights to have the Green Party on the ballot.

3

4.

The Court GRANTS MDP's motion to strike affidavits and

4

documents attached to the amicus brief submitted by the MTGOP. The

5

Republican Party responded to this motion, by arguing that its ability to have this

6

information considered provides additional reasons why it should be allowed to

7

intervene. MTGOP again requests leave to intervene. These materials and

8

testimony could have been introduced through the Secretary of State (Secretary).

9

The Court again denies MTGOP's request to intervene.

10

In doing so, the Court observes that this case is not so much

11

about what MTGOP actually did or did not do about the Green Party petition

12

effort. It is more about what people signing the petition knew or did not know

13

about MTGOP's involvement — to paraphrase Senator Howard Baker during the

14

Watergate hearings, what did signers know and when did they know it? Whether

15

MTGOP violated Montana's campaign fmance laws is not critical in this

16

analysis,just as it was not critical whether the burglars in the Watergate had been

17

convicted. It was when MTGOP's involvement was revealed — when signers

18

would have discovered that MTGOP had admittedly funded the petition effort,

19

prompting a signer's desire to withdraw his or her signature.

20

5.

The Court DENIES Gary Marbut's(Marbut)pro se motion

21

to intervene. Marbut identifies himself as Green Party candidate nominated in

22

Montana Senate District 47. He filed his motion to intervene one week after the

23

evidentiary hearing concluded. In his brief in support of his motion, Marbut

24

asserts to the best of his understanding, there have been no hearings or judicial

25

actions concerning the merits of this case. He asserts therefore there will be no

Order on Secondary Motions — page 3
DDV-2020-856

App. 57

1

prejudice to the parties. Marbut's premise is inaccurate, as the Court has

2

conducted two days of a merits hearing and oral argument on the merits of this

3

case. Further, Marbut claims he learned ofthis litigation late but in his brief, he

4

admits that he gave other proposed intervenors, specifically the MTGOP,an

5

affidavit in support of its motion to intervene. Only after MTGOP was denied

6

intervenor status did Marbut file his own motion to intervene. Marbut's motion

7

is not timely under these circumstances.

8
9

6.

The Court DENIES the Secretary's motion to take judicial

notice ofthe Montana Republican Party's filing before the Federal Election

10

Commission. M.R.Evid. 201 and 202 do not apply to these kinds of documents.

11

Further, the Commissioner ofPolitical Practices has determined this filing with

12

the federal agency was unclear and did not satisfy Montana's campaign practices

13

laws.

14

As to the Court's taking judicial notice ofthe COPP's sufficiency

15

finding in Luckey v. Advanced Micro Targeting, No. COPP 2020-CFP-004,(June

16

25, 2020), the Court affirms its taking ofjudicial notice. Plaintiffs have pointed

17

out that the COPP has now issued supplemental findings in an amended

18

sufficiency decision on July 29, 2020. The Court does not take judicial notice of

19

these supplemental findings, as these findings post-date the operative facts ofthis

20

proceeding.

21

As discussed above, the Court concludes this case is not so much

22

about what MTGOP may or may not have done as to Montana's campaign

23

finance laws. It is about what signers on the petition would or would not have

24

known when called upon to sign the petition. The record before the Court shows

25

that the identity ofthe entity sponsoring the Green Party petition was concealed

Order on Secondary Motions — page 4
DDV-2020-856

App. 58

1

from the public. Once the identity of this entity was disclosed in late March,

2

three weeks after the Secretary had declared the petition had sufficient signatures,

3

the number of petition signers wishing to withdraw their signatures increased

4

exponentially.

5

To be clear, the Court takes judicial notice ofthe COPP's

6

sufficiency findings not for the truth ofthose findings except as such findings are

7

otherwise developed in the record, but for the fact ofthe decision being issued

8

with its accompanying news media coverage.

9

DATED this

4 day of August 2020.

10
11
12
13
14
15
16
17
18
19
20
21
22
23

4

-di
/
1
4>

JAMES P. RE OLDS
District Court Judge
cc:
Peter Michael Meloy,PO Box 1241, Helena, MT 59624-1241 (and via
email to: mike@meloylawfirm.com)
Mathew Gordon, 1201 Third Avenue, Suite 4900, Seattle, WA 98101
(and via email to: mgordon@perkinscoie.com)
Austin James,PO Box 202801, Helena, MT 59620-2801 (and via email
to: Austin.james@mt.gov)
Matthew T. Meade,PO Box 2685, Great Falls, MT 59403-2685 (and via
email to: matt@bigskylaw.com)
Anita Y. Milanovich,(via email to: aymilanovich@milanovichlaw.com)
Emily Jones /Talia G. Damrow,(via email to: emily@joneslawmt.com
/talia@joneslaw.com)
Edward D. Greim,(via email to: edgreim@gravesgarrett.com)
Chris J. Gallus,(via email to: chrisjgalluslaw@gmail.com)
Mark Mackin,(via email to: mark@montanapropertylaw.com)
Gary Marbut,(via email to: gary@Marbut.com)

24
25

JPR/tm/DDV-2020-856 Montana Democratic Party, et al. v. State of Montana - Order on Secondary Motions.doc

Order on Secondary Motions — page 5
DDV-2020-856

App. 59

08/11/2020

ORIGINAL
IN THE SUPREME COURT OF THE STATE OF MONTANA
DA 20-0396 and DA 20-0397

MONTANA DEMOCRATIC PARTY and
TAYLOR BLOSSOM,RYAN FILZ, MADELINE
NEUMEYER,and REBECCA WEED,individual
electors,

Case Number: DA 20-0396

Eg

AUG

1 1

2020

Bowen Greenwood
Clerk of Supreme
Court
State of Montana

Plaintiffs and Appellees,
ORDER

v.
STATE OF MONTANA,by and through its
SECRETARY OF STATE,COREY
STAPLETON,
Defendant and Appellant.

Defendant and Appellant Secretary of State moves to consolidate these two appeals
and to order an expedited briefing schedule in order to have the appeals decided prior to the
August 20,2020 deadline for the Secretary of State to certify for the November 2020 general
election ballot the names and designations ofstatewide candidates to election administrators.
Section 13-12-201(1), MCA. Both appeals are taken frorn an August 7, 2020 order of the
First Judicial District Court directing the Secretary ofState to strike from the general election
ballot the narnes of Montana Green Party candidates who advanced after the June 2, 2020
primary election. Also at issue are the unsuccessful intervention motions of the Montana
Republican Party, Lorrie Campbell, and Jill Loven. Plaintiff and Appellee the Montana
Dernocratic Party opposes consolidation ofthe two appeals but agrees with the Secretary of
State's proposed expedited briefing schedule in DA 20-0396 and indicates that it will comply
with any briefing schedule set by the Court.
Having considered the parties' submissions, and good cause appearing,
IT IS HEREBY ORDERED that the Motion to Consolidate Appeals is DENIED.
IT IS FURTHER ORDERED that the request for an expedited briefing schedule is

App. 60

GRANTED for both DA 20-0396 and DA 20-0397. In each case, the parties shall file their
briefs according to the following schedule:
Appellant's opening brief shall be filed by August 12, 2020.
Appellees' response brief shall be filed by August 17, 2020.
Appellant's reply brief shall be filed by August 18, 2020.
IT IS FURTHER ORDERED that proposed intervenors the Montana Republican
Party, Lorrie Campbell, and Jill Loven are GRANTED leave to file amicus briefs in
accordance with M. R. App. P. 11(4)(a) and 12(7). Any amicus briefs must be filed by
August 12, 2020.
IT IS FURTHER ORDERED that the Lewis and Clark County Clerk ofDistrict Court
is directed to transrnit the record immediately upon receipt of this Order.
The Clerk of this Court is directed to file this Order in each ofthe above-referenced
cases and to provide immediate notice of its entry to all counsel of record and to the Lewis
and Clark County Clerk of District Court.
DATED this t( ay of August, 2020.

Chief Justice

2

App. 61

No. DA 20-0396

08/13/2020

In the Supreme Court of the State of Montana
Case Number: DA 20-0396

MONTANA DEMOCRATIC PARTY, et al.,
Plaintiffs-Appellees,
v.
SECRETARY OF STATE,
Defendant-Appellant,
and
LORRIE CORETTE CAMPBELL AND JILL LOVEN,
Proposed IntervenorsAppellants.
On Appeal from the First Judicial District, Lewis and Clark County
The Honorable James P. Reynolds, Presiding
Motion to Intervene

Eddie Greim
GRAVES GARRETT, LLC
1100 Main Street, Suite 2700
Kansas City, MO 64105
Ph. : 816/256-3181
Email: edgreim@gravesgarrett.com
Counsel for Proposed Intervenors

Chris Gallus
GALLUS LAW
1423 Otter Rd.
Helena, MT 59602
Ph.: 406/459-8676
Email: chrisjgallus@gmail.com
Counsel for Proposed Intervenors

App. 62

Pursuant to Mont. R. Civ. P. 24, Petition Signers Lorrie Corette Campbell
and Jill Loven move to intervene in Appeal No. DA 20-0396. In support of their
motion, the Petition Signers state as follows:
1.

On August 11, 2020, this Court denied the Motion to Consolidate

Appeals DA 20-0396 and DA 20-0397.
2.

Petition Signers, however, should be permitted to intervene in Appeal

No. DA 20-0396 as a necessary party.
3.

Intervention on appeal is permissible. Montana’s Rule of Civil

Procedure 24 is identical with the federal rule, and the 9th Circuit has authorized
Federal Rule of Civil Procedure 24 to be used to grant intervention on appeal.
Bates v. Jones, 127 F.3d 870, 873 (9th Cir. 1997) (“Intervention on appeal is
governed by Rule 24 of the Federal Rules of Civil Procedure.”).
4.

Intervention is necessary because the Motion to Consolidate was

denied, and proceeding in this appeal as amicus is not sufficient to protect the
Intervenors’ federal constitutional rights. See United States v. Los Angeles, 288
F.3d 391, 400 (9th Cir. 2002) (holding that the district court’s order granting the
Police League amicus curiae status was insufficient when the Police League should
have been permitted to intervene as a party to the action).
5.

In the District Court, the Petition-Signer Intervenors attempted to

assert as a defense their First Amendment rights to associate via an effective

App. 63

petition process. The two Petition-Signer Intervenors argued that they and
hundreds of others associated for purposes of securing ballot access for the Green
Party in a federal and state election. They cited ample controlling authority that
this right is protected by the First Amendment. They argued that this right was
directly in opposition to the purported Montana constitutional right “not to
associate” raised by the three Plaintiffs. (Two of the three Plaintiffs actually were
allowed to withdraw by the Secretary of State, which would ordinarily defeat
standing due to a lack of injury.)
6.

The District Court denied intervention and refused to recognize

Petition-Signer Intervenors’ First Amendment rights precisely because their federal
rights conflicted with the three Plaintiffs’ purported state “constitutional right to
withdraw” via DocuSign even after the underlying primary election.
7.

Specifically, the Court found that the Plaintiffs, three petition signers

who wanted to withdraw, had constitutional rights not to associate with the
remainder of the petition signers, including Intervenors Campbell and Loven, and
that vindication of this right required striking Plaintiffs’ and all other withdrawal
requests received by the Secretary, regardless of when or how the requests were
made. The Court recognize several hundred purported withdrawals from absent
parties. Based on these non-party withdrawals, the District Court held the petition
did not have the requisite number of signatures. Finally, without citation to any
Motion to Intervene
PAGE 2 OF 6

App. 64

authority, the District Court held that in Montana, supporters of minor parties’
federal ballot access have no First Amendment rights in effectively associating via
petition to achieve that goal where their petition turns out to be numerically
insufficient. Thus, the District Court engaged in circular reasoning designed to
defeat federal constitutional rights: it kept the Petition-Signer Intervenors from
entering the case to assert their First Amendment rights; relied only on the
Plaintiffs’ state constitutional “withdrawal” rights and not the First Amendment
associational rights of non-withdrawing proponents to reach its decision on
whether late, DocuSigned withdrawals would be allowed; and then held that
because those withdrawals rendered the petition just barely numerically
insufficient, the Petition-Signer Intervenors had no First Amendment associational
rights to begin with.
8.

Additionally, the District Court suggested that Petition-Signer

Intervenors, as only two signers, could not intervene to assert the interest of
proponents in effectively associating to qualify a minor party; but inconsistently
held that the Plaintiffs, only three signers, could intervene to assert not only that
they were entitled to withdraw, but that hundreds of other absent parties (for whom
no evidence regarding their motive was offered or received, and whose
“withdrawals” were simply hearsay) could do so as well. Yet these two groups of
signers—the withdrawers and the loyalists—are in direct opposition on the law and
Motion to Intervene
PAGE 3 OF 6

App. 65

on their asserted state and federal constitutional rights. The rights of one group
cannot be adjudicated in the absence of the other, but that is precisely what
happened in the District Court and would happen here if intervention is not
allowed.
9.

Petition-Signer Intervenors constitutional claims are ripe for review,

require no further factual development, and must be considered in weighing the
merits of this appeal.
10.

No other party has raised these constitutional claims and there is no

reason to believe any other party will raise these claims on appeal.
WHEREFORE, Petition Signers respectfully move the Court to grant
intervention as of right under Rule 24.

Dated this 11th day of August, 2020.
/s/
Chris J. Gallus
Attorney for Campbell and Loven

Motion to Intervene
PAGE 4 OF 6

App. 66

CERTIFICATE OF COMPLIANCE
Pursuant to Rule 16(3) of the Montana Rules of Appellate Procedure, I
certify that this Motion is printed with a proportionately spaced Times New Roman
text typeface of 14 points; is double spaced; and the word count calculated by
Microsoft Word is not more than 1,250 words, excluding the certificate of service
and certificate of compliance.
Dated this 10th day of August, 2020.

/s/
Chris J. Gallus
Attorney for Campbell and Loven

Motion to Intervene
PAGE 5 OF 6

App. 67

CERTIFICATE OF SERVICE
I certify that a true and accurate copy of the foregoing document was served
on each attorney of record by e-service on August 11, 2020:
Peter Michael Meloy
MELOY LAW FIRM
P.O. Box 1241
Helena, MT 59624
Ph. : (406) 442-8670
Email : Mike@meloylawfirm.com
Matthew Gordon
PERKINS COIE LLP
1201 Third Ave., Suite 4900
Seattle, WA 98101
Ph.: (206) 359-8000
Email: mgordon@perkinscoie.com
Counsel for Plaintiffs-Appellees
/s/
Chris J. Gallus
Attorney for Campbell and Loven

Motion to Intervene
PAGE 6 OF 6

App. 68

CERTIFICATE OF SERVICE
I, Chris J. Gallus, hereby certify that I have served true and accurate copies of the foregoing
Motion - Intervene to the following on 08-13-2020:
Matthew Prairie Gordon (Attorney)
1201 Third Ave
Seattle WA 98101
Representing: Montana Democratic Party, Taylor Blossom, Ryan Filz, Madeleine Neumeyer, Rebecca
Weed
Service Method: eService
Peter M. Meloy (Attorney)
2601 E. Broadway
2601 E. Broadway, P.O. Box 1241
Helena MT 59624
Representing: Montana Democratic Party, Taylor Blossom, Ryan Filz, Madeleine Neumeyer, Rebecca
Weed
Service Method: eService
Anita Yvonne Milanovich (Attorney)
100 E Broadway Street, The Berkeley Room
Butte MT 59701
Representing: Montana Republican Party
Service Method: eService
Emily Jones (Attorney)
2101 Broadwater Avenue
P.O. Box 22537
Billings MT 59104
Representing: Montana Republican Party
Service Method: eService
Austin Markus James (Attorney)
Post Office Box 202801
Helena MT 59620-280
Representing: Corey Stapleton
Service Method: eService
Matthew Thomas Meade (Attorney)
104 2nd ST S, Ste 400

App. 69

Great Falls MT 59401
Representing: Corey Stapleton
Service Method: eService

Electronically Signed By: Chris J. Gallus
Dated: 08-13-2020

App. 70

MID AL

08/13/2020

IN THE SUPREME COURT OF THE STATE OF MONTANA
Case Number: DA 20-0396

DA 20-0396

FLED
STATE OF MONTANA,By and through its
SECRETARY OF STATE, COREY STAPLETON,
Defendant and Appellant,
v.

AUG 1 3 2020
Bowen Greenwood
Clerk of Suprerne Court
State of Montana

ORDER

MONTANA DEMOCRATIC PARTY,TAYLOR
BLOSSOM,RYAN FILZ, MADELEINE NEUMEYER,
and REBECCA WEED,individual electors,
Defendant and Appellant.

Lorrie Corrette Campbell and Jill Loven have moved to intervene in this appeal.
Campbell and Loven are Appellants in the relaied appeal, DA 20-0397. In our order of
August 11, 2020, we deniècl consolidation of these appeals, given the different issues, but
granted Campbell and Loven leave to appear as amici and, accordingly, to file briefing in
this appeal, DA 20-0396, which they have now done. Campbell and Loven are signatories
on petitions seeking to certify the Green Party on the ballot. They argue that intervention
is necessary "because the Motion to Consolidate was denied, and proceeding in this appeal
as amicus is not sufficient to protect the Intervenors' federal constitutional rights."
We acknowledge that intervention is permissible on appeal. However, the Court is
here dealing with extraordinary circumstances involving two appeals, expedited briefing,
and a very limited time for consideration and decision under election deadlines. While
status as intervenors would normally grant Campbell and Loven an opportunity to file a
reply brief, time does not permit additional briefing. The Court will carefully consider the
arguments made by Campbell and Loven in their amicus brief. Therefore,

App. 71

IT IS ORDERED the motion to intervene is DENIED.
The Clerk is directed to provide a copy hereof to counsel ofrecord.
DATED this i34
: day of August, 2020.

Chief Justice
/14 "A4

Justices

2

App. 72

08/12/2020

IN THE SUPREME COURT OF MONTANA
Case Number: DA 20-0396

DA 20-0396
STATE OF MONTANA, By and through its
SECRETARY OF STATE, COREY STAPLETON,
Appellant,
v.
MONTANA DEMOCRATIC PARTY, TAYLOR BLOSSOM,
RYAN FILZ, MADELEINE NEUMEYER,
and REBECCA WEED, individual electors,
Appellees.

APPELLANT’S OPENING BRIEF

On appeal from the Montana First Judicial District Court, Lewis and Clark County
Cause No. CDV-2020-856, the Honorable James Reynolds, Presiding.
AUSTIN JAMES
Chief Legal Counsel
Secretary of State’s Office
P.O. Box 202801
Helena, MT 59620-2801
406-444-2034
Austin.James@mt.gov
Attorney for Defendant/Appellant
MATTHEW T. MEADE
Smith Oblander & Meade, PC
P.O. Box 2685
Great Falls, MT 59403-2685
matt@bigskylaw.com
Attorney for Defendant/Appellant

Matthew Gordon
PERKINS COIE LLP
1201 Third Ave., Suite 4900
Seattle, WA 98101
(206) 359-8000
mgordon@perkinscoie.com
Attorney for Plaintiffs/Appellees
Peter Michael Meloy
MELOY LAW FIRM
P.O. Box 1241
Helena, MT 59624
mike@meloylawfirm.com
Attorney for Plaintiff/Appellees

App. 73

TABLE OF CONTENTS
TABLE OF AUTHORITIES .......................................................................... iv
STATEMENT OF ISSUES PRESENTED....................................................... 1
STATEMENT OF THE CASE ........................................................................ 1
STATEMENT OF FACTS............................................................................... 5
STANDARD OF REVIEW ............................................................................. 8
ARGUMENT.................................................................................................. 9
I.

THE SECRETARY HONORED THE ABSOLUTE RIGHT TO
WITHDRAW BEFORE THE “FINAL ACT.” ................................. 9
A. Any person signing the petition had an absolute right to withdraw
until the final act occurred. Under clear precedent, the final act in
this matter is when the Secretary finally determined the subject
political party was eligible to conduct a primary election. ........... 10
B. The District Court wrongly applied Wisconsin law over Montana
law and confused eligibility to participate in the primary with
appearance on the general election ballot .................................... 14
C. Legitimate state interests support requiring withdrawals to be
submitted before the “Final Act” ................................................... 18

II.

THE RECORD DOES NOT CONTAIN CLEAR AND CONVINCING
PROOF OF FRAUD REGARDING PETITION FACTS, AND THE FRAUD
ASSERTED DOES NOT AUTHORIZE TARDY WITHDRAWALS EVEN
IF SUPPORTED BY ADMISSIBLE EVIDENCE ............................ 19
A. The record does not show clear and convincing proof
representations made to signers regarding material facts of the
petition were fraudulent .................................................................... 20

ii
App. 74

III. MONTANA ADOPTED FORMALITY REQUIREMENTS ASSOCIATED
WITH THE RIGHT TO WITHDRAW. ......................................... 23

A. Montana’s petition process requires petition withdrawals must be
received before sufficiency is certified and must observe the same
formalities as petition signatures .................................................. 23
B. Montana law expressly provides the Secretary with discretion
regarding the use and reliance of digitally executed election
documents .................................................................................... 25
C. If the Secretary’s Motion for Partial Summary Judgment is
granted, then it is dispositive of the issues before the Court. ....... 29
CONCLUSION............................................................................................. 29
CERTIFICATE OF COMPLIANCE .............................................................. 31
CERTIFICATE OF SERVICE………………………………………………………………32
APPENDIX .................................................................................................. 33

iii
App. 75

TABLE OF AUTHORITIES
CASES

Buckley v. American Constitutional Law Foundation, Inc., 525 U.S. 182,
119 S. Ct. 636 (1999) .................................................................................... 3
Ford v. Mitchell, 103 Mont. 99, 114, 61 P.2d 815, 82 (1936) ...... 10, 13, 23, 34
Larson v. State, 2019 MT 28, 394 Mont. 167, 434 P.3d 241 ............... 11,12,15

Montanans for Justice v. State, 2006 MT 277, ¶ 20, 334 Mont. 237, 146
P.3d 759 ................................................................................................ 8,9,22
New Approach Montana v. State of Montana, Corey Stapleton, Montana
First Judicial District Court, Cause BDV-2020-444 (2020) .................. 26,29

Petitioners I-549 v. Missoula Irrigation Dist., 2005 MT 100, ¶ 8, 326 Mont.
527, 111 P.3d 664 ......................................................................................... 9

Roe v. City of Missoula, 2009 MT 417, ¶ 15, 354 Mont. 1, 221 P.3d 1200 ... 9
Sandrock v. DeTienne, 2010 MT 237, ¶ 13, 358 Mont. 175, 243 P.3d 1123 9
Shammel v. Canyon Res. Corp., 2003 MT 372, ¶¶ 11–12, 319 Mont. 132, 82
P.3d 912 ........................................................................................................ 9

State ex rel. Freeze v. Taylor, 90 Mont. 439 4 P.2d 479, 481 (1931) ..... 10,13
State ex rel. Harry v. Ice, 207 Ind 65, 191 NE 155, 92 ALR 1508 (1934) .....19

State ex rel. Lang v. Furnish, 48 Mont. 28, 134 P. 297 (1913) ................... 10
State ex rel. Peck v. Anderson, 92 Mont. 298, 306, 13 P.2d 231 (1932) .........
.........................................................................................................3,19,21,22
iv
App. 76

State ex rel. Westhues v. Sullivan 283 Mo. 546, 224 S.W. 327 (1920) ....... 24
Thompson v. Dewine, 959 F.3d 804, (6th Cir. 2020)................................. 18
Town of Blooming Grove v. City of Madison, 33 N.W. 2d 312 (Wisc. 1948) .
............................................................................................................ 14,15,16
STATUTES

Mont. Code Ann. § 13-10-209 ...................................................................7,18
Mont. Code Ann. § 13-10-209(4)..................................................................17
Mont. Code Ann. § 13-10-327.......................................................................17
Mont. Code Ann. § 13-10-601.......................................................................14
Mont. Code Ann. § 13-10-601(2) ................................................... 1,8,10,11,14
Mont. Code Ann. § 13-10-601(2)(b) ............................................................. 11
Mont. Code Ann. § 13-10-601(2)(c)............................................................... 6
Mont. Code Ann. § 13-15-501 ...................................................................... 18
Mont. Code Ann. § 30-18-117(1) ................................................................ 26
Mont. Code Ann. § 30-18-117(2) ................................................................ 26
Mont. Code Ann. § 30-18-117(3) ................................................................ 25
Wis. Stat. § 62.07(1) .................................................................................... 15

v
App. 77

STATEMENT OF THE ISSUES PRESENTED
1. When does the “Final Act” of § 13-10-601(2) occur which presented
the deadline for all withdrawals from the Petition to be submitted?
2. Did the Plaintiffs demonstrate, clearly and convincingly, that material
facts regarding the Petitions itself were misrepresented or
fraudulent?
3. Do electronic signatures i.e. Docusign satisfy the formality
requirements required to withdraw a signature from a Petition under
state law?
STATEMENT OF THE CASE
Two years ago, this Court expressly stated that § 13-10-601(2), Mont.
Code Ann., clearly defines precise statutory processes and standards for
political parties to become eligible to nominate candidates for public office.
The Court further stated the final act of the process was certification by the
Secretary. State and county election officials rely upon the plain language of
Title 13, and this Court’s interpretation of Title 13 to administer the
elections in this state.
When local administrators asked the Secretary for the final date a
signer may withdraw from a petition authorizing a minor party to conduct a
primary, Title 13 provided the answer for state election officials. Since
1
App. 78

nearly statehood, this Court has been clear: the right to withdraw ends
when the final action on the petition is complete. The final act occurs once
statewide tabulation is complete, and the petition is certified. The precise
statutory processes and standards have all completed in this particular
case.
Following the completion of tabulation, the Secretary ensured that
not a single request for removal remained in any of Montana’s 56
counties—nor his office. Per the guidance of this Court, at that time, the
allowable time to withdraw from the Petition concluded.
The District Court mistakenly analogized the current situation to an
issue before the Wisconsin Supreme Court, which held the government
prematurely cut off the right to withdraw from an annexation petition
before a council’s vote. On this basis, the District Court held that
withdrawals must be allowed until after the primary election. However,
under Wisconsin law, the final procedural step to annexation was the
body’s vote. Whereas here, the final procedure for primary eligibility in
Montana is certification by the Secretary. The Wisconsin case follows the
Montana procedure consistently reiterated by this Court which is that the
signer has the right of withdrawal until the final. Where Wisconsin and
Montana law differ is what the final act is. One such reiteration, rejected
2
App. 79

withdrawals despite the allegation of fraud because they were too late. State

ex rel. Peck v. Anderson 92 Mont. 298, 13 P.2d 231 (1932).
In State ex rel. Peck v. Anderson, the Court acknowledged that clear
and convincing evidence of fraud in the contents of the petition could
permit the judiciary to step in. Id., at 306, 234. The Court provided
examples such as the forgery of signatures.
The record from the underlying hearing is devoid of any evidence that
the contents of the petition were misrepresented, or signatures were forged.
The Court has never held that petition circulators are required to disclose
financial backers of their efforts. In fact, the United States Supreme Court
has held that requiring petition signature gatherers to wear badges
disclosing their names, whether they were paid, and who their employer
was violated the Constitution. Buckley v. American Constitutional Law

Foundation, Inc., 525 U.S. 182, 119 S. Ct. 636 (1999). Simply put, in this
instance signers agreed with the contents of the petition, which was
accurately relayed to them.
The State of Montana must appeal. If allowed to stand, the State will
be inundated with lawsuits in addition to its obligations to administer

3
App. 80

elections. 1 The District Court’s decision cripples state and local election
officials ability to send out military, overseas, and absentee ballots, to notify
minor party candidates that they are eligible to file, provide prompt election
results, and rein in election costs when withdrawals and signatures might
necessitate multiple printing of ballots.
The right to withdraw is not limited to minor parties. In fact, the
right to withdraw is not limited to elections. The right to withdraw applies
to all actions by government requiring a number of citizens to endorse an
action in order for the government to move forward, unless the legislature
speaks otherwise. To be clear, the Secretary of State is not before the Court
to represent a major political party against another major political party.
The Secretary of State is here on behalf of the State of Montana to ask the
Court to uphold a century old doctrine because the unprecedented ruling by
the District Court reshaped the general rule, and will in turn produce
lawsuits involving zoning, recall of public officials, petitions, and initiatives.

Amidst working on this brief, the Secretary of State was already notified of a new
federal lawsuit over this very issue.
1

4
App. 81

STATEMENT OF FACTS

On Friday, March 6, 2020, staff of the State’s Voter and Election
Services division reported to their department head that they had
completed a petition to qualify the Green Party as a minor party eligible for
primary election under § 13-10-601 (2), Mont. Code Ann. (“Petition”). The
Secretary does not have a way of knowing the exact time and day when the
final forwarded sheet of any petition will arrive. Approximately 19,000
people signed the petition, of which approximately 13,000 were accepted as
being valid and forwarded to the Secretary. Trs. vol. I 234:13-17.
Once the Petition is received, it is impossible to predict how long it
will take to finalize statewide tabulation. But when that occurred for the
Petition, the State tabulated all verified petition signatures and accounted
for all that wanted to be removed. Before presenting the petition to the
Secretary, the director ensured county offices did not have any remaining
withdrawal requests in their possession. Trs. vol. I 233:1-24. With
everything submitted accounted for, the Secretary was presented with a
Petition satisfying the requirements for the minor party’s eligibility to hold
a primary. Id.
In February, the Montana Democratic Party (“MDP”) hired an
outreach team to contact petition signers, indicating that a conservative
dark money group was behind the green party petition. Trs. vol. I 147-152.
5
App. 82

The outreach effort resulted in over 150 signers removing their name from
the Petition, before the Petition was certified.
Some county officials asked the Secretary whether withdrawal
requests may be honored after the deadline to add additional signatures has
passed. Trs. vol. II 316:10-14. The deadline to submit new signatures on
the Petition occurred on March 2. Mont. Code Ann. § 13-10-601(2)(c). The
Secretary instructed counties to time and date stamp all requests, as signers
are entitled to remove themselves until final determination of the petition
by the State. Id. Election officials accounted for all withdrawals submitted
before, during, and after county and statewide tabulation. Trs. vol. II
584:12.
Once declared eligible on March 6, 2020, green party candidates had
a single business day to file with the state. Trs. vol. I 232:10. By the close of
business on March 9th, six individuals filed to run as green party
candidates. Trs. vol. I 240:6. At that time, MDP requested all withdrawals
in connection with the green party certification. Trs. vol. I 135. At trial,
MDP testified to also purchasing a copy of the petition signers report 2, a

The Petition Signers Report is a report generated by the counties. The Secretary of
State does not have administrative capability to edit the report.
2

6
App. 83

disclaimed, 3 generated report of the county tabulation, purchased online
from the State. Trs. vol. I 63.
Statute requires the Secretary of State to determine whether a
primary for a party eligible to conduct the same is necessary. Mont. Code
Ann. § 13-10-209. Due to the number of declared green party candidates
for the U.S. Senate race, it was. Had one fewer declared, a primary would
have unnecessary, and the nomination of the candidates would instead
have been certified to the general election ballot. Trs. vol. I 27-28.
Unexpectedly, in April, county election officials received emails from
MDP staff containing electronically signed withdrawal forms. P’s Ex. 4. In
some cases, officials communicated the request was too late, in others the
officials forwarded the email to the Secretary for archive purposes. Trs. vol.
II 375. Occasionally, counties received similar emails after the fact
including: a handful in May, and the day before the primary election. Id.
A few days after the primary election, the Secretary was served with
this lawsuit along with an ex parte order to show cause. Dkt. No. 3, 4. The
order, which says it was based upon the Complaint and “motion”, was
granted, despite that no motion or application for preliminary injunction

The Petition Signers Report download link contains a disclaimer stating the report
generated is a live system that changes as counties input data. While some counties
updated the report based on withdrawals accepted after county certification, others did
not.
3

7

App. 84

was ever filed. Id. Under the UDJA, the lawsuit alleged the right to
withdraw from a petition is absolute, and if considered, the Secretary was
obligated to declare the green party no longer eligible to conduct a primary
under § 13-10-601(2). Dkt. No. 1, ¶88-89. In later pleadings, MDP
expanded their complaint to add that withdrawals precluded by law should
be given effect upon a showing of evidence of fraud in the contents of the
petition. Dkt. No. 14.
The Secretary’s witness provided testimony at trial was about
the convenience, security concerns, and of electronically signed
withdrawals. Findings of Fact, Conclusions of Law and Order, Dkt.
No. 85 (hereafter “FOF” for findings of fact or “COL” for Conclusions
of Law), FOF ¶80-82. Trs. vol. I 268-273. As stipulated by the parties,
requiring the agency to accept electronically signed withdrawals is
dispositive. Individual plaintiffs testified wanting to allow the Green
Party on the ballot even though all were planning on voting for MDP
candidates. Id., at 145.
STANDARD OF REVIEW
A District Court’s conclusions and applications of law are reviewed de

novo for correctness. Montanans for Justice v. State, 2006 MT 277, ¶ 20,
334 Mont. 237, 146 P.3d 759. A district court’s conclusions of law are
8
App. 85

reviewed for correctness. Sandrock v. DeTienne, 2010 MT 237, ¶ 13, 358
Mont. 175, 243 P.3d 1123. Likewise, the standard “pertaining to a
declaratory judgment is to determine if the court’s interpretation of law is
correct.” Roe v. City of Missoula, 2009 MT 417, ¶ 15, 354 Mont. 1, 221 P.3d
1200. We review district court findings of fact for clear error. Montanans

for Justice v. State, 2006 MT 277, ¶ 19, 334 Mont. 237, 146 P.3d 759.
A finding of fact is clearly erroneous only if not supported by
substantial evidence, the court misapprehended the effect of the evidence,
or we are convinced upon our review of the record that the district court
was mistaken. Montanans for Justice, ¶ 19 (citing Petitioners I-549 v.

Missoula Irrigation Dist., 2005 MT 100, ¶ 8, 326 Mont. 527, 111 P.3d 664).
A district court’s issuance of an injunction will be reversed if there has been
a “manifest abuse of discretion.” Shammel v. Canyon Res. Corp., 2003 MT
372, ¶¶ 11–12, 319 Mont. 132, 82 P.3d 912 “A ‘manifest’ abuse of
discretion is one that is obvious, evident or unmistakable.” Id. at ¶ 12.
I.

ARGUMENT
THE SECRETARY HONORED THE ABSOLUTE RIGHT TO
WITHDRAW BEFORE THE “FINAL ACT.”
Over a century ago, the Montana Supreme Court adopted the general

rule that where a certain number of electors is required to initiate
proceedings for a public purpose, any person signing the petition has an
9
App. 86

absolute right to withdraw his or her name at any time before the person or
body created by law to determine the matter submitted by the petition has
finally acted. Ford v. Mitchell, 103 Mont. 99, 114, 61 P.2d 815, 822 (1936);

State ex rel. Freeze v. Taylor, 90 Mont. 439 4 P.2d 479, 481 (1931). The
right to withdraw under the general rule (hereafter “The Rule”) does not
apply if the legislature expresses otherwise. Id.
The Secretary honored the right of a signer to withdraw at any time
before the final act specified by this Court occurred. The District Court
erred by holding that a right to appear on the general election ballot is
defined by the statutory process set forth in § 13-10-601(2). However, the
process set forth in § 13-10-601(2), Mont. Code Ann., is for primary
eligibility alone.
A. Any person signing the petition had an absolute right to
withdraw until the final act occurred. Under clear
precedent, the final act in this matter is when the
Secretary finally determined the subject political party
was eligible to conduct a primary election.
Since 1913, under The Rule, the right to withdraw exists until final
determination of the petition. State ex rel. Lang v. Furnish, 48 Mont. 28,
134 P. 297 (1913); Ford, 103 Mont. at 117, P.2d at 823 (“We therefore hold
the right to withdraw exists until the Secretary of State has finally
determined, in the manner provided by statute, that the petition is
sufficient.”)
10
App. 87

As indicated previously by this Court, § 13-10-601(2), Mont. Code
Ann., clearly defines precise statutory processes and standards for political
parties to become eligible for public office. Larson v. State, 2019 MT 28,
394 Mont. 167, 434 P.3d 241. Two years ago, this Court noted:
Upon receipt of the forwarded petition sheets, affidavits, and
county certifications, the secretary of state must "consider and
tabulate" the verified petition signatures and then, upon
determining that the petition includes the requisite numbers of
verified signatures, certify the subject political party as
eligible to nominate candidates for public office on the
upcoming primary election ballot.

Id., ¶ 3 (emphasis added).
Once a political party petition is presented to the Secretary in
satisfaction of § 13-10-601(2)(b), the Secretary completes the final act of
the duties prescribed:
By express specification and incorporation by reference, § 13-10601(2), MCA, clearly defines precise statutory processes and
standards for political parties to become eligible to nominate
candidates for public office. Section § 13-10-601(2), MCA,
imposes specific administrative duties on county election
administrators (signature verification, county tabulation, and
certification) and the secretary of state (review of county
certifications, statewide tabulation, and petition certification).

Larson, ¶ 26.
By holding the matter submitted upon the petition, rather than
certification by the Secretary, the District Court concluded a person has an

11
App. 88

absolute right to withdraw even after the Secretary—the person created by
law to determine the matter—finally acted. The District Court is incorrect.
The District Court determined “[t]he political party qualification
statute makes no mention of certification by the Secretary, to the Governor
or to anybody else, and no other statute delegates certification authority to
him.” COL ¶11, p. 34, ¶11. This determination contradicts precedent and
the application of The Rule. Larson, ¶ 25 (If upon tabulation the petition is
sufficient, “the secretary shall certify the subject political party as
eligible”)(emphasis added).
The Rule does not permit a withdrawal of a signature after the final
determination of the petition required by law to initiate a public process. As
explained below, the final determination of the petition is whether a minor
party is eligible to use the state primary procedure. The District Court
acknowledged:
The act of submitting a political party qualification petition
simply authorizes a political party to use the state-administered
procedure of a primary election to determine whether to
nominate candidates and which candidates to nominate.
COL ¶16.
Despite the Court’s own conclusion that a minor political party’s
eligibility to participate in the primary is the matter submitted by the

12
App. 89

petition, the Court failed to recognize the Secretary’s determination as the
final procedure of the law which requires submission of the petition.
The Secretary accounted for all withdrawals submitted during
signature verification, county tabulation and certification, the Secretary’s
review of county certifications, and statewide tabulation. Upon completion
of statewide tabulation, the Secretary verified the accounting of all
withdrawal requests submitted statewide, and certified the Petition, which
constituted the final act by the final actor of the precise process and
standard for political parties to become eligible.
The right to withdraw under the Rule is limited to “an appropriate
manner and at the proper time.” Ford , ¶ 114. As noted by this Court in
1931, “[n]one of the authorities recognize the right to withdraw from the
petition after the same has been finally acted upon by the person or board.”

State ex rel. Freeze, 90 Mont. at 445, 4 P.2d at 481. Except for the lower
court, no court has since.
It was not a choice or random chance that State and County election
officials declined tabulating withdrawals submitted in the months after
certification. Election officials bound by The Rule, acted accordingly in this
case.

13
App. 90

B. The District Court wrongly applied Wisconsin law over
Montana law and confused eligibility to participate in the
primary with appearance on the general election ballot
After concluding: (1) “The act of submitting a political party petition
simply authorizes a political party to use the state-administrated procedure
of a primary election”, (2) “The Secretary does not have the authority to
certify the results of a political party petition”, the District Court concluded
the final act referenced by § 13-10-601(2) occurs when the Board of
Canvassers determines the right to placement on the general election ballot,
up to 14 days after the primary election.
To support its conclusion, the Court cited Plaintiff’s suggested
authority, Town of Blooming Grove v. City of Madison, 253 Wis. 215, 33
N.W. 2d 312 (Wisc. 1948). The cited authority does not support the
contention that the Board of Canvassers determine eligibility to conduct a
primary because the Board of Canvassers are not the final actors of § 13-10601. In Town of Bloomington, the Wisconsin court held that the
government prematurely cut off the right to withdraw from an annexation
petition before a council’s vote. However, under Wisconsin law, the final
procedural step to annexation was the body’s vote.
The court’s reliance on Town of Bloomington to interpret Montana
law is misplaced. As the Wisconsin court states in the opinion,

14
App. 91

Courts in the various states are not in accord as to when the right
to withdraw a signature from a petition terminates. There are
courts holding that the right expires at the time of filing the
petition, others when the sufficiency of the petition has been
determined, some that it expires when jurisdiction attaches, and
still others that the right continues until final action is taken
upon the petition.
Town of Blooming Grove v. City of Madison, 253 Wis. 215,218 33
N.W.2d 312,314 (Wis. 1948)
While Wisconsin caselaw regarding petitions for annexation of
territory to a municipal unit states the final act was the vote 4 by the city
council, in Montana for petitions for minor parties is the mere access to the
ballot, the final act is the certification of the petition by the Secretary, as
determined by this Court. Larson v. State, 2019 MT 28, 394 Mont. 167, 434
P.3d 241. The holding of the court in Town of Bloomington is not
inconsistent with the Secretary’s position, and its holding is illustrative in
this case.

The material part of the statute involved follows: "62.07(1) Annexation procedure.
Territory adjacent to any city may be annexed to such city in the manner following:
"(a) A petition therefor shall be presented to the council (1) signed by a majority of the
electors in such adjacent territory and by the owners of one third of the taxable property
thereof, according to the last tax roll, or (2) if no electors reside therein by the owners of
one half of said taxable property, or (3) by a majority of the electors and the owners of
one half of the real estate in assessed value; . . .
"(b) An ordinance annexing such territory to the ward or wards named therein shall be
introduced at a regular meeting of the council after the filing of the petition, be
published once each week for four successive weeks in the official paper and thereafter
be adopted at a regular meeting by three fourths of all the members of the council."
4

15

App. 92

The law at issue in the Town of Bloomington expressly states it is the
duty of the council to determine the petition. In contrast, the law at issue in
this case makes no mention of any duty by the Board of Canvassers for
minor party eligibility to conduct a primary. Similarly, the expressly
defined duties of the Board of Canvassers is absent any mention regarding
determination of a minor party petition. Mont. Code Ann. § 13-15-501.
The District Court’s reasoning is incorrect:
To illustrate the issue, if a petition is submitted and a primary
election is held for which no qualified person received any votes,
[sic] would defeat the petition and the party would have no right
to appear on the general election ballot. The Court concludes that
under the unique procedures applicable to petitions for political
party qualification, it is not until the Board of State Canvassers
tabulates the votes that the process is final. Until that date, there
is no final action on the petition.
COL ¶20.
The District Court’s illustration is incorrect as a matter of fact and a
matter of law for several reasons. First, the matter submitted by the petition
is the eligibility of the minor party to hold a primary. The right to appear on
the general election ballot is not the matter submitted by the petition.
Under the Court’s illustration, if a petition is submitted and a primary
election is held for a minor party, the primary was held because the petition
satisfied the statutory requirements for a minor party to hold a primary by
way of petition.
16
App. 93

The election results of a primary by a minor party are not
determinative as to whether the party can conduct a primary. For example,
if the primary resulted in a tie, that tie would have no bearing on if a
primary could be conducted at all. In contrast, the results of the petition are
determinative as to whether a minor party is eligible to conduct a primary.
The District Court’s analysis is incorrect. Under its own example, the
petition was to hold a primary, and the primary was held. Thus, it cannot be
said that the petition was defeated, regardless of whether the primary
selects a candidate or not.
Second, the District Court’s analysis that “the party would have no
right to appear on the general election ballot” is directly undermined by
statute on numerous fronts. Mont. Code Ann. § 13-10-327 provides an
opportunity for the party to replace a candidate after the primary if a
person is not qualified to appear on the general election ballot.
Candidates can automatically secure a right to appear on the general
election ballot for a minor party that is eligible to conduct a primary if, after
a sufficient petition is certified by the Secretary, a primary election is
deemed unnecessary pursuant to Mont. Code Ann. § 13-10-209 (4).
Moreover, Mont. Code Ann. § 13-10-501 provides a mechanism to

17
App. 94

secure nomination of political party that did not meet the requirements of §
13-10-601 made by a petition for nomination.
Both statutes depend on final determination of the Petition, without a
determination of eligibility renders the provisions of law unworkable. Both
Mont. Code Ann. § 13-10-501 and § 13-10-209 expressly reference and
hinge upon minor party eligibility under the requirements of § 13-10-601.
C. Legitimate state interests support requiring withdrawals
to be submitted before the “Final Act”
Enforcement of the deadlines for submitting petitions ensures that
election officials have time to verify the signatures, the manner and
opportunity for candidates to register for office, any necessary judicial
review can proceed, and the ballot is certified, printed, and sent to military
and overseas voters in time. The state’s justification is not a policy
argument---it is a legitimate state interest upheld by the Court. The ink
signature and in-person witnessing requirements, as well as the related
deadlines, serve legitimate and compelling state interests in a fair and
orderly election process. Thompson v. Dewine , 959 F.3d 804, 810-11(6th
Cir. 2020).
The longstanding rule backed by well-established precedent which limits
the withdrawal to the period before the Petition is deemed sufficient gives a

18
App. 95

reasonable time for reconsideration to the signer and protects the petition
when completed. As one court concluded:
Great numbers of electors might desire to cast their ballots
might be cheated and defrauded out of their right to have their
names on the ballots by bad-faith pretended supporters
procuring the opportunity to sign their petitions, and afterwards
withdrawing names. State ex rel. Harry v. Ice, 207 Ind 65, 191
NE 155, 92 ALR 1508 (1934).
If allowed to stand, the decision below opens the door to
gamesmanship to void petitions by removing signatures through March,
April, May, and half of June.
II.

THE RECORD DOES NOT CONTAIN CLEAR AND CONVINCING
PROOF OF FRAUD REGARDING PETITION FACTS, AND THE FRAUD
ASSERTED DOES NOT AUTHORIZE TARDY WITHDRAWALS EVEN
IF SUPPORTED BY ADMISSIBLE EVIDENCE
Montana law does not permit overriding the final act doctrine absent

clear and convincing evidence of fraud in the contents of the Petition on the
record. The Montana Supreme Court stated that the right to withdraw a
petition signature may be allowed upon clear and convincing proof of
representations made to petition signers regarding material facts of the
petition, if made with the intent to induct action, and timely made. State ex

rel. Peck v. Anderson, 92 Mont. 298, 306, 13 P.2d 231, 234 (1932)
(Holding that even if the allegations of fraud were proven true, the
withdrawals were too late)(Emphasis added).
19
App. 96

The testimony at trial conclusively establishes that signers
understood and support the contents of the petition, namely, eligibility of
the green party to participate. Plaintiffs argued that though the contents of
the Petition were accurate and true, the fact that signature gathering was
funded by conservative efforts somehow seeped fraud into the contents of
the petition itself. To support this circuitous logic, Plaintiffs moved for
admission of evidence that was clearly hearsay. See, FOF, p. 7, ¶ 21,
(newspaper article) p. 11 ¶ 33 (newspaper article), p. 18, ¶ 60 (newspaper
article), Miller Testimony (Trs. Vol. I. 74:3-7, Trs. Vol I 77:17-24, Trs. vol I.
74:24-75:15). The Court relied upon such hearsay in reaching its
conclusions. COL, p. 41, ¶ 33 and COL, p. 43, ¶ 42. The District Court erred
when it allowed the admission of this evidence.
A. The record does not show clear and convincing proof
representations made to signers regarding material facts
of the petition were fraudulent
All three individual Plaintiffs who attended the hearing testified that
the representations made regarding the material facts of the petition were
true.
Neumeyer:
I had already made up my mind who I was going to support, and
they were the Democratic candidates that I have always
supported. But I didn't think it was wrong to also be willing to
20
App. 97

allow other people to get their names out there, and their causes,
you know, so that's why I signed it. Trs. vol. I 190:20-25.
Weed:
I generally feel like participation in elections is a healthy thing,
and I instinctively thought, well, it can't hurt to have an open
ballot.
Trs. vol. I 203:19-23.
Blossom:
. . . I wanted to support someone advocating [Green Party] ideas.
Trs. vol I 217:15-16.
The Court:
I heard no testimony that said the petition itself, the language of
the petition itself that presented to people to sign was in accurate
or misleading.
Trs. 503:4-7.
The court misapplies Peck to conclude that nondisclosure of petition
sponsorship requires consideration of withdrawals after final
determination of the petition. In rejecting the claim before the court that
withdrawals must be accounted for due to fraud, the Peck Court provided
examples of what would constitute fraud, the required standard of proof,
and the timing for such a claim.
The Peck Court indicated that what may be considered fraud is an
allegation that the clerk certified forged signatures or signers that do not
meet residency requirements. Id . at 304. There, if proven true by clear and
21
App. 98

convincing evidence, and the board nevertheless obeyed the statute, a court
would be authorized to interfere and prevent the final act from becoming
effective.
Here, the county clerks authenticated all signatures and the residency
of the signers before certifying the sheets to the Secretary of State. Those
that may have been forged and signers that did not meet residency
requirements were rejected. Trs. vol. I 234:14-23. No evidence was
presented otherwise. Nor was any proof offered of a false statement made
by a circulator to petition signers about the contents of the petition. Where
the testimony of a plaintiff clearly indicates that no representation was
made, the evidence is not sufficient to warrant a finding of fraud. Id ., 512
P.2d at 717.
In the end, the Peck court held that even if the fraud alleged were
proven true, the withdrawals came too late. Circumstances of delay
constitutes as laches. Peck at 306, 234. Allegations of deceptive election
practices must therefore be raised, proven, and if necessary remedied,
within the window of time allotted. Montanans v. State , 2006 MT 277, ¶31
334 Mont. 237, 146 P.3d 759 (Mont. October 26, 2006) (A person or group
challenging the validity of a qualified ballot initiative must file suit within
30 days of the date the initiative is certified.)
22
App. 99

III. MONTANA ADOPTED FORMALITY REQUIREMENTS ASSOCIATED
WITH THE RIGHT TO WITHDRAW.
Under Montana law, withdrawal of a signature must be executed with
the same formality as the initial signature on the petition. Since petitions
for allowing a minor party on the ballot must be signed with “wet”
signatures, withdrawals from the same petition must also be signed with
wet signatures. The District Court erred when it overlooked this
requirement.
The District Court further erred when it misinterpreted the UETA.
Under the plain language of that statute, the state agency must agree to
accept electronic signatures and promulgate polices to that effect. By
incorrectly finding that the Secretary had “changed its policy”, the District
Court erred as a matter of fact and law. The Secretary has not changed its
policy as it has never accepted electronic signatures.

B. Montana’s petition process requires petition withdrawals
must be received before sufficiency is certified and must
observe the same formalities as petition signatures
Montana has adopted the rule that withdrawals must be proven with
the same formality as the petition signatures they seek to remove. Ford v.

Mitchell (1936), 103 Mont. 99, 115, 61 P.2d 815, 822 (“[The name] of each
persons was certified to by the county clerk both on the initiative petition
23
App. 100

and the withdrawal petition as of a person qualified to sign accompanied by
the usual certificate as to the genuineness of their signatures.”).
In Ford, the Montana Supreme Court cited State ex rel. Westhues v.

Sullivan (1920), which reasoned:
To get off of such a petition the action of the signer should be at
least as formal. His request should at least be verified by his
affidavit before some officer. This to the end that the Secretary of
State might know that the signature to the request was genuine.
A mere postal card or letter purporting to be signed by a signer
of the petition is not sufficient. Such course would open wide the
gates for fraud. These alleged withdrawals cannot be considered.

Westhues, 283 Mo. 546, 592, 224 S.W. 327, 339.
An electronically signed document delivered by a third party is just
that, a letter purporting to be signed by the signer. Much has changed since
the 1930’s, although the arguments by both parties revolve around cases
from that time. Today, county election officials have the technological
capability to compare wet signatures, the same cannot be said about an IP
address. State and county election officials might know that the signature to
the request, if wet, is genuine. Election officials have established process
and procedure to do so.
Thus, a wet signature, if called upon, can be verified. Upon objection to
its authenticity, a challenge may be made. Just as MDP challenged the
signatures on the Green Party petition in the last election. If fraud is alleged
24
App. 101

that a withdrawal submitted contains a forged wet signature, the
authenticity can be examined.
Today, the same cannot be said for the matching electronic signatures
contained on the electronically signed withdrawal forms in this case. While
this may be true in the future, it is not true for today.
The very right to withdraw comes from a declaration of the court,
which also declared that the withdrawal must at least be verified. County
and statewide verification, tabulation, and certification of petitions requires
considerable time and manpower. In this case, county officials verified the
authenticity of approximately 13,000 signatures of the 19,000 submitted by
the Petition. Trs. vol. I. 234:13-17. Under the lower court’s decision county
and state election officials will be required to administer and verify
withdrawal submissions while ballots are being counted. The reason the
court seized the right to withdraw after final determination of the petition
was to prevent this scenario.
C. Montana law expressly provides the Secretary with
discretion regarding the use and reliance of digitally
executed election documents
Chapter 30, Part 18, Montana Code Annotated expressly provides an
agency is not required “to use or permit the use of electronic records or
electronic signatures.” § 30-18-117 (3). “[E]ach governmental agency shall
25
App. 102

determine whether, and the extent to which, it will send and accept
electronic records and electronic signatures to and from other
persons and otherwise create, generate, communicate, store, process,
use, and rely upon electronic records and electronic signatures.”
§ 30-18-117 (1)(emphasis added). To the extent that an agency uses
electronic records and electronic signatures, the Secretary, giving due
consideration to security, is entitled to specify:
(a) the manner and format in which the electronic records
must be created, generated, sent, communicated, received,
(b) the manner and format in which the electronic signature
must be affixed to the electronic record, and the identity of, or
criteria that must be met by, any third party used by a person
filing a document to facilitate the process
(c) control processes and procedures as appropriate to ensure
adequate preservation, disposition, integrity, security,
confidentiality, and auditability of electronic records; and
(d) any other required attributes for electronic records that are
specified for corresponding nonelectronic records or reasonably
necessary under the circumstances.
§ 30-18-117 (2), Mont. Code Ann. (emphasis added)
As the First Judicial Court recently held “the Court is not inclined to
address the novelty of using DocuSign and force the widespread application
of the service across the fifty-six (56) county clerks offices or the Secretary
of State.” New Approach Montana v. State of Montana, Corey Stapleton,
Montana First Judicial District Court, Cause BDV-2020-444 (2020).
26
App. 103

While the case concerned electronic signatures for initiative petitions,
the holding of the Court regarding the statutory application of the agency’s
discretion in the acceptance or reliance of electronic signatures is
applicable here.
MDP’s position is contrary to both the UETA and the integrity of the
election process. The UETA explicitly incorporates interactions with
government entities in its definition section with the term “transaction.”
Such an incorporation is logical, because a voter must interact and
exchange their vote or withdrawal with the county election office or
Secretary. If such a withdrawal right were truly unilateral, a voter could
dictate the terms of when, where, and how a vote could be made or a
signature withdrawn. Such an interpretation has never been held to be the
case.
Second, such a position, if adopted, would be determinantal to the
integrity of Montana elections. This interpretation would permit anyone
with an email address to claim they were a particular petition signer and act
on said person’s behalf in the election process. Would a text message suffice
for a withdrawal? What about a tweet?
Mr. Dana Corson testified that DocuSign has been susceptible to
hacking on numerous occasions. Trs. vol I, 268:20-270:10. Despite
27
App. 104

claiming that DocuSign signatures can be verified, Ms. Miller testified that
MDP did not actually meet with the majority of the persons who used
DocuSign, and that they only verified the identify of persons submitting the
withdrawal by verifying the address or phone number of the petition signer,
and even used text messages as a form of verification. Trs. vol I 136:21138:11. Notably, Mr. Corson testified there is simply no security system in
place in the Secretary of State’s Office to accept and verify that electronic
signatures and withdrawals are truly coming from the person whose name
is subscribed therein. Trs. vol I, 268:20-270:10; 276:14-17.
MDP feigned surprise that the Secretary would not accept electronic
signatures. MDP argued numerous times that this policy was somehow
new, and the District Court even attributed fault toward the secretary for
the “adoption of a rule…midway through this petition gathering process.”
Montana has never permitted voting or the withdrawal of signatures or
votes by electronic means. Ms. Miller testified that she was unaware of any
point in the history of the state where electronic withdrawal forms had been
accepted. Trs. vol. I 135:1-23.
MDP blames the Secretary for not announcing that electronic
withdrawals would not be accepted, yet MDP never asked the Secretary of
State’s Office whether such electronic withdrawals would be accepted. Trs.
28
App. 105

vol. I 135:24-136:3. MDP had notice of the Secretary’s position through the

New Approach case, which had settled this issue months prior to their
lawsuit, and should have acted accordingly.
D. If the Secretary’s Motion for Partial Summary Judgment
is granted, then it is dispositive of the issues before the
Court.
If granted, the Secretary’s motion would be dispositive in favor of the
Secretary because the majority of the withdrawal requests were submitted
by DocuSign. Counsel for MDP conceded that the Petition would still have
enough signatures to be certified if the electronic withdrawals were not
counted. Trs. vol I. 146:6-11. Thus, if the Court finds that the Secretary was
not required to accept electronic signatures, then it should reverse the
District Court’s decision on the motion and cross motion for partial
summary judgment regarding election signatures, and may dismiss this
matter in favor of the Secretary.
CONCLUSION
It is not unusual for the Court to see election cases the summer before
a federal general election. For that reason, as November looms, across the
country 2020 marks the most litigious election ever. For the second federal
election in a row, whether or not the Green Party was eligible to conduct a

29
App. 106

primary is in dispute. Generally, the parties’ interest is the effect the
decision will have at the ballot box.
The political effect of this case is irrelevant to state election officials.
It is the administration of election and voter services that is of paramount
importance. Regardless of the individual Secretary elected, public servants
of the Office must carry out statutes adopted by the legislature in
conjunction with guidance provided by the court.
It was the District Court that departed from statute and precedent,
not state election officials at the Secretary of State. Thus, the Secretary
respectfully requests this Court to reverse the Honorable Judge’s decision
and remand for issuance of an appropriate order.

Respectfully submitted this 12th day of August, 2020
/s/ Austin Markus James_____
Austin Markus James
SECRETARY OF STATE
Attorney for Appellant

30
App. 107

CERTIFICATE OF COMPLIANCE
Pursuant to the Montana Rules of Appellate Procedure, I hereby
certify that this Appellant’s Opening Brief is printed with proportionatelyspaced Georgia typeface of 14 points; is double spaced except for lengthy
quotations or footnotes, and does not exceed 10,000 words, excluding the
Table of Contents, the Table of Authorities, Certificate of Service, and
Certificate of Compliance, as calculated by my Microsoft Word software.
Dated this 12th day of August, 2020.
/s/ Austin Markus James_____
Austin Markus James
SECRETARY OF STATE
Attorney for Appellant

31
App. 108

CERTIFICATE OF SERVICE
I HEREBY CERTIFY THAT ON THE 12TH DAY OF AUGUST, 2020, A COPY OF THE
FOREGOING DOCUMENT WAS SERVED ON COUNSEL OF RECORD BY ELECTRONIC
SERVICE AS FOLLOWS:

Matthew Gordon
PERKINS COIE LLP
1201 Third Ave., Suite 4900
Seattle, WA 98101
(206) 359-8000
mgordon@perkinscoie.com

Attorney for Plaintiffs/Appellees

Peter Michael Meloy
MELOY LAW FIRM
P.O. Box 1241
Helena, MT 59624
mike@meloylawfirm.com

Attorney for Plaintiff/Appellees

/s/ Austin Markus James_____
Austin Markus James
SECRETARY OF STATE
Attorney for Appellant

32
App. 109

Helena MT 59602
Representing: Lorrie Corette Campbell, Jill Loven
Service Method: eService

Electronically Signed By: Austin Markus James
Dated: 08-12-2020

App. 110

08/18/2020

IN THE SUPREME COURT OF MONTANA

Case Number: DA 20-0396

DA 20-0396
STATE OF MONTANA, By and through its
SECRETARY OF STATE, COREY STAPLETON,
Appellant,
v.
MONTANA DEMOCRATIC PARTY, TAYLOR BLOSSOM,
RYAN FILZ, MADELEINE NEUMEYER,
and REBECCA WEED, individual electors,
Appellees.

APPELLANT’S REPLY BRIEF
On appeal from the Montana First Judicial District Court
Cause No. CDV-2020-856, the Honorable James Reynolds, Presiding.
AUSTIN JAMES
Chief Legal Counsel
Secretary of State’s Office
P.O. Box 202801
Helena, MT 59620-2801
406-444-2034
Austin.James@mt.gov
MATTHEW T. MEADE
Smith Oblander & Meade, PC
P.O. Box 2685
Great Falls, MT 59403-2685
matt@bigskylaw.com

Matthew Gordon
PERKINS COIE LLP
1201 Third Ave., Suite 4900
Seattle, WA 98101
(206) 359-8000
mgordon@perkinscoie.com
Peter Michael Meloy
MELOY LAW FIRM
P.O. Box 1241
Helena, MT 59624
mike@meloylawfirm.com

App. 111

TABLE OF CONTENTS
INTRODUCTION .................................................................................. 1
ARGUMENT ......................................................................................... 4
I.

THIS COURT DID NOT ARBITRARILY DECIDE THE GENERAL RULE
REGARDING THE RIGHT OF A SIGNER TO TIMELY AND PROPERLY
WITHDRAW FROM A PETITION REQUIRED BY LAW ................... 4
a. The Secretary Properly Followed Determinations by the
Legislature and This Court: The Secretary Simply Applied
Established Law ........................................................................... 7
1. The Secretary Faithfully Executed Decided Law .................... 8
2. Appellees were provided with all requested documents in this
action ......................................................................................... 10

II.

THE COURT ACKNOWLEDGED ABSENCE OF THE CLEAR AND
CONVINCING PROOF REQUIRED .......................................... 13

III. APPELLEES HAVE AN INSUFFICIENT NUMBER OF WITHDRAWALS
DUE TO THEIR RELIANCE ON ELECTRONIC SIGNATURES ............ 15

a. Montana has never accepted electronic signatures for signing or
withdrawing from a petition, and such a procedure would have
to be adopted by the Secretary and administered by the county
election administrators ............................................................. 16
ii

App. 112

b. The Secretary’s position was not new, and MDP had notice
based on New Approach ........................................................... 19
c. The electronic signatures at issue here are wholly unverifiable
and Appellees offered no evidence that county election
administrators have the ability to verify the authenticity of such
signatures .................................................................................. 20
d. Deducting the invalid electronic signatures from the total
number of withdrawals is dispositive ....................................... 23
IV.

THE LONGSTANDING LIMITATIONS OF A RIGHT TO WITHDRAW
AT THE PROPER TIME AND IN THE PROPER MANNER DOES NOT
VIOLATE PLAINTIFFS’ RIGHT TO ASSOCIATE .......................... 24

CONCLUSION .................................................................................... 25
CERTIFICATE OF COMPLIANCE ..................................................... 26

iii

App. 113

TABLE OF AUTHORITIES
Cases
Buckley v. Wordal, 262 Mont. 306, 865 P.2d 240 (1993) ................................................. 5
Ford v. Mitchell, 103 Mont. 99, 61 P.2d 815, (1936) ....................................... 3,4,5,14,15
Hellinger v. Toole County, 1998 Mont. Dist. LEXIS 847 .................................................. 5
New Approach Montana v. State of Montana, Corey Stapleton, Montana First Judicial
District Court, Cause BDV-2020-444 (2020). .............................................. 14,16,17,18
State ex rel. Freeze v. Taylor, 90 Mont. 439, 4 P.2d 479 (1931)....................................... 5
State ex rel. Lang v. Furnish, 48 Mont. 28, 36, 134 P. 297, 300 (1913) ........................... 4
State ex rel. Peck v. Anderson, 92 Mont. 298, 306, 13 P.2d 231(1932) ..................... 13,14
Town of Blooming Grove v. City of Madison, 9 Wis. 2d 443, 33 N.W. 2d 312 (1948) .. 22
Statutes
Mont. Code Ann. § 1-3-223............................................................................................... 17
Mont. Code Ann. § 13-1-202............................................................................................... 8
Mont. Code. Ann. § 13-10-601 (2)(c) ................................................................................. 7
Mont. Code. Ann. § 13-10-601 (2)(d) ................................................................................. 8
Mont. Code Ann. § 30-18-103(2)(a) ................................................................................. 15
Mont. Code Ann. § 30-18-104(2)...................................................................................... 16
Mont. Code Ann. § 30-18-117 (3) ..................................................................................... 14
Other Authority
48 Op. Atty Gen. Mont. No. 5 (Mont. Att'y Gen. June 28, 1999) ....................................... 5

iv

App. 114

INTRODUCTION
The Secretary of State (“Secretary”) seeks clarity for citizens and
public servants by vacating the lower court’s decision to depart from
established Montana law concerning the general rule for withdrawing from
a petition. The lower court did not just depart from established law, it
rewrote every element. The benefit of the right to withdraw is wholly
dependent on the application of the right itself. The framework and
structure of the general rule has facilitated equal application of whether the
right to withdraw under unique circumstances is permitted or not. The
Appellees argue that the Secretary deprived citizens of the right to
withdraw from the Petition; they are incorrect.
When the first group of petition signers requested removal from the
Green Party’s minor party petition (“Petition”) on February 13, 2020, the
Secretary honored the signers’ right to do so, which he did for
approximately 150 others 1 that wished to withdraw over the weeks that
followed. The Secretary ensured the rights of signers to withdraw at the

1

Including individual Plaintiffs Weed and Blossom.

1

App. 115

proper time, in the proper manner, as pronounced by this Court, were not
infringed.
The moment in time that statewide tabulation and subsequent
certification would occur by state election officials was not scheduled, nor
could it be.
Montana law provides a deadline for county officials to forward
verified petitions to the State. There is not an established time for counties
to evaluate, verify, and forward petitions that are submitted other than the
deadline. The Secretary can only tabulate the verified petitions that are
received. The time required by the petition for state tabulation is unique for
every petition. This Secretary does not have the luxury of predicting the
timing associated with how the petition process unfolds.
State election officials completed statewide tabulation for the minor
party petition at issue in this case near the close of business on March 6,
2020. At that time, state election officials verified with county counterparts
that all Petition signatures and withdrawal requests were accounted for
with certainty. As election offices closed their doors, and everything was
accounted for, the Secretary announced the sufficiency of the Petition.
Appellees contend that the final determination of whether the
Petition has achieved all requirements set forth in law, and the duties by
2

App. 116

public actors complete, is still not a final determination of the Petition
itself. Br. at 16. They contend that even if it is, the Petition at issue should
be nullified retroactively because: (1) The Secretary does not have the
authority to dictate the deadline and form of a withdrawal; (2) The
Secretary failed to announce the deadline and form of a withdrawal; and, at
any case, (3) the Secretary was obligated to accept withdrawals of any
format at any time if a signer’s desire to remove is based on disagreement
with financial supporters of the Petition. Id. at 20, 25.
In similar vein, Appellees mistake the statutory requirement for an
agency that affirmatively decides to use and rely upon electronic signatures
for transactions between government and citizens to adopt rules and policy
regulating the manner and extent authorized for use. Appellees allege the
very opposite: Agencies are required to promulgate a rule that electronic
signatures are not accepted or relied upon by the agency. The Secretary has
not authorized the use of electronic signatures. As such, the Secretary has
not promulgated rules regarding the manner, format, software authorized,
and security precautions that are required to begin using and relying upon
electronic signatures.

3

App. 117

Appellees claim their right under the general rule, but simultaneously
request to circumvent the general rule’s requirements to be entitled to the
right to withdraw.
ARGUMENT
I. THIS COURT DID NOT ARBITRARILY DECIDE THE GENERAL RULE
REGARDING THE RIGHT OF A SIGNER TO TIMELY AND PROPERLY
WITHDRAW FROM A PETITION REQUIRED BY LAW
The right to withdraw under the general rule is not at issue, nor is
inference of the right. 2 Under plain terms, the right to withdraw must be at
the proper time and in the proper manner. Departing from the Rule
permits the right to withdraw outside of the proper time and by any
manner that is at odds between the parties, and this is not allowable under
Montana law.
The proper time under the right to withdraw exists until final action
“either granting or denying the petition.” Ford v. Mitchell, 103 Mont. 99,
116, 61 P.2d 815, 823 (1936).

The full sentence by the court regarding the inference referenced by Appellees
Br. At 12 is: “Indeed, the above rule is a necessary inference from the very nature of the
right of petition, and of necessity applies, not merely to the petitions themselves, but to
the withdrawals, so as to authorize the withdrawal of a withdrawal.” State ex rel. Lang v.
Furnish, 48 Mont. 28, 36, 134 P. 297, 300 (1913). Much like the inferred right to
withdraw, the inferred right to withdraw from a withdrawal is bound by limitation. Ford
v. Mitchell, 103 Mont. 99, 113, 61 P.2d 815, 821(1936).
2

4

App. 118

It is contended that, conceding the right to withdraw, it may not
be exercised at any time after the county clerk and recorder has
affixed his certificate to the petition to which the signature of any
given petitioner desiring to withdraw his name is affixed, and
that upon the certificate being appended by the county clerk and
recorder the action becomes final, and no subsequent withdrawal
may occur. True, at some time the right to withdraw must cease,
and this court held in the Lang-Furnish Case, that the right to
withdraw from the petition there under consideration existed
until final action by the board of county commissioners either
granting or denying the petition. We think the rule there adopted
is correct.
Appellees make a lot of noise that the petition at issue in Ford was a
ballot initiative. Four pages are dedicated to the differences between a
minor party petition and a ballot initiative petition. Appellees’ argument is
unpersuasive for several reasons: (1) This Court expressly rejected that a
different rule should apply to initiative petitions; (2) This Court has cited
Ford as the principle authority in applying the general rule to petitions to
determine the moment of time that the right to withdraw cease; and (3)
Ford concerns application of the general right to election law absent of
expression by the legislature concerning withdrawals.
The same general rule applies with reference to a minor party petition as
to petitions that have been before this court in the past. This Court in Ford
expressly rejected that the type of petition is a factor in the application of
the general rule to applicable petitions. Ford, 103 Mont. 99, 114, 61 P.2d
5

App. 119

815, 822. (“We see no reason why a different rule should prevail with
reference to a petition for the initiative of a measure and petitions such as
have been before this court for consideration in the past.”)
Second, this Court has consistently applied the general rule to a broad
range of petitions. At no time has this court departed to a different general
rule in the application reference to a certain petition from other petitions
that applied the rule. Nor should it. The general rule has equally applied to:
• A landowner petition for the creation of a rural improvement district
to improve the road system in the area. 3
• A petition to repeal a County Resolution approving the location of a
private correctional facility within the County 4
• A petition requesting the creation of a planning and zoning district. 5
• A petition to consolidate the county and all cities and towns into a
municipal corporation. 6
• An initiative Petition for the State Liquor Control Act of Montana
Whether the petition before the Court is a petition requesting
eligibility by a minor party to conduct a primary, petition for a ballot
initiative, or a petition create a county sewer district, if the right to
withdraw from the petition is determined by the general rule, the right

3
4
5
6

Buckley v. Wordal, 262 Mont. 306, 865 P.2d 240 (1993).
Hellinger v. Toole County, 1998 Mont. Dist. LEXIS 847

48 Op. Atty Gen. Mont. No. 5 (Mont. Att'y Gen. June 28, 1999)
State ex rel. Freeze v. Taylor, 90 Mont. 439, 4 P.2d 479 (1931).
6

App. 120

of a signer to withdraw ends upon final determination by the person or
body on the petition. The similarities and differences of the petition
subject matter is irrelevant.
If a petition is legally required—absent alternative legislative
expression—the Court has been clear: signers have a right to withdraw
before final determination of the petition; and, signers do not have a
right to withdraw once the final actor under the law requiring the same
has granted or rejected the petition.
a. The Secretary Properly Followed Determinations by
the Legislature and This Court: The Secretary Simply
Applied Established Law
Appellees’ mischaracterization of the Secretary’s opening brief and
record below regarding the Secretary’s purported “hidden” “determination”
is just that: a mischaracterization. The Secretary fulfilled the statutory
duties prescribed by § 13-10-601 (2) with careful consideration and by way
of a transparent process.
1. The Secretary Faithfully Executed Decided Law
Appellees are correct that the District Court concluded the Secretary
had not adopted rules or otherwise obtained public input related to (1) the
date of sufficiency determination, (2) a formal deadline for submission of
7

App. 121

withdrawals, (3) the manner and formalities required. By way of these
determinations, the District Court concluded the Secretary acted arbitrarily
and without public input, which the Court reasoned, abrogates any final
action made by the Secretary.
The Secretary did not determine the date of sufficiency
determination. The determination of sufficiency is not a discretionary
choice by the Secretary. The requirements for the Petition are set forth by
statute adopted by the legislature. The legislative process provides
meaningful participation by citizens. The Secretary’s role is ministerial:
tabulating the verified petition statewide and identifying whether the
results do or do not exceed the minimum number of signatures in the
minimum number of legislative districts.
Consider the inverse scenario: The Secretary of State promulgated the
date of determining sufficiency. This scenario would defy logic and
constitute an ultra vires act. Montana law provides a deadline for
circulators to submit minor party petitions to county election officials. All
petitions must be presented to county officials at least 75 days before the
primary. § 13-10-601 (2)(c), Mont. Code. Ann. . Montana law provides
county election officials have, at most, 10 days to forward verified petitions

8

App. 122

to the Secretary of State for tabulation after no additional signatures may
be submitted. § 13-10-601(2)(d), Mont. Code Ann.
County election officials have no way of ascertaining whether a minor
party petition will be filed in their office until after the deadline to submit
petition signatures has expired. If filed, county officials have no way of
determining the time duration any given petition sheet may require. The
Secretary’s duty to tabulate statewide is functionally dependent on the
completion of county duties. All that is known to the Secretary is counties
have up to ten days after the cutoff to submit additional petition signatures.
On March 6, 2020, finality of the statewide tabulation followed
finality of county duties regarding the petition. The circumstances were not
by arbitrary choice. Instead, it was the moment of time that, in this
instance, on this Petition, the election officials finished the statutory duties
asked of them.
In similar fashion, the contention that the deadline and formality
requirements related to a signer’s right to withdraw was the product of a
whimsical decision of the agency that required a formally promulgated rule
is without merit. County election officers are entitled by law to request
advice from the Secretary based on election laws. § 13-1-202 , Mont. Code
Ann. If requested, the Secretary has a statutory obligation to prepare and
9

App. 123

deliver to the election administrators advice related to and based on the
election laws.
When county election administrators asked state election officials for
clarification as to whether or not a request to withdraw from a minor party
petition may be considered after the deadline to submit signed petitions,
the Secretary’s office fulfilled its statutory duty by providing county officials
with the longstanding Montana law, established by this court. For the sake
of brevity, Appellant recites Argument I set forth above, and Argument III
discussed below, concerning the timing, manner, and formalities
established by this Court governing the right to withdraw. The Secretary
carefully followed and faithfully executed Montana law pursuant to this
Court’s determinations throughout.
2. Appellees were provided with all requested documents in
this action.
The filed action in this case did not contain a single allegation that the
Secretary refused to make any public document available. The simple
explanation for Appellees belief that anything “revealed for the first time”
during the course of litigation is because the Secretary became aware of
Appellees’ mistaken position upon service of this ex parte matter.

10

App. 124

The record below shows the opposite is true. The Secretary fulfilled
the public records requests submitted by Appellees on March 9. requesting
copies of all withdrawals in connection with certification of the green party
petition. The Secretary offers the following truncated classification in
response to the specific purported hidden documents discussed in
Appellees brief, referencing Plaintiffs Proposed Findings of Fact, adopted
by the Court nearly verbatim.
The Petition Signers Report is a live system module offered by
MTVotes enabling users to unilaterally generate a static report of county
petition tabulation as of the time the extract is produced. Trans. vol. I
254:6-20. Stated simply, it shows a report of counted petition signers at one
given point in time, and is an ever-changing document based on tabulation
and subsequent disqualifications. To that end, the website used by
Appellees to extract a Petition Signers Report contains a disclaimer that
data changes as county officials maintain the data.
The Petition Signers Report is not a “decisional document” of the
Secretary. It is a featured tool offered by the platform used to maintain the
voter registration system, that allows citizens to generate a live snapshot

11

App. 125

based on the data imputed by county election administrators. 7 Nor was the
Excel spreadsheet that was used to calculate statewide tabulation a
decisional document.
The sole determination rendered by the spreadsheet was not a
decision of the Secretary at all. The sole determination was the sum of all
verified petitions, and sum of all districts above the threshold. The
spreadsheet and the Petition Signer’s report are merely tabulations of the
decisional documents. It should not be forgotten that all of the petition
withdrawal forms (the decisional documents) were submitted to the
Plaintiffs in response to their specific request for that information pursuant

7

The District Court adopted Plaintiff’s Prop. FOFCOL ¶102 as COL ¶98, verbatim.

COL ¶98 is illustrative of the false light portrayed by Plaintiff/Appellees regarding the
Secretary’s “Secret” document in an improper and prejudicial manner to Appellee. The
County and State Tabulation in Larsen did not account for a single withdrawal, particularly
a withdrawal after county certification and prior to the Secretary’s certification. See, Trs.
I. 256:18-24. Moreover, Plaintiff/Appellees requested all petition sheets in the 2018
matter prior to filing initiating the case in April, 2018. At no time did Plaintiff/Appellees
request this information or confer with the Secretary prior to serving this action on June
5, 2020.
12

App. 126

to a Freedom of Information Act request. Thus, any claimed abuse is
artificial.
The Statewide Tabulation was offered in the Secretary’s initial filing
in this matter, well before the show-cause evidentiary hearing. Had
Appellees requested the statewide tabulation the Secretary would have
produced it. Had Appellees communicated intent to file this matter prior to
their ex parte filing, the Secretary would have certainly provided it to
Appellees. The three months of silence by Appellees cannot be construed as
secret keeping by the state’s election office.
II. THE COURT ACKNOWLEDGED ABSENCE OF THE CLEAR AND
CONVINCING PROOF REQUIRED.
At the end of the trial, the District Court acknowledged “[the court]
heard no testimony that said the petition itself, the language of the petition
itself that presented to people to sign was inaccurate or misleading.” Trs.
Vol II 503: 4:-7. The record is absent of any showing regarding
misrepresented material facts of the Petition supported by proof of intent
the misrepresentation was for fraudulent purposes. State ex rel. Peck v.
Anderson (1932), 92 Mont. 298, 306, 13 P.2d 231, 234. If alleged, a
showing must be timely made and supported by clear and convincing
evidence. Id.
13

App. 127

Appellees continue to muddle what the Anderson court held versus what
it did not. The confusion of Appellees is illustrated by their brief. Contra.
Br. P. 25. (“Montana law is clear that signers can withdraw even after final
action if they learn that representations made to them as an inducement to
sign the petition, and on which they relied, were false.”); with Br. P. 28.
(“[Anderson Court] never reached the issue of what kinds of
misrepresentations would suffice.
Appellees are correct that the only court decision referencing the fraud
limitation, the Anderson decision, did not render an opinion that
misrepresentation permits signers to withdraw after final action. What the
Court’s opinion did hold is that a clear and convincing showing of forgery
and/or false statements about contents of the petition is the proper
limitation to the rule.
The Court also held that a signer’s delay or failure to promptly to
withdraw waives their right to withdraw and constitutes as laches based on
the circumstances shown.

14

App. 128

III. APPELLEES HAVE AN INSUFFICIENT NUMBER OF
WITHDRAWALS DUE TO THEIR RELIANCE ON ELECTRONIC
SIGNATURES.

The Appellees’ silence on critical issues regarding electronic
signatures is telling. First, nowhere in their brief do they address the fact
that Montana has never accepted the use of electronic signatures for
signing or withdrawing from a petition. Second, their brief is devoid of any
response to the fact that MDP knew electronic signatures would not be
accepted based on the First Judicial District Court’s decision in New
Approach, decided in April 2020 (and decided in the very same district in
which they brought their case). Third, they offer no evidence that the
county election officials have the ability or resources to verify electronic
signatures, and instead only offer passing references to the fact that
DocuSign can be verified, but even by Appellees’ own admission, it was not
verified here. Most significantly, Appellees do not dispute that this issue is
dispositive, because if electronic withdrawals are not accepted, then the
Petition still qualifies for certification.

15

App. 129

a. Montana has never accepted electronic signatures for
signing or withdrawing from a petition, and such a
procedure would have to be adopted by the Secretary and
administered by the county election administrators.
Appellees argue that no statue affords the Secretary the ability to
require “wet signatures.” Appellees have the issue backwards. Montana
law requires the Secretary to adopt electronic signatures if they are to be
used in elections. § 30-18-117 (3), Mont. Code. Ann. The Secretary does
not have to adopt a rule saying electronic signatures are not to be used—
that is the status quo.
In the absence of such a law or regulation, the general rule applies,
which requires that withdrawals be proven with the same formality as
the petition signatures they seek to remove. Ford v. Mitchell, 103 Mont.
99, 115, 61 P.2d 815, 822 (1936) 8. Appellees avoid this issue, arguing

Appellees misstate the factual circumstances in Ford at Br. 37. In Ford, the
Secretary contended that not all withdrawal forms submitted were properly certified.
However, the number the number of withdrawals that were certified by the clerks as to
authenticity of the signers reduced the Petition below the threshold. Therefore,
certification of all signatures was determined unnecessary. Ford v. Mitchell, 103 Mont.
99, 115, 61 P.2d 815, 822 (1936). (“The name of each of these [] persons was certified to
by the county clerk...as of a person qualified to sign accompanied by the usual certificate
as to the genuineness of their signatures. )(“Therefore, assuming that the Secretary of
State did not compare the signatures as alleged nor determine whether they had signed
...there were sufficient withdrawals from this one county alone to destroy the validity of
the initiative petition.”)
8

16

App. 130

that the petition withdrawals were more comprehensive than the initial
signatures, but the most basic requirement was missing: an actual legal
signature. Appellants agree that the form promulgated by the Secretary
is not the only form of acceptable withdrawal, but certainly the most
basic requirement of a “wet signature” by the voter must be met as that
is what was required on the original petition.
Appellees incorrectly assert that a signature withdrawal is a
unilateral process, much like signing a will or power of attorney. 9 Voting
has never been a unilateral process. It requires a voter to register to vote
with the county election office. It requires a voter to fill out a ballot and
return it to the county election office. The voter does not dictate these
terms, the party entrusted to ensure the integrity of elections does. The
First Judicial District Court correctly ruled on this issue in New
Approach, holding:
Next, Plaintiffs cannot show that they are entitled to the
requested relief because the use of electronic signatures under
the UETA requires the consent by both parties. Mont. Code Ann.
§ 30-18-104(2). Plaintiffs acknowledge that state agencies are
not required to accept electronic signatures. Reply, p. 13. There
is no evidence presented that the Secretary of State or county

The Montana Legislature expressly exempted unilateral transactions, including
the creation and execution of wills, codicils, or testamentary trusts. See, Mont. Code.
Ann. § 30-18-103(2)(a).
9

17

App. 131

clerks have been consulted or consented to any use of electronic
signature. Mont. Code Ann. § 30-18-104(2).
New Approach Montana v. State of Montana, Corey Stapleton, Montana
First Judicial District Court, Cause BDV-2020-444 (2020), Attached
hereto as Exhibit 1.
MDP’s position in this litigation shows the danger of opening this
door. MDP argued in briefing “[N]othing in Montana law would prevent a
voter from withdrawing their signature from a political party qualification
petition by sending an email to their county election administrator, writing
their county election administrator a letter, or calling their county election
administrator and requesting the same.” Doc. 48, p. 7 (Plaintiff’s
Memorandum In Opposition to Defendant Secretary of State’s Motion for
Partial Summary Judgment).
Although a letter would at least permit a county election
administrator to compare the signature, how would such information be
verifiable by an email? Can a voter simply call the county election office and
tell the election administrator who he or she wishes to vote for? Such a
position evidences the policy behind vesting authority with the Secretary to
create uniform rules and procedures to safeguard the integrity of elections.
Such a position is also untenable with the duties of county election officials
and the Secretary to verify the integrity of elections.
18

App. 132

b. The Secretary’s position was not new, and MDP had
notice based on New Appr oach .
Appellees argue that the Secretary announced for the first time during
this litigation that he would refuse to honor electronically signed
withdrawal forms. Notably absent from Appellees’ brief is any explanation
or even a reference to the New Approach decision. At the time of filing their
complaint, New Approach had already resolved the issue of electronic
signatures. The Secretary was not required to re-pronounce established
law, as “[t]he law neither does nor requires idle acts. § 1-3-223.” Mont.
Code Ann.
Ms. Miller testified that she was unaware of any point in the history of
the state when electronic withdrawal forms had been accepted. Trs. vol. I
135:1-23. Mr. Trent Bolger testified that MDP never contacted county
election administrators to ask whether they would accept electronic
withdrawals. Trs. vol I. 179:12-15.
Appellees failed to respond to the position raised in the Appellant’s
opening brief, asserting that MDP could have simply asked whether such
electronic signatures would be accepted; instead, MDP chose to rely upon
its own misinterpretation of the law to its detriment. It should not be
overlooked how unique the Appellees’ position is: MDP attempted to use
19

App. 133

electronic signatures, which had never been used in any election matter
before, without verifying their use with any of the authorities involved in
the process, assumed that such signatures would be accepted, and then
feigned surprise when they were not. Had MDP read the District Court’s
order in New Approach, decided more than a month before MDP filed its
suit, it would have been aware of the Secretary’s position.
c. The electronic signatures at issue here are wholly
unverifiable and Appellees offered no evidence that
county election administrators have the ability to verify
the authenticity of such signatures.
Appellees offered a plethora of evidence that DocuSign signatures can
be verified, but no evidence that such signatures were verified in this case,
or that any county election office could verify such signatures. Appellees’
wording in its appeal brief is very careful in this regard, noting that the
“DocuSign platform” collects the signer’s personal information, but
omitting the fact that none of this information was relayed to the county
election officials. Appellees’ Brief p. 36. In fact, MDP affirmatively removed
the ability of the county election offices to verify votes when it converted the
withdrawals to pdfs, without any of the associated voter data, and then
emailed them to county election offices. Thus, in this case, a major political

20

App. 134

party is the only entity who can authenticate the electronic withdrawals, not
the public officials entrusted to do so.
Ms. Miller further testified that DocuSign can show information such
as the user’s IP address. Trs. vol. I 80:16-23. But, when she was asked
about the very first withdrawal signature in the stack of withdrawals offered
to the District Court, she admitted she had not actually verified the user’s
IP address, but that she could have. Trs. vol. I 137:2-12. She further
admitted that the verification done by MDP was minimal, based on nothing
more than addresses and/or phone numbers:
Q. Okay. So let's talk about that. First, you said you talked to them
over the phone. Again, had you ever met these people in person?
A. No.
Q. How do you know the person you spoke with on the phone was
the person who signed the DocuSign signatures?
A. Because they knew the information to fill out on the form.
They knew the registration address, the phone number, things
that they completed on the form.
Q. So simply because they had the address of the person?
A. Yes.
Q. Okay. Any other way you were able to verify that this was, in
fact, the person who signed the DocuSign form?
A. No.
21

App. 135

Q. Okay. And as you testified today, the Exhibit 5, do you have
personal knowledge that any of those withdrawal forms were
actually signed by the person claiming to have signed them?
A. Yes. I have personal knowledge. We have the forms that they
submitted to us.
Q. Did you meet with any of these people who signed those
forms?
A. No.
Trs. Vol. I 137:25-138:24.
It is important, too, that Ms. Miller admitted she only spoke to twelve
people out of the five hundred who allegedly withdrew their signatures. Tr.
vol. I 129:3-13.
Ms. Miller’s testimony demonstrates the serious concerns with
DocuSign. 10 According to the Appellees, someone on the other end of a
phone or an email need only claim she is the person whose name is typed
on the DocuSign form, and the receiving must thereafter trust that it is a
true representation. Mr. Corson testified that creating such a secure system
and implementing it across the 56 counties in Montana would be a

The Secretary raised the serious security concerns addressed by Mr. Corson in
its opening brief, to which he testified at the evidentiary hearing. Trs. vol. I 268:20270:10.
10

22

App. 136

“lengthy” process and “would have to involve several divisions or bureaus of
ITSD [Information Technology Division]to consult.” Trs. vol. II 128:5-13.
The pandemic is certainly a threat, and the Secretary does not fail to
appreciate that issue. Reasonable accommodations have been made, such
as expanding mail in primary voting. The Secretary cannot, however,
sacrifice the integrity of an election for convenience, and Appellees have
failed to present any evidence that county election offices could have
feasibly verified that the withdrawals at issue came from the actual petition
signers. In fact, here, just the opposite was true: MDP provided pdfs of
electronic signatures to county election administrators without ever asking,
or independently verifying whether the county election officials would
accept such withdrawals or whether they could verify their authenticity.
d. Deducting the invalid electronic signatures from the
total number of withdrawals is dispositive.
Appellees do not dispute that this issue is dispositive. As admitted by
Appellees, the Petition would still have enough signatures to be certified if
the electronic withdrawals were not counted. Trs. vol I. 146:6-11.

23

App. 137

V.

THE LONGSTANDING LIMITATIONS OF A RIGHT TO WITHDRAW
AT THE PROPER TIME AND IN THE PROPER MANNER DOES NOT
VIOLATE PLAINTIFFS’ RIGHT TO ASSOCIATE.
The District Court’s determination regarding Plaintiffs’ right to

associate hinges on whether this Court upholds the District Court’s
departure from the general rule. To that end, whether this Court affirms
the District Court’s determination that under the framework which is
applied to a law requiring a petition, final determination is certification
of the right to appear on the general election ballot and the final actor of
§ 13-10-601 (2) is by the Board of Canvassers. This determination relies
upon the authority offered by Plaintiffs/Appellants, adopted by the
Court, in Town of Blooming Grove v. City of Madison, 9 Wis. 2d 443, 33
N.W. 2d 312 (1948). Plaintiffs refer the Court to Appellants Opening
Brief, Pages 14-17, which Appellees declined to refute.
It was not an arbitrary determination by the Secretary that the right
to withdraw ends upon completion of the final act--by the final actor-under the law requiring a petition. It was a rational and intelligent
decision by the Secretary to faithfully execute declared Montana law.

24

App. 138

CONCLUSION
For the foregoing reasons, the Court should reverse the District
Court’s order.

25

App. 139

CERTIFICATE OF COMPLIANCE
Pursuant to Rule 11 of the Montana Rules of Appellate Procedure, I
certify that this principal brief is printed with a proportionately spaced text
typeface of 14 points; is double-spaced except for footnotes and for quoted
and indented material; and the word count calculated by Microsoft Word
for Windows is words, excluding table of contents, table of authorities, and
certificate of compliance.
DATED this 18th day of August, 2020.
/s/ Austin Markus James
Austin Markus James

26

App. 140

CERTIFICATE OF SERVICE
I, Austin Markus James, hereby certify that I have served true and accurate copies of the
foregoing Brief - Appellant's Reply to the following on 08-18-2020:
Matthew Prairie Gordon (Attorney)
1201 Third Ave
Seattle WA 98101
Representing: Montana Democratic Party, Taylor Blossom, Ryan Filz, Madeleine Neumeyer, Rebecca
Weed
Service Method: eService
Peter M. Meloy (Attorney)
2601 E. Broadway
2601 E. Broadway, P.O. Box 1241
Helena MT 59624
Representing: Montana Democratic Party, Taylor Blossom, Ryan Filz, Madeleine Neumeyer, Rebecca
Weed
Service Method: eService
Anita Yvonne Milanovich (Attorney)
100 E Broadway Street, The Berkeley Room
Butte MT 59701
Representing: Montana Republican Party
Service Method: eService
Emily Jones (Attorney)
2101 Broadwater Avenue
P.O. Box 22537
Billings MT 59104
Representing: Montana Republican Party
Service Method: eService
Matthew Thomas Meade (Attorney)
104 2nd ST S, Ste 400
Great Falls MT 59401
Representing: Corey Stapleton
Service Method: eService
Chris J. Gallus (Attorney)
1423 E. Otter Rd.

App. 141

Helena MT 59602
Representing: Lorrie Corette Campbell, Jill Loven
Service Method: eService
Holly Michels (Interested Observer)
Service Method: Conventional

Electronically Signed By: Austin Markus James
Dated: 08-18-2020

App. 142

08/12/2020

IN THE SUPREME COURT OF THE STATE OF MONTANA
Supreme Court No. DA 20-0396

Case Number: DA 20-0396

MONTANA DEMOCRATIC PARTY, et al.,
Plaintiffs-Appellees,
v.
SECRETARY OF STATE,
Defendant-Appellant,
and
THE MONTANA REPUBLICAN PARTY, LORRIE CORETTE
CAMPBELL, AND JILL LOVEN,
Proposed IntervenorsAppellants.

From the Montana First Judicial District, Lewis and Clark County
Court Cause No. CDV-2020-856
Honorable James P. Reynolds, Presiding
Brief of Amici Curiae Petition Signers Lorrie Campbell and Jill Loven

COUNSEL FOR AMICI CURIAE:
Chris J. Gallus
GALLUS LAW
1423 Otter Rd.
Helena, Montana 59602
Tel.: (406) 459-8676
chrisjgalluslaw@gmail.com

Edward D. Greim (pro hac counsel)
GRAVES GARRETT, LLC
1100 Main Street, Suite 2700
Kansas City, Missouri 64105
Tel.: (816) 256-3181
edgreim@gravesgarrett.com

i
App. 143

TABLE OF CONTENTS
TABLE OF AUTHORITIES

iv

I.

ISSUES PRESENTED

1

II.

STATEMENT OF THE CASE

2

III.

STATEMENT OF FACTS

4

IV.

STANDARD OF REVIEW

10

V.

ARGUMENT

10

1.

The District Court’s Decision Ignores Montana Voters’ First
Amendment Rights to Effectively Associate to Qualify Minor
Parties for Ballot Access in Federal and State Elections.
a.

b.

2.

13

The First Amendment protects the right of the petition
signers to effectively associate for political change,
and the right of voters to qualify minor political parties
to participate in federal and state elections.

13

Post-turn-in withdrawals make it impossible to mount
an effective campaign to qualify a party for the ballot.

16

c.

Montana’s petition process worked until now because
it long ago aligned itself with every other state by
holding that petition withdrawals must be submitted before
petition sufficiency is determined and must observe the same
formalities as petition signatures.
18

d.

The combined impact of the district court’s opinion
will make the petition process a completely ineffective
means of associating for political change.

20

Any Constitutional Right to Withdraw is Defeated by the
Petition Signers’ Superior Constitutional Claims.

23

a.

24

These facts do not implicate the right not to associate.

ii
App. 144

b.

The “right not to associate” does not include the right
to erase the consequences of an association after it
is completed.

24

The district court’s remedy is disproportionate to
Plaintiffs’ injuries, and fails to account for both the
petition proponents’ right to effective association and
the Green candidates’ and voters’ rights.

25

The Plaintiffs’ rights must yield to the proponent
petition signers.

25

The District Court Judgment is Wrong on a Number of State
Law Grounds.

27

c.

d.
3.

a.

27

b.

“Fraud” provides no basis for accepting the late withdrawals in
this case.
30

c.

DocuSign falls far short of the formality required for
petition signatures and withdrawals.

32

The Secretary was not required to issue a public service
announcement regarding withdrawals or his certification
of the minor party petition.

36

d.

VI.

There was no legal basis to allow months of late
withdrawals.

CONCLUSION

41

CERTIFICATE OF COMPLIANCE

42

CERTIFICATE OF SERVICE

43

iii
App. 145

TABLE OF AUTHORITIES
CASES
Allen v. Lakeside Neighborhood Planning Comm.,
371 Mont. 310, 308 P.3d 956 (2013)

38

Am. Party of Texas v. White,
415 U.S. 767 (1974)

14, 26

Anderson v. Celebrezze,
260 U.S. 780 (1980)

13, 23

Bryan v. Yellowstone Cnty. Elem. Sch. Dist. No. 2,
312 Mont. 257, 60 P.3d 381 (2002)
Buckley v. Am. Constitutional Law Found., Inc.,
525 U.S. 182 (1999)

36
14, 32

Clingman v. Beaver,
544 U.S. 581 (2005)

13

Commonwealth ex rel. Meredith v. Fife,
288 Ky. 292, 156 S.W.2d 126 (1941)

17

Davis v. Westphal,
389 Mont. 251, 405 P.3d 73 (2017)

10

Emerson-Brantingham Implement Co. v. Anderson,
58 Mont. 617, 194 P. 160 (1920)

31

Ford v. Mitchell,
103 Mont. 99, 61 P.2d 815 (1936)

passim

Healey v. Rank,
82 S.D. 54, 140 N.W.2d 850 (1966)

18

In re Initiative Petition No. 2, City of Chandler,
170 Okla. 507, 41 P.2d 101

18

iv
App. 146

Jenness v. Fortson,
403 U.S. 431 (1971)

15

Larson v. State,
394 Mont. 167, 434 P.3d 241 (2019)

12, 29

Little, et al. v. Reclaim Idaho, et al.,
No. 20A18, 2020 WL 4360897 (July 30, 2020)

35

Meyer v. Grant,
486 U.S. 414 (1988)

14

Nader v. Brewer,
531 F.3d 1028 (9th Cir. 2008)

14

Norman v. Reed,
502 U.S. 279 (1992)

13

Powers v. Carpenter,
203 Ariz. 116, 52 P.3d 338 (2002)

26

Rekart v. Kirkpatrick,
639 S.W.2d 606 (Mo. banc 1982)

16

Republican Party of Minn. v. White,
536 U.S. 765 (2002)

23

SJL of Mont. Assoc’s. Ltd. Part. v. City of Billings,
263 Mont. 142, 867 P.2d 1084 (1993)

37

Smith v. General Mills, Inc.,
291 Mont. 426, 968 P.2d 723 (1998)

10

State ex rel. Harry v. Ice,
207 Ind. 65, 191 N.E. 155 (1934)

17

State ex rel. Lang v. Furnish,
48 Mont. 28, 134 P. 297 (1913)

26, 27
v
App. 147

State ex rel. O’Connell v. Mitchell,
111 Mont. 94, 106 P.2d 180 (1940)

19, 37

State ex rel. Westhues v. Sullivan,
224 S.W. 327 (Mo. banc 1920)

19, 20

State v. Anderson,
92 Mont. 298, 13 P.2d 231 (1932)

28, 31

State v. Taylor,
90 Mont. 439, 4 P.2d 479 (1931)

28

Uhl v. Collins,
217 Cal. 1, 17 P.2d 99 (1932)

17

Willems v. State,
374 Mont. 343, 325 P.3d 1204 (2014)

38

STATUTES
M.C.A. § 2-3-114,

38

M.C.A. § 2-4-101

37

M.C.A. § 13-10-5

30

M.C.A. § 13-10-61

5

M.C.A. § 13-10-208

29

M.C.A. § 13-10-601

4, 5, 29

M.C.A. § 13-27-103

33

M.C.A. § 30-18-117

34

M.C.A. § 30-18-102

34
vi
App. 148

CONSTITUTIONAL PROVISIONS
Montana Constitution, Article II, Section 6

5, 23

Montana Constitution, Article II, Section 7

5, 23

Montana Constitution, Article II, Section 8

36, 37, 39

Montana Constitution, Article II, Section 9

36, 37, 39

OTHER AUTHORITIES
42 Am. Jur. 2d Initiative and Referendum § 31

18

vii
App. 149

I.
1.

ISSUES PRESENTED

Whether the District Court erred by failing to recognize or apply the

First Amendment rights of minor party ballot access supporters to effectively
associate by petition to achieve political change.
2.

Whether the District Court erred by locating within the Montana

Constitution a “right to withdraw” from a minor party qualification petition that is
superior to petition proponents’ First Amendment rights in effective association for
minor party access to the federal ballot, and that (a) allows withdrawal even after the
primary election is held and (b) allows withdrawal by DocuSign or even by phone
call, which is far short of the formality required to sign the petition in the first place.
3.

Whether the District Court erred in applying Montana’s requirements

that signatures withdrawals be before final action on a petition, that this only be
relaxed for pure cases of fraud, that withdrawals use the same formalities used to
gather signatures, and that all voters enjoy the protection of these judicially-declared
rules regardless of whether they are emphasized through rulemaking or public
service announcements.

1
App. 150

II.

STATEMENT OF THE CASE

This appeal stems from the District Court’s declaratory judgment removing
the Montana Green Party from the 2020 general election ballot and voiding
thousands of votes cast for the Green Party in the primary election. The Green Party
qualified for the ballot pursuant to Mont. Code Ann. § 13-10-601 (2019) on March
6, 2020, after enough petition signatures were gathered. As a result, the Green Party
appeared on the primary ballot on June 2, 2020. One day prior to the primary
election, however, the Montana Democratic Party (“MDP”) sued to enjoin the
Secretary from giving effect to the Green Party Petition and to have the Green Party
removed from the ballot for the general election.
The Montana Republican Party (“MTGOP”) along with two petition signers
and proponents—Lorrie Corette Campbell and Jill Loven—moved to intervene in
the lawsuit. Plaintiffs accused the MTGOP of deceiving Montana citizens into
signing a “phony” petition. To defend itself, the MTGOP moved to intervene but the
District Court denied the motion.
The individual Plaintiffs argued that they were entitled to withdraw from the
signature petition months after the petition had been certified because the state
constitution granted them a “right not to associate.” Petition signers Campbell and
Loven moved to intervene to assert a countervailing constitutional right: their First
Amendment right to effectively associate via the petition. The petition signers
2
App. 151

argued that granting the Plaintiffs’ requested remedy would impede upon their
federal constitutional right. But the District Court, again, denied the motion to
intervene. The petition signers immediately moved to have this Court exercise its
supervisory control to remedy the District Court’s denial of intervention, but this
Court exercised its discretion to decline extraordinary review. (Case No. OP 20–
0630.)
Following a two-day hearing, the District Court issued an Order enjoining the
Secretary from giving effect to the Green Party Petition, effectively removing the
Green Party from the ballot. In its findings, the District Court concluded that
MTGOP committed constructive fraud, negligent misrepresentation, and that it
willfully deceived petition signers—all without any direct evidence from MTGOP
witnesses and without providing MTGOP any opportunity to defend itself, crossexamine, or present rebuttal evidence at the hearing. Further, the court sanctioned an
entirely new withdrawal procedure, permitting withdrawals to be filed via DocuSign
months after the signature submission deadline has passed. The court reasoned that
this procedure was necessary in order to preserve the Plaintiffs’ “right to not
associate,” but the court gave no consideration to the competing First Amendment
rights of Green Party ballot access proponents and petition signers like Campbell
and Loven.

3
App. 152

III.

STATEMENT OF FACTS

In early 2020, over 13,000 Montana electors, including amici curiae Lorrie
Campbell and Jill Loven (“Amici-Signers” or “Petition Signers”), validly signed a
petition to qualify the Green Party to hold a primary election. (Tr. 234:14-17). The
petition stated: “We, the undersigned and registered voters of the state of Montana
hereby request that in accordance with 13-10-601, MCA, the names of the candidates
running for public office from the Green Party be nominated as provided by law.”
The petition circulators turned in the signatures to county clerks by March 2, as
required by law; the petition was certified on March 6; Green candidates filed
nominating papers by the March 9 deadline; and the Secretary certified all of the
Green primary ballots to county clerks by March 19. (Tr. 231:15 – 234:12). The
Green primary ballots were then immediately designed and printed; they were
mailed to overseas voters no later than April 17; by May 8, they were mailed to
absentee list voters and all voters residing in areas where election authorities chose
to vote by mail due to Covid; and only in-person voting remained to occur on June
2. (Tr. 240:10-14).
During this time, the MDP launched a massive withdrawal campaign to
convince petition signers that the MTGOP had committed election fraud by
submitting a “phony” petition. (See, e.g., Tr. 84:11 – 86:4). This well-orchestrated
political effort by MDP, however, did not generate sufficient withdrawals before the
4
App. 153

Montana Secretary of State certified the minor party petition, under M.C.A. § 1310-61, on March 6, 2020 or by March 9, 2020 when candidates needed to file their
declarations of candidacy. (Tr. 233:1-11). Indeed, the campaign led to sufficient
withdrawals only shortly before the June 2, 2020 primary election itself—long after
candidates were declared, and ballots were printed, mailed, and cast. (Tr. 112:19 –
113:3; 115:11-17). In other words, the MDP continued collecting and submitting
signature withdrawals after the Green Party had qualified to appear on the ballot,
after candidates had filed to run and begun their campaigns, and after votes had been
cast.
On June 1, 2020, one day before the primary election, MDP filed a lawsuit
challenging the Green Party’s qualification to appear on the primary and general
election ballots. MDP, along with four individual plaintiffs, Taylor Blossom,
Rebecca Weed, Ryan Filz, and Madeleine Neumeyer, sued the Montana Secretary
of State seeking a declaratory judgment that the Green Party’s qualifying petition
was invalid under M.C.A. § 13-10-601, that all of their (and other voters’)
withdrawal requests were valid, that the Secretary of State’s failure to accept all of
those requests violated their “right not to associate” under Article II, Sections 6 and
7 of the Montana Constitution, and that the Secretary’s certification of the Petition
was invalid. They also asked for an order that the Secretary be enjoined from

5
App. 154

implementing, enforcing, or giving any effect to the certification of the Green Party’s
petition.
The four individual plaintiffs were all electors who had signed the minor party
petition but later moved to withdraw their signatures. At trial, only three of the
individual Plaintiffs testified (Ryan Filz did not appear). Of the three, none stated
they had ever planned to vote for a Green; instead, they viewed the Greens’ message
favorably. (Tr. 188:13-25; 200:15-22; 203:19-23; 217:12-16). And importantly, no
Plaintiff testified that they were affirmatively misled by anything stated by a petition
circulator, whose petitions stated: “The principle represented by the Party is
Environmental and Social Justice.”
Of the three testifying Plaintiffs, only one was actually “injured.” The
undisputed facts indicated that Plaintiff Weed’s and Blossom’s withdrawals were
submitted on or before March 6 and, as a result, their original signatures were not
counted by the Secretary. (Tr. 259:5-13; 26:21 – 261:11). Therefore, only Plaintiff
Neumeyer’s withdrawal was denied.
Plaintiff Neumeyer testified that she did not learn about the “phony” petition
until March. (Tr. 190:8-12). She testified that she immediately went to the Lewis &
Clark County Elections Office, but was told it was too late to withdraw. (Tr. 192:816). She reported this development to the MDP who emailed her a DocuSign form
to fill out instead. (Tr. 192:18 – 193:8). She “immediately” signed the form and
6
App. 155

returned it to the MDP, but in reality, the DocuSign withdrawal was not submitted
to the Secretary until April 28, 2020. (Tr. 193:9-17; 197:9-10). Interestingly, Ms.
Neumeyer testified that her DocuSign signature was likely not legible because she
could not fit all the letters of her name on her “little cell phone.” (Tr. 196:3-6).
The Amici-Signers were both electors who signed the minor party petition
and wanted to see the Montana Green Party remain on the ballot. Amici Lorrie
Campbell, like the four withdrawal Plaintiffs, is a strong Democratic Party supporter
who plans to vote for the Democratic Party in the general election. (IA15). She
supported Green Party ballot access, however, because she believes the Party’s voice
should be heard. (IA15). Amici Jill Loven, on the other hand, is a strong Republican
Party supporter, who intends to vote with her own party this fall. (IA17). She also
supported Green Party ballot access because she believes the Party’s voice should
be heard. (IA17). While the four withdrawer-Plaintiffs say they are among hundreds
who changed their minds about supporting Green Party ballot access, Amici-Signers
Campbell and Loven are among thousands who did not.
Where the withdrawer-Plaintiffs differ with the Amici-Signers is in their
individualized assessments as to whether it matters that the Republican Party put
money behind its own belief that the Green candidates’ voices should be heard. The
withdrawer-Plaintiffs who find this fact dispositive argue that it tips the scales
against Green Party ballot access, because the signers had a right to believe the
7
App. 156

signature gatherers were members of the Green Party. Thus, the withdrawerPlaintiffs claim they should be able to withdraw their signatures because, upon
retrospect, they realized their signature on the petition may ultimately benefit the
Republican Party. And the withdrawer-Plaintiffs claim their Montana constitutional
“right not to associate” trumps the conflicting First Amendment “right to effectively
associate” that was asserted by the Amici-Signers in their attempted intervention.
On the other end of the spectrum are Amici-Signers Campbell and Loven.
They urged in their Motion to Intervene, Amicus Brief, and urge again here, that this
Court cannot sustain the District Court’s mandate that the Secretary accept signature
withdrawals for months after the signature deadline has passed, and via DocuSign,
a level of formality that falls far below what is required to sign a petition in the first
place. (IA1; IA317). If this is what Montana allows, it renders illusory the right of
minor party ballot access supporters such as Campbell and Loven to meaningfully
and effectively petition the state for ballot access.
The District Court issued Findings of Fact and Conclusions of Law on August
7, 2020, issuing an injunction enjoining the Montana Secretary of State from giving
effect to the Green Party’s petition, effectively removing the party from the ballot.
(IA355). In its findings, the District Court concluded that MTGOP committed
constructive fraud, negligent misrepresentation, and that it willfully deceived
petition signers—all without any direct evidence from its own witnesses and without
8
App. 157

providing MTGOP any opportunity to defend itself, cross-examine, or present
rebuttal evidence at the hearing. (IA355, COL ¶¶ 33–43).1 Further, the District Court
refused to consider any of the evidence provided by MTGOP in its amicus brief,
stating that it could have been introduced at the hearing, (IA405 at ¶ 4)—the same
hearing in which the District Court denied MTGOP the opportunity to participate.
(Tr. 8:9-11:16).
The District Court also sanctioned an entirely new withdrawal procedure,
permitting withdrawals to be filed months after the final action has occurred on the
petition. (IA355, COL ¶ 20). And the court required the Secretary to, for the first
time ever, accept DocuSign withdrawal forms. (IA355, COL ¶¶ 52–55). The court
reasoned that such actions were necessary in order to preserve the Plaintiffs’ “right
to not associate.” (IA355, COL ¶ 44). The court, however, gave no consideration to
the competing First Amendment rights of Green Party ballot access proponents and
petition signers like Campbell and Loven.
IV.

STANDARD OF REVIEW

“The standard of review of lower court findings of fact and conclusions of
law is whether the findings of fact are clearly erroneous and whether the conclusions
of law are correct.” Davis v. Westphal, 389 Mont. 251, 257, 405 P.3d 73, 80 (2017).

1

Petition-Signers Campbell and Loven were prepared to testify that, even if the MTGOP somehow
committed fraud, they still wanted their signatures counted. Their goal was to place the Montana
Green Party on the election ballot. The MTGOP’s actions had no bearing on this goal.

9
App. 158

Similarly, mixed questions of law and fact are reviewed to ensure “the lower court’s
determination of law is correct.” Smith v. General Mills, Inc., 291 Mont. 426, 430,
968 P.2d 723, 726 (1998).
V.

ARGUMENT

The last-minute striking of Green Party federal and state candidates from
Montana’s general election ballot has become a summertime tradition. In both 2018
and 2020, a sufficient number of Green Party ballot access supporters seemed to
have timely filed a qualification petition. In both years, Green Party voters elected
federal and state candidates to stand in the November general election. In both years,
Montana courts have relied on various state statutory or constitutional grounds to
find that the party qualification petition was just barely numerically insufficient. And
in both years—at least so far—courts’ decisions have not considered the First
Amendment rights of Green Party ballot access supporters to effectively associate
to achieve political change. As this summer draws to a close and the time for mailing
ballots approaches, Montana’s state courts cannot and should not remain closed to
minor party ballot access supporters who seek protection under the First
Amendment.
Applying the First Amendment here, this Court should recognize that the
promise of using the petition process to qualify minor parties for the primary will be
wholly illusory and theoretical if the District Court’s new withdrawal holdings
10
App. 159

become the law of this state. They should not. Montana’s longstanding rules for
withdrawal, properly applied, mark a fair constitutional border between the rights of
voters who need to rely on a stable petition process, and the rights of voters who
decide they want to withdraw from a petition they had voluntarily signed.
Under those longstanding rules, signers can withdraw for any reason until the
date of final action, which is the date the Secretary acts on the petition by finding it
sufficient and certifying the party’s federal and state nominees to compete in the
primary election. It is not the date the primary results are certified—that is weeks
after the primary, and would allow outsiders to meddle in the election by soliciting
withdrawals after the primary results were publicly announced. Montana may
perhaps allow a narrow extension of the window for true fraud—actual, proven
misrepresentations by a circulator about the contents of the petition being signed.
Voters’ mistaken assumptions about the funding or political consequences of the
petition, however, cross the line; allowing this as a factor not only invites last-minute
withdrawal campaigns based on something short of fraud, it will involve courts in
subjective debates about political intention and motivation.
Finally, Montana has always been clear that in the absence of statutory
guidance, withdrawals must observe the same formalities as signatures. In no world
is an emailed DocuSign equivalent to a witnessed, in-person signature in which the
circulator swears that the person actually appeared and knew what they were signing.
11
App. 160

It would be a bitter irony if, in Larson, the Greens’ precise compliance with these
rules was enforced against them to deny ballot access, but here, the Greens’
opponents were able to engage in even more severe departures as part of a successful
campaign to achieve precisely the same goal.
An effective First Amendment-compliant right of ballot access by voters’
association through qualification petitions requires that these longstanding rules be
observed. The petition process is useless if proponents must devote substantial
resources to gather thousands of in-person signatures all across the state, only to
surrender control of their petition on turn-in day and watch for months as ballot
access opponents pressure, corner, and extract withdrawals from their supporters,
one by one, by simple email exchanges or phone calls. Worse, in those months, the
ballot-access-deniers will retain their unfettered right to associate with signers to
achieve their political goal—striking all of the federal and state Green Party
candidates—while Green Party proponents will be prohibited from gathering
replacement signatures. If this is all the protection allowed minor party supporters
by the Montana Constitution, then the party qualification process—and access to the
federal and state ballots—is a sham.
As shown below, this Court can enforce the First Amendment and state law
to avoid such a result. Those who wanted to withdraw had ample opportunity to do
so for weeks after the GOP’s public FEC filings confirmed the MDP’s anti12
App. 161

qualification media campaign. Those who waited even longer to change their minds
now have a simple remedy: vote against the Greens in November. Their remedy is
not to use the Courts to strike out at their fellow Montanans (and the Green Party
itself), denying their rights to vote and associate in November. The District Court
should be reversed and the Green Party’s access to the federal and state ballots
should be restored.
1. The District Court’s Decision Ignores Montana Voters’ First
Amendment Rights to Effectively Associate to Qualify Minor Parties for
Ballot Access in Federal and State Elections.
a. The First Amendment protects the right of the petition signers to
effectively associate for political change, and the right of voters to
qualify minor political parties to participate in federal and state
elections.
Associating to promote political goals, including signing a petition, is
protected under the First Amendment. Clingman v. Beaver, 544 U.S. 581, 586
(2005); Norman v. Reed, 502 U.S. 279, 288 (1992); Anderson v. Celebrezze, 260
U.S. 780, 793 (1980). More specifically, the First Amendment protects the right to
make that association effective: “to associate in the electoral arena to enhance their
political effectiveness as a group.” Anderson, 460 U.S. at 793.
This particular facet of the First Amendment—a guarantee that a state petition
process will not impose undue burdens on gathering sufficient signatures—protects
petition proponents like the Amici-Signers. See Meyer v. Grant, 486 U.S. 414, 42122 (1988) (striking down restrictions that made it more difficult to amass petition
13
App. 162

signatures, and holding that “the circulation of a petition involves the type of
interactive communication concerning political change that is appropriately
described as ‘core political speech.’”); Nader v. Brewer, 531 F.3d 1028 (9th Cir.
2008) (finding residency and filing deadline provisions of Arizona law
unconstitutional because they unduly burdened process by which independent
candidate gathered signatures to gain ballot access); accord Buckley v. Am.
Constitutional Law Found., Inc., 525 U.S. 182, 186-87 (1999) (invalidating
Colorado requirements, including that petition circulators disclose funders to
potential signers, and holding that First Amendment protection for the petition
process is “at its zenith”). Thus, petition proponents like the Amici-Signers are
protected from state law that renders petition procedures ineffective for achieving
political change.2
This core First Amendment right to effectively associate for political change
is at its apex given the particular goal of this association: the qualification of minor
parties for the federal and state primary ballots. Am. Party of Texas v. White, 415 U.S.
767, 783 (1974) (citing Jenness v. Fortson, 403 U.S. 431, 439 (1971)

2

The First Amendment’s coverage of this right is apparently a point of agreement among all
parties; below, the Plaintiffs argued it protected their own rights to associate in a signaturewithdrawal effort. (IA119, pp. 13-14). If the First Amendment protects the Plaintiffs’ right to
effectively join together to submit withdrawal signatures, it surely protects the Amici-Signers’
right to effectively join together to submit signatures qualifying the Green Party in the first place.

14
App. 163

(“The Constitution requires that access to the electorate be real, not ‘merely
theoretical.’”)).
As shown below, these First Amendment rights offer protection against the
kind of procedures sanctioned by the District Court’s rewrite of Montana petition
law. That rewrite renders minor party ballot access “merely theoretical,” not
something that can realistically be achieved. While voters must strictly follow
petition requirements, their opponents can now easily nullify those efforts using
means as simple as a phone campaign targeted to the nearest-margin districts.3 It is
even easier where, as here, the campaign can last three whole months after the petition
has been deemed sufficient.
That task is rendered even easier using DocuSign. Direct human contact is no
longer necessary, and it is easy to pressure a stranger over email, text, or voicemail.
Here, MDP’s campaign from late February to late June was waged by serial texts and
messages to thousands of targeted signers, claiming the petition was the result of a
“fraud” and imploring them to “clear their names,” as if the signers themselves stood
accused of participating in the fraud. The District Court’s rewrite of Montana’s

3

The District Court makes clear that moving forward an individual wishing to withdraw his
or her signature from a petition merely needs to “express their intent to withdraw by identifying
the petition at issue.” (IA355, COL ¶ 52). In the MDP’s Cross-Motion for Summary Judgment
filed below, Plaintiffs admitted, as they must, that this standard for withdrawals is so lax that a
mere email or phone call to a local election administrator is sufficient to remove an elector’s name
from a petition. (IA119, p. 7, n. 3). There is no requirement and no process for ensuring that the
request is knowing and authentic.

15
App. 164

nominating petition standards renders the process an easily-gamed sham. It therefore
violates the First Amendment rights of voters like Ms. Campbell and Ms. Loven who
had a right to expect an effective petition process.
b. Post-turn-in withdrawals make it impossible to mount an effective
campaign to qualify a party for the ballot.
Across the country and across the decades, court after court has recognized
that allowing withdrawals after the proponents’ filing deadline – at which point no
further signatures in support may be submitted – is “unworkable,” making it so
impossible to mount a petition campaign that it jeopardizes the petition right itself.
See Rekart v. Kirkpatrick, 639 S.W.2d 606, 608 (Mo. banc 1982) (“To permit
withdrawals after the petition is completed and filed, and the work of securing
signatures abandoned, seems to us to make the system wholly unworkable. We do
not believe that this mere implied power of the signer, which is not expressly
provided for in our Constitution or statutes, can be used so as to jeopardize the
exercise of the constitutional right itself.”). And California held long ago:
…if the alleged right of withdrawal, based upon change of mind, is to
be exercised to the destruction of the initiative procedure, then we may
well question its justification. In order to accomplish anything, the
proponents of a measure must be able to rely upon signatures obtained,
and, if continually forced to seek new ones to take the place of
withdrawals, may never be able to prepare a proper petition within the
limited period which usually exists. To permit withdrawals after the
petition is completed and filed, and the work of securing signatures
abandoned, seems to us to make the system wholly unworkable.
Uhl v. Collins, 217 Cal. 1, 4, 17 P.2d 99, 100 (1932).
16
App. 165

The problem is not merely that proponents will never know how many of their
gathered, pre-validated signatures they can count on. The greater problem is that in
a months-long post-submittal period, one party will have a free hand to cajole and
threaten individual signers by name, privately subjecting each of them to a degree
of pressure and attention that is completely lacking from a normal circulator-signer
interaction in the everyday course of business. See, e.g., State ex rel. Harry v. Ice,
207 Ind. 65, 191 N.E. 155, 156 (1934) (“If nominating petitioners are permitted to
withdraw their names after opportunity for supplying additional names, or filing new
petitions, has passed, a very patent door to chicanery and fraud upon the voters and
the community is provided.”); Commonwealth ex rel. Meredith v. Fife, 288 Ky. 292,
156 S.W.2d 126, 127 (1941) (post-turn-in withdrawals were prohibited, since
otherwise the right to a public vote could be defeated by deception and fraud in that
after the advocates of an election had filed what they thought was a sufficient petition
and it was too late to file a new petition, the election could be prevented by having
signers of the original petition withdraw.). Unlike the petition-gathering process, in
which counter-petition efforts frequently interact in the open with circulators and
petition-signers, the issues are debated simultaneously, and petition supporters can
gauge the effect of counter-efforts and if necessary persuade new groups of voters,
the withdrawal process happens in private and in secret, with no further participation
by the proponents.
17
App. 166

A petition – which by definition requires an ascertainable, verifiable list of
names – simply cannot work if an entire withdrawal campaign can be mounted after
the proponents are required to stop gathering signatures.
c. Montana’s petition process worked until now because it long ago
aligned itself with every other state by holding that petition
withdrawals must be submitted before petition sufficiency is
determined and must observe the same formalities as petition
signatures.
When citizen petitions were still a new innovation, Montana joined the many
states that prohibit withdrawals after signature turn-in,4 or at least after the official
charged with accepting the petition has taken final action to determine its
sufficiency. Ford v. Mitchell, 103 Mont. 99, 61 P.2d 815, 821-822 (1936) (collecting
earlier Montana cases, and finding that “the right to withdraw exists until the
secretary of state has finally determined, in the manner provided by statute, that the
petition is sufficient.”). In State ex rel. O'Connell v. Mitchell, 111 Mont. 94, 106

4

In addition to the state court decisions cited above, see also Healey v. Rank, 82 S.D. 54,
58, 140 N.W.2d 850, 852 (1966) (“We think it is not unreasonable to hold, and in fact both good
conscience and sound public policy dictate, that the signer of a purely political petition, such as
one nominating a candidate for office or requesting the submission of a question at an election, is
under an obligation to his fellow signers not to withdraw his name from such petition at a time
when it is too late for the addition of names or the effective filing of a new petition.”); In re
Initiative Petition No. 2, City of Chandler, 170 Okla. 507, 41 P.2d 101, 102 (“Each petitioner acts
on his own responsibility and if he should change his mind, or if he should have been induced to
sign under misapprehension or through undue influence, he ought to have the right to correct his
mistake, if he does so before the rights of others have attached by final action on the part of the
officers or board to whom the petition is addressed”) (emphasis added); 42 Am.Jur.2d, Initiative
and Referendum § 31 (1969) (“[W]here a statute prescribes a certain time within which a
referendum petition may be filed, generally signers of the instrument may withdraw therefrom at
any time during the period allowed for filing but not after the expiration of that period.”)

18
App. 167

P.2d 180, 181 (1940), in the absence of an express deadline on signature withdrawals
for an initiative petition, the Montana Supreme Court applied the “final act” rule. In
doing so, it found that the rule did not render the initiative procedure “unworkable,”
implying that a withdrawal deadline which does render the process unworkable
would be held in disfavor.
Montana also adopted the rule, again following authority from across the
country, that withdrawals must be proven with the same formality as the petition
signatures they seek to remove. Ford, 61 P.2d at 821 (holding that if withdrawals
are to be allowed, they must be completed “in an appropriate manner,” and finding
that certification on withdrawal petition was sufficient because it was identical to the
certification required on the underlying initiative petition). Ford cited State ex rel.
Westhues v. Sullivan, 224 S.W. 327, 339 (Mo. banc 1920), in which the Missouri
Supreme Court refused to recognize withdrawals via postcards that had been
supplied by the person challenging the petition. It reasoned:
To obviate fraud the statute… requires that each sheet of the petition
shall be verified by the affidavit of the circulator… in which affidavit
such circulator shall give the names of the signers thereon, and make
oath that they signed it in his presence and other matters named in the
statute, supra. The very purpose of the statute in requiring this formality
was to obviate fraud. To get off of such a petition the action of the signer
should be at least as formal. His request should at least be verified by
his affidavit before some officer. This to the end that the secretary of
state might know that the signature to the request was genuine. A mere
postal card or letter purporting to be signed by a signer of the petition
is not sufficient. Such course would open wide the gates for fraud.
These alleged withdrawals cannot be considered.
19
App. 168

Westhues, 224 S.W. at 339. Montana adopted the Westhues rule 80 years ago and
until June 1, 2020, it has never been called into question.
d. The combined impact of the District Court’s opinion will make the
petition process a completely ineffective means of associating for
political change.
The District Court has jettisoned two long-established protections for
petitioning voters by (1) extending the allowable withdrawal period for months after
the petition has been turned in and deemed sufficient; and (2) allowing DocuSign—
the modern-day equivalent of postcards or phone calls—to suffice as proof of a
withdrawal. This decision has rendered Montana’s minor party ballot access by
petition a “theory” rather than a usable system for winning voter support.
First, if withdrawals need not be received by the petition turn-in date, or at
least within the few additional days it requires for the Secretary to find that the
petition has sufficient signatures, a petition drive will consist of two separate
campaigns. In the first campaign, circulators will have to follow strict rules regarding
the form of the petition, all of which are meant to deter fraud. This includes a
verification that the named individuals did indeed present themselves to the
circulator and sign, and that they knew what they were signing. The circulator’s
affidavit is then notarized. Proponents keep careful track of the number of signatures
gathered in different areas and validate those signatures by matching them to
Montana’s voter database, giving them some sense of where they stand in meeting
20
App. 169

statutory requirements. Opponents are free to counteract circulators by following
them and attempting to discourage voters from signing—a frequent tactic—and are
free as the MDP did for weeks before turn-in to mount withdrawal campaigns.
Proponents, in turn, can observe and respond to the opponents’ message as they talk
to voters in the field. Just as important, they can monitor their own petition results,
and will have some sense of who has signed to become part of their association.
Most petitioners now have access to state voter files, so that they can also determine
which signatures are valid, and in what districts. If the opponents’ counter-message
begins to resonate and withdrawals begin to be filed, proponents can try to expand
their efforts to gather even more signatures. It is this basic transparency and
predictability—knowing who has signed on to join the team as the campaign draws
to a close—that gives political supporters the confidence that a petition can be
effective, and to commit their time and money to the petition process. Lacking this,
what minor party ballot access supporter would rationally make the effort?
Under the District Court’s judgment, every ballot access effort will now have
a second phase. Unlike the first phase, only the opponents will hold the key to
membership in the petition-association. The petition will essentially become theirs.
Having gained the advantage of seeing the proponent’s hand and reserving all of
their resources for phase two, opponents have the luxury of running a targeted
pressure campaign. Rather than approaching the general population, they will be
21
App. 170

able to pick off specific individuals in specific areas where the proponents’ margin
was thinnest. Using modern data mining tools, they can obtain phone numbers and
email addresses and continually pressure their targets in private and in secret, with
no further participation by the proponents. Many former supporters, repeatedly
pressed and presented with only the opponents’ facts, may take the easy route and
withdraw.
Once the campaign-after-the-campaign becomes the rule, petition proponents
will never be able to predict how many people will change their minds or be
pressured to change their position during this extended “withdraw-only” phase. In a
real sense, a proponent can never gather enough signatures because opponents will
have months to sit back and bombard signers with texts and emails, picking off
voters one by one. This will certainly chill future ballot access efforts.
In conclusion, states do not need to use nominating petitions to allow minor
party ballot access. But once they do so, states must afford proponents a process that
gives real effect to their political association and speech. “If the State chooses to tap
the energy and the legitimizing power of the democratic process, it must accord the
participants in that process ... the First Amendment rights that attach to their
roles.” Republican Party of Minn. v. White, 536 U.S. 765, 788 (2002) (internal
quotation marks and ellipsis omitted). Because it thwarts an otherwise orderly and
predictable process, the District Court’s judgment infringes on petition proponents’
22
App. 171

rights under the First Amendment to the United States Constitution and Article II,
Sections 6 and 7 of the Montana Constitution by undermining their rights to petition,
to vote, and to access the State’s primary processes.
2. Any Constitutional Right to Withdraw is Defeated by the Petition
Signers’ Superior Constitutional Claims.
The District Court’s authorization of untimely withdrawals comes at the
expense of the petition proponents that dedicated their efforts and attached their
names to the petition. As explained above, these groups enjoy a right to effective
political association, a right they exercised by engaging in the petition process. See
Anderson v. Celebrezze, 460 U.S. 780, 793 (1980). The District Court’s opinion
violates petition proponents’ rights under the First Amendment by permitting
petition opponents, like the Plaintiffs, to withdraw after petition certification and in
a manner that has never been permitted under Montana law. Additionally, the
District Court’s opinion invalidating the Green Party’s primary violates the rights of
the candidates who qualified in the primary.
a. These facts do not implicate the right not to associate.
The District Court erred in ruling on Plaintiffs’ claims regarding their right
not to associate, because no justiciable controversy existed. Plaintiffs alleged no
injury-in-fact arising from their theory that they have a “right not to associate.” And
Plaintiffs did not assert an injury via association with the Green Party, the party with
which they voluntarily associated by signing the petition at issue. Instead, they
23
App. 172

argued that they were being “forced” to associate with the Republican Party. That is
simply incorrect. Their alleged connection with the Republican Party hinged solely
on the fact that the Republican Party paid for petition circulators. Plaintiffs were free
to dissociate with the petition when the petition was still an active association—i.e.,
when it was being presented to and acted upon by the recipient state officials. And
by Plaintiffs’ own admissions, they had been free for months to exercise their rights
to attack and disavow any association with the Republicans.
b. The “right not to associate” does not include the right to erase
the consequences of an association after it is completed.
Even when the right not to associate is implicated, it is not absolute. Not a
single case cited by the District Court holds that a person can retroactively disavow
association with a group or effort after the purpose for which the group was formed
or effort undertaken is accomplished, as the District Court allowed here. The
consequences of an unlimited right to retroactively associate are particularly
troubling in the election context, which relies on deadlines and specific time periods
for making decisions and measuring political support. The right to not associate is
prospectively applied to disentangle a citizen from an unwanted association, not
retroactively to torpedo an election result that a voter regrets.

24
App. 173

c. The District Court’s remedy is disproportionate to Plaintiffs’
injuries, and fails to account for both the petition proponents’
right to effective association and the Green candidates’ and
voters’ rights.
Even though the District Court held that Plaintiffs’ “right not to associate”
was infringed, the District Court’s remedy goes far beyond Plaintiffs’ actual injury—
it extinguishes the rights of 13,000 valid petition signers, voids thousands of alreadycast votes, and eliminates ballot access for Green candidates and voters. It is
unjustifiable to sacrifice the constitutional rights of absent and innocent third parties
merely to achieve Plaintiffs’ goal of punishing the Republican Party for daring to
legally support the Greens. Put another way, vindicating these Plaintiffs’ “right not
to associate” does not require that others’ association be completely destroyed. The
District Court’s remedy is not properly constrained to Plaintiffs’ actual injury.
d. The Plaintiffs’ rights must yield to the proponent petition
signers.
The rights of Plaintiffs and others who wish to untimely withdraw from the
Green Party petition must yield to the Constitutional rights of the petition’s
proponents. Even if Plaintiffs were deemed to have “associated” with the Republican
Party, any interest to be free from such association is adequately protected by
allowing them to withdraw their support of the petition up to the point that the

25
App. 174

signatures are filed.5 The burden of withdrawing a signature before the filing
deadline (just like the burden of obtaining a signature before the filing deadline) is
not insignificant.
On the other hand, as noted above, the petition proponents have a strong First
Amendment interest in an effective petition process, which requires a level of
certainty and predictability in accessing the ballot so as not to render the petition
process illusory.6 That is particularly true here, given the District Court has changed
longstanding rules retroactively, long after the proponents lost the chance to gather
more signatures. Before reinterpreting Montana law and changing the result of the
primary, the District Court was obligated to consider the superior First Amendment
rights of the petition signers and the Green Party voters and candidates. Applying
those rights, the District Court erred in holding Plaintiffs’ rights not to associate
permit their untimely withdrawals to be counted as valid.

5

See State ex rel. Lang v. Furnish, 48 Mont 28, 134 P. 297, 300 (1913) (finding signers’
right to withdraw temporally restricted to period before final action taken); see also Ford v.
Mitchell, 103 Mont. 99, 61 P.2d 815, 822 (1936) (“[T]he signers of an initiative petition may, in
an appropriate manner and at the proper time if they so desire, withdraw from such petition.”).
Plaintiffs concede that their right to withdraw is limited in that it must be exercised before “final
action” is taken on the petition. (IA140, pp. 12-13) (“Pursuant to this right, individuals can
withdraw their signature so long as: … individuals withdraw before final action is taken on a
petition…”) (internal citations and quotations omitted).
6
See Am. Party of Tex. v. White, 415 U.S. 767, 787, n. 18 (1974) (Recognizing state’s
interest in regulating petition process necessarily requires the imposition of some cutoff period to
verify the validity of signatures on the petitions, to print the ballots, and, if necessary, to litigate
any challenges.) (internal quotations and citations omitted); see also Powers v. Carpenter, 203
Ariz. 116, 119, 51 P.3d 338, 341 (2002) (“…the right to withdraw is neither indefinite nor absolute;
rather, at some point private rights must yield to society's interest in having a well ordered and
functioning government..”).

26
App. 175

3. The District Court Judgment is Wrong on a Number of State Law
Grounds.
a. There was no legal basis to allow months of late withdrawals.
The District Court properly held that signature withdrawals must generally be
submitted before “final action is taken on a petition.” (IA355, COL ¶ 8). But as a
matter of law, the District Court erred in applying this principle to the statutes that
govern minor party qualification petitions. The District Court held that final action
on a minor party petition does not occur “until the Board of State Canvassers
tabulates the votes” from the primary election. (IA355, COL ¶ 20). This is simply
wrong as a matter of law: the final action is the Secretary’s determination as to
whether the petition is sufficient to place the Green Party on the primary ballots.
Montana first declared the right to withdraw from a signature petition in 1913.
State ex rel. Lang v. Furnish, 48 Mont 28, 134 P. 297, 300 (1913). This Court stated:
“signers of a petition have an absolute right to withdraw therefrom at any time before
final action thereon.” Id. In other words, withdrawals are acceptable up until “final
action thereon”; meaning final action on the petition. Once the petition process is
fully complete, withdrawals are no longer acceptable.
Montana precedent is consistent on this point. In State v. Taylor, the petition
signers had the right to withdraw until the county clerk certified the petition to the
board of county commissioners. 90 Mont. 439, 4 P.2d 479, 481 (1931). In State v.
Anderson, the court again stated the petition signers could withdraw their signatures
27
App. 176

up until the clerk certified the petition to the board of county commissioners. 92
Mont. 298, 13 P.2d 231, 234 (1932). And in Ford v. Mitchell, the court stated that
“the right to withdraw exists until the secretary of state has finally determined, in the
manner provided by statute, that the petition is sufficient.” 103 Mont. 99, 61 P.2d
815, 823 (1936). Once the petition process is complete and the petition is passed to
the next set of decision-makers, the Montana Supreme Court has consistently held
that withdrawals are no longer acceptable.
Here, the final action on the minor-party petition occurs when it is certified
by the Secretary. At that point in time, the minor party is permitted to participate in
the state’s primary election process. The District Court was tripped up by the fact
that the applicable statutory authority does not explicitly state that the Secretary must
certify the minor-party petition for placement on the primary election ballot. (IA355,
COL ¶ 11). However, the surrounding statutory authority and this Court’s precedent
make clear that the Secretary’s certification is necessary; without it, the Secretary
could not have fulfilled his mandatory statutory duty of certifying the actual contents
of the ballot to each election authority by March 19, 2020. See § 13-10-208.
Indeed, the Secretary’s duty to make the final act of certifying the minor
party’s qualification is made clear in this Court’s recent explanation of the minor
party petition process. See Larson v. State, 394 Mont. 167, 176-77, 434 P.3d 241
(2019). This Court held that signature petitions must be submitted to the county
28
App. 177

election authorities. Id. The local election authorities then “verify the submitted
signatures” and forward “verified petitions” to the Secretary. Id. “Upon receipt of
the forwarded petition sheets, affidavits, and county certifications, the secretary of
state must ‘consider and tabulate’ the verified petition signatures.” Id. If sufficient
verified signatures are received, this Court held that the Secretary shall “certify the
subject political party as eligible to nominate candidates for public office on the
upcoming primary election ballot.” Id. The District Court’s holding that certification
is not a part of the minor party petition process simply ignores this biding precedent.
The District Court instead held that even the primary election itself is just one
of many steps that lead up to the general election, so that the petition is not “final”
until the primary occurs and the canvassers announce the winners several weeks
later, in late June. But the aim of using a qualification petition is very particular: to
use the mechanism of the state primary to select candidates—not merely to have
some candidate appear in the general election. Section 13-10-601, M.C.A, entitled
“Parties eligible for primary election,” provides a process by which a minor party
may participate in the primary elections. It is not to use one of the many other ways
of choosing a general election candidate. (The Party could have bypassed the
primaries entirely and nominated candidates for general election through a process
set out under Title 13, Chapter 10, Part 5, but chose not to do so.) Thus, once the
Green Party was permitted to participate in the state’s primaries (i.e., the Secretary
29
App. 178

certified that the Party had satisfied the statutory requirements and could participate
in the primaries), the process was complete. The court erred in holding that
withdrawals submitted after the petition was certified should be counted.
b. “Fraud” provides no basis for accepting the late withdrawals in this
case.
The District Court properly held that fraud may permit the acceptance of
untimely withdrawals. (IA355, COL ¶ 34). But the Court failed to properly apply
this principle to the facts of this case.
First, the District Court erred in holding that fraud occurred here. The court
held that “petition signers withdrew after learning that representations made to
induce them to sign the petition were false” (IA355, COL ¶ 32) and that certain
“misrepresentations and failures to disclose matter[ed] to signers.” (IA355, COL ¶
42). However, other than three plaintiffs who testified, not a scintilla of evidence
was presented regarding the thoughts or beliefs of any petition signer. And none of
those three plaintiffs—either in their affidavits or their live testimony—claimed that
they were under any misapprehension about the contents of the petition, or that any
circulator had made false statements of any kind in order to induce them to sign the
petition. This is not a matter for dispute: the District Court’s Findings of Fact,
adopted from the Plaintiffs’ own proposed Findings, contains none of this evidence.
There was no evidence of fraud.

30
App. 179

Moreover, the District Court arrived at its legal conclusion that fraud occurred
by mistakenly adopting a broad definition of fraud that includes negligent
misrepresentations, constructive fraud, and even unilateral mistake. (IA355, COL ¶¶
37-39). No precedent has established that these distinct causes of action are
sufficient grounds for permitting untimely withdrawals. In fact, this Court has held
the opposite: a petition signer seeking an untimely withdrawal based on fraud must
satisfy the normal fraud standard. State v. Anderson, 92 Mont. 298, 13 P.2d 231,
234 (1932) (citing Emerson-Brantingham Implement Co. v. Anderson, 58 Mont. 617,
194 P. 160 (1920)). To make a sufficient showing of fraud warranting the acceptance
of untimely withdrawals, the movant must demonstrate with “reasonable certainty
that the party against whom the fraud is alleged made a misrepresentation of a
material fact; that he made it with the intent to induce the other party to act upon it;
that the latter believed and relied upon it; and that he acted upon it to his damage.”
Emerson, 194 P. at 164. In other words, actual fraud must exist. This Court has never
indicated that quasi-fraud principles are sufficient for permitting untimely signature
withdrawals, and the District Court has failed to justify such a broad expansion of
authority.
Finally, the District Court erred when it concluded that fraud existed in this
case because “the MTGOP and their agents” failed to “disclos[e] their role in
organizing and sponsoring the petition.” (IA355, COL ¶ 40). The District Court
31
App. 180

provided no authority supporting the proposition that such disclosures are required
and failed to define what kind of disclosure was required. Whatever the District
Court meant, imposing such requirements may well violate the First Amendment.
See Buckley v. Am. Const. Law Foundation, Inc., 525 U.S. 182 (1999) (requirement
that petition circulators wear badges with their names and payment status was
unconstitutional).
In short, fraud did not occur in this case and the Secretary was not obligated
to accept the individual Plaintiffs’ late withdrawals.
c. DocuSign falls far short of the formality required for petition
signatures and withdrawals.
The District Court erred in declaring that the Secretary was obligated to accept
DocuSigned withdrawals submitted by petition signers. (IA355, COL ¶¶ 52-55). In
late March or early April, the MDP began using DocuSign, an electronic document
software, to collect withdrawals and withdrawal signatures. The Secretary refused
to accept and count DocuSign withdrawals, and the District Court held that the
Secretary was obligated to accept such withdrawals. The District Court, however,
lacked authority to require the Secretary to accept such withdrawals.
First, this Court has previously held that a valid signature withdrawal must
satisfy the same formalities required for the initial signature. Ford, 103 Mont. at 61
(holding that if withdrawals are to be allowed, they must be completed “in an
appropriate manner,” and finding that certification on withdrawal petition was
32
App. 181

sufficient because it was identical to the certification required on the underlying
initiative petition).
A signer must, of course, sign the petition. This requires a wet-ink signature
that is “substantially the same” as the individual’s signature on their voter
registration form. M.C.A. § 13-27-103. But the signature must also be relayed to the
proper election authorities by way of a petition certified by an affidavit from the
petition circulator. The affidavit must state:
I [name of person who is the signature gatherer], swear that I gathered
the signatures on the petition to which this affidavit is attached on the
stated dates, that I believe the signatures on the petition are genuine, are
the signatures of the persons whose names they purport to be, and are
the signatures of Montana’s electors who are registered at the address
or have the telephone number following the person’s signature, and that
the signers knew the contents of the petition before signing the petition.
M.C.A. § 13-27-303. Here, the DocuSigned withdrawals satisfied neither
formality. First, there was no wet-ink signature that could be matched to the signer’s
voter registration form. In fact, Plaintiff Neumeyer testified that her DocuSign
signature likely did not match her normal signature. Second, the MDP (the party that
collected withdrawals and sent them to the proper election authorities) did not
transfer the withdrawals to the Secretary with a sufficient affidavit (or any affidavit).
Therefore, according to this Court’s precedent, the Secretary was not required to
accept the DocuSign withdrawals.

33
App. 182

Equally important, the Montana legislature has contemplated the use of
electronic signatures and determined that governmental agencies have the discretion
to determine whether they will accept electronic signatures. M.C.A. § 30-18-117
(“each governmental agency shall determine whether, and the extent to which, it will
send and accept electronic records and electronic signatures to and from other
persons and otherwise create, generate, communicate, store, process, use, and rely
upon electronic records and electronic signatures.”). And here, the Secretary never
adopted a policy stating he would accept electronic signatures, a decision wellwithin his discretion granted by the state legislature.
The District Court held that this statutory authority was not applicable because
a signature withdrawal is not a “transaction” under the statute. (IA355, COL ¶ 54).
But the District Court failed to acknowledge the definition of transaction: “an action
or set of actions occurring between two or more persons relating to the conduct of
business, commercial, or governmental affairs.” M.C.A. § 30-18-102(18). The
District Court failed to explain why the legislatively created minor party petition
process overseen by the Secretary, a government officer, is not a “governmental
affair” under this statutory section. And the Court failed to identify why a petition
signer communicating with the Secretary or an appropriate county election official
regarding the withdrawal of his or her petition signature is not an action “between
two or more persons.” Because the signature withdrawal process is a “transaction”
34
App. 183

subject to the Montana Uniform Electronic Transactions Act, the Secretary has the
right to determine whether he will accept electronic signatures. Because the
Secretary does not accept electronic signatures, the DocuSign withdrawals were
improper and the District Court erred by declaring such withdrawals valid.
Finally, to the extent the District Court held that DocuSigned or electronic
petition withdrawals are constitutionally required due to Covid-19, it erred. On July
30, 2020, the United States Supreme Court decided there was a “fair prospect” that
First Amendment speech and association rights do not compel electronic petition
signature-gathering during this pandemic. For that reason, the Court took the
extraordinary step of staying a preliminary injunction issued by an Idaho District
Court that would have allowed the analogue of DocuSign for petition signatures. See
Little, et al. v. Reclaim Idaho, et al., No. 20A18, 2020 WL 4360897 (July 30, 2020),
per curiam. The Court explained that the state’s insistence on enforcing its normal
election protocols was “almost certainly justified by the important regulatory
interests in combating fraud” and ensuring grassroots support, so that “the State’s
established verification procedure is no empty formality.” Id. at *2. In fact, the Chief
Justice explained, the State would suffer “irreparable harm” if it were unable to
follow its ordinary real-signature verification procedure, “vindicating its sovereign
interest in the enforcement of initiative requirements that are likely consistent with

35
App. 184

the First Amendment.” Id. For the same reasons, the Plaintiffs have no special right
to avoid Montana’s rule of equal formality as between signatures and withdrawals.
d. The Secretary was not required to issue a public service
announcement regarding withdrawals or his certification of the
minor party petition.
The Secretary has no legal obligation to announce the performance of his
constitutionally mandated duties or provide the public a chance to comment on his
legal obligations. Although this issue was not pled by any party, the District Court
held that the Secretary’s decision to cut off withdrawals and certify the Green Party
petition was not appropriate because the Secretary failed to provide notice and an
opportunity to be heard prior to these decisions. (IA355, COL ¶¶ 21-31). But neither
the constitution nor statutory authority requires such notice or an opportunity to be
heard.
Sections 8 and 9 of the Montana Constitution are not applicable. The Montana
Supreme Court considered and explained the effect of both provisions in its 2002
decision in Bryan v. Yellowstone Cnty. Elem. Sch. Dist. No. 2, 312 Mont. 257, 60
P.3d 381 (2002):
What is intended by Section 8 is that any rules and regulations that shall
be made and formulated and announced by any governmental agency,
which of course are going to affect the citizens of this state and the
common welfare, shall not be made until some notice is given so that the
citizen will have a reasonable opportunity to participate with respect to his
opinion, either for or against that particular administrative action.

36
App. 185

Id. The rulemaking process is the central focus of Section 8. It is geared toward those
“miniature legislatures who put together rules and regulations that affect us all.” SJL
of Mont. Assoc’s. Ltd. Part. v. City of Billings, 263 Mont. 142, 148, 867 P.2d 1084
(1993).
Here, the Secretary was not exercising his rulemaking authority when he
carried out his constitutional mandate to certify the minor party petition or when he
determined that controlling precedent from this Court required him to stop accepting
signature withdrawals after his final act (i.e., when the petition was certified).7 An
internal memorandum was introduced at trial evidencing the fact that the Secretary’s
determination as to the cut-off date for withdrawals was not based on some
internally-set deadline. Rather, the Secretary relied on legal counsel who determined
that this Court’s longstanding rule – from Ford, O’Connell, and earlier opinions –
that the common law right to withdraw ends when an official performs the final
action on a petition (i.e., when the Secretary certified that the petition satisfied all
statutory requirements). Because there was no rulemaking process, the public was
not deprived of any right to participate.

7

Similarly, the Montana Administrative Procedure Act is unavailing. The MAPA is simply
a codification of constitutional sections 8 and 9. It was adopted to ensure notice and an opportunity
to participate is provided in regards to agency rulemaking. M.C.A. § 2-4-101(2). Therefore, for
the same reasons sections 8 and 9 are inapplicable, so is the MAPA.

37
App. 186

Further, Section 9 encompasses “the right to examine documents and the right
to observe the deliberations of public bodies or agencies.” Id. at 267. Plaintiffs were
not refused documents or the right to observe any deliberations of public bodies or
agencies. Therefore, Section 9 is simply inapplicable.
Moreover, under M.C.A. § 2-3-114, any alleged violations of Sections 8 or 9
must be brought “within 30 days of the date of the [relevant] decision.” Id. at 275;
Allen v. Lakeside Neighborhood Planning Comm., 371 Mont. 310, 319, 308 P.3d
956 (2013); Willems v. State, 374 Mont. 343, 348, 325 P.3d 1204 (2014). The
Secretary’s March 3, 2020, memo confirmed the Secretary would not accept
withdrawals after certification. The Secretary emailed all county election officials
on that same day, indicating that they should only process withdrawal forms up until
the petition is certified. Further, Plaintiff Neumeyer testified that in March 2020 she
was turned away from the Lewis & Clark County elections office because it was too
late to withdraw; she reported this to the MDP, and the MDP sent her a DocuSign
form to submit instead. Other evidence presented by Plaintiffs shows that they were
aware of this “policy” no later than April 13, 2020. An email from the Yellowstone
County Election Administrator sent to Trent Bolger indicated on April 13, 2020, that
the deadline for filing withdrawals had passed. Therefore, when Plaintiffs filed their
petition on June 1, 2020, the deadline for submitting a constitutional claim under
Sections 8 and 9, if any such claim ever existed, had long passed.
38
App. 187

More fundamentally, though, the Court must consider that, as shown below,
the withdrawal deadline and formality-of-withdrawal rules not only define the limits
of dissenting signers’ right to withdraw, they also protect the First Amendment
effective-association rights of petition proponents, signers, and the affected
candidates and voters. If a procedural default by the Secretary in failing to provide
immediate “notice” regarding deadlines or withdrawal formalities in this particular
election year obliterates the rules that fix the competing rights of petition loyalists
and petition dissenters, then one group gains at the expense of the other. An alleged
failure of “notice” cannot become the means for eviscerating loyalists’ First
Amendment rights to effective association.
Nor should any after-the-fact rewrite of the rules be necessary. Here, all
parties had the same information at the same time: the Secretary’s public election
calendar. The proponents themselves, viewing that calendar and knowing the law,
had no reason to predict that the MDP might be allowed to continue its withdrawal
campaign for months after the certification date.
A signer wanting to withdraw would have the same notice: the Secretary’s
public calendar. It clearly showed the deadlines for turning in petitions (March 2 to
the clerks and March 9 to the Secretary), and those would have been very close to
the expected decision date that, under controlling law, set the withdrawal deadline.
This aside, other fast-approaching dates should have counseled that a three-month
39
App. 188

withdrawal campaign was unreasonable: March 19, for certifying candidates for the
primary ballots; the need to design and print those ballots quickly; April 17, for
mailing them overseas; and even May 8, for mailing out all of the mail-in primary
ballots. No PSA was required to inform voters (or a well-counseled major party
campaign geared to engage those voters and with access to controlling caselaw) that
a withdrawal campaign could simply blow through each of these deadlines.
VI.

CONCLUSION

For the foregoing reasons, this Court should reverse the District Court’s grant
of declaratory and injunctive relief and allow the Montana Green Party to remain on
the general election ballot.

Dated this 12th day of August, 2020.

/s/
Chris J. Gallus
Attorney for Amicus Curiae
Campbell and Loven

40
App. 189

CERTIFICATE OF COMPLIANCE
Pursuant to Mont. R. App. P. 11(4)(e), I certify that this Opening Brief is
printed with proportionately-spaced, size 14 Times New Roman font, is doublespaced, and does not exceed 10,000 words, excluding the cover page, certificate of
service, and certificate of compliance, and table of contents as calculated by
Microsoft Word.
Dated this 12th day of August, 2020.
/s/
Chris J. Gallus
Attorney for Amicus Curiae
Campbell and Loven

41
App. 190

CERTIFICATE OF SERVICE
I certify that a true and accurate copy of the foregoing document was served
on each attorney of record by e-service on August 12, 2020:
Peter Michael Meloy
MELOY LAW FIRM
P.O. Box 1241
Helena, MT 59624
Ph. : (406) 442-8670
Email : Mike@meloylawfirm.com
Matthew Gordon
PERKINS COIE LLP
1201 Third Ave., Suite 4900
Seattle, WA 98101
Ph.: (206) 359-8000
Email: mgordon@perkinscoie.com

Anita Y. Milanovich
MILANOVICH LAW, PLLC
100 E Broadway St.
The Berkeley Room
Butte, Montana 59701
Ph.: 406/589-6856
aymilanovich@milanovichlaw.com

Counsel for Appellees
Austin James
Secretary of State’s Office
P.O. Box 202801
Helena, MT 59620-2801
Austin.james@mt.gov

Emily Jones
Talia G. Damrow
JONES LAW FIRM, PLLC
2101 Broadwater Ave.
Billings, MT 59104
Ph.: 406/384-7990
emily@joneslawmt.com
talia@joneslawmt.com

Matthew T. Meade
Smith Oblander & Meade, PC
P.O. Box 2685
Great Falls, MT 59403-2685

Counsel for Amicus the Montana
Republican Party

Counsel for Appellant Secretary of
State
/s/
Chris J. Gallus
Attorney for Amicus Curiae
Campbell and Loven
42
App. 191

CERTIFICATE OF SERVICE
I, Chris J. Gallus, hereby certify that I have served true and accurate copies of the foregoing
Brief - Intervenor to the following on 08-12-2020:
Matthew Prairie Gordon (Attorney)
1201 Third Ave
Seattle WA 98101
Representing: Montana Democratic Party, Taylor Blossom, Ryan Filz, Madeleine Neumeyer, Rebecca
Weed
Service Method: eService
Peter M. Meloy (Attorney)
2601 E. Broadway
2601 E. Broadway, P.O. Box 1241
Helena MT 59624
Representing: Montana Democratic Party, Taylor Blossom, Ryan Filz, Madeleine Neumeyer, Rebecca
Weed
Service Method: eService
Anita Yvonne Milanovich (Attorney)
100 E Broadway Street, The Berkeley Room
Butte MT 59701
Representing: Montana Republican Party
Service Method: eService
Emily Jones (Attorney)
2101 Broadwater Avenue
P.O. Box 22537
Billings MT 59104
Representing: Montana Republican Party
Service Method: eService
Austin Markus James (Attorney)
Post Office Box 202801
Helena MT 59620-280
Representing: Corey Stapleton
Service Method: eService
Matthew Thomas Meade (Attorney)
104 2nd ST S, Ste 400

App. 192

Great Falls MT 59401
Representing: Corey Stapleton
Service Method: eService

Electronically Signed By: Chris J. Gallus
Dated: 08-12-2020

App. 193

Edward D. Greim (pro hac pending)
GRAVES GARRETT, LLC
1100 Main Street, Suite 2700
Kansas City, Missouri 64105
Tel.: (816) 256-3181
Fax: (816) 222-0534
edgreim@gravesgarrett.com
Chris J. Gallus
GALLUS LAW
1423 Otter Rd.
Helena, Montana 59602
Tel.: (406) 459-8676
chrisjgalluslaw@gmail.com
IN THE MONTANA FIRST JUDICIAL DISTRICT COURT
LEWIS AND CLARK COUNTY
MONTANA DEMOCRATIC PARTY

)
)
And
)
)
TAYLOR BLOSSOM, RYAN FILZ,
)
MADELEINE NEUMEYER, and REBECCA
)
WEED, individual electors,
)
)
Plaintiffs,
)
)
v.
)
)
STATE OF MONTANA, by and through its
)
SECRETARY OF STATE COREY STAPLETON, )
)
Defendant,
)
)
LORRIE CORETTE CAMPBELL and
)
JILL LOVEN,
)
)
)
Intervenors-Defendants.
)
)

Case No. CDV-2020-856

Motion to Intervene by
Petition Signers

1
App. 194

COME NOW Lorrie Corette Campbell and Jill Loven (collectively the “proposed
intervenors” or the “petition signers”), by and through counsel, and hereby move the Court to allow
them to intervene as defendants in this action pursuant to Montana Rule of Civil Procedure 24.
1.

Plaintiffs filed this action on June 1, 2020.

2.

Rule 24(a) of the Montana Rules of Civil Procedure allows anyone to timely

intervene as a right who “is given an unconditional right to intervene by state,” or who “claims an
interest relating to the property or transaction which is the subject of the action, and is so situated
that disposing of the action may as a practical matter impair or impede the movant’s ability to
protect its interest, unless the existing parties adequately represent that interest.”
3.

As laid out more fully in the accompanying brief, the petition signers meet these

intervention criteria. Petition signers—as the name implies—signed the petition to place the
Montana Green Party on the primary ballot and Plaintiffs seek to invalidate the signature petition.
As such, the petition signers have an “interest which would be affected by the declaration” sought
by Plaintiffs and, therefore, the petition signers are a necessary party to participate in these
proceedings. Section 27-8-301; Mont. R. Civ. P. 24(a)(1).
4.

Moreover, the petition signers have timely filed this motion to intervene, they have

an interest in the validity of the signature petition, their ability to protect their interests would be
impaired if left out of this matter, and no current party adequately represents their interests.
Therefore, intervention is necessary. Mont. R. Civ. P. 24(a)(2).
5.

This motion is timely as this litigation is at the opening pleading stage, motions to

dismiss remain, no substantive motions have been filed, no discovery has occurred, no substantive
hearings have transpired, and no scheduling order has been entered.
6.

The petition signers attach hereto their proposed Answer.

2
App. 195

7.

The petition signors agree with the proposed intervenor Republic Party’s proposed

scheduling order.
8.

The petition signers have conferred with counsel of record. Plaintiffs did not

respond to the communications, and Defendant does not oppose the Motion.
WHEREFORE, the petition signers respectfully move this Court to grant their Motion to
Intervene.

Dated: July 2, 2020.

Respectfully submitted,
Edward D. Greim (pro hac pending)
GRAVES GARRETT, LLC
1100 Main Street, Suite 2700
Kansas City, Missouri 64105
Tel.: (816) 256-3181
Fax: (816) 817-0863
edgreim@gravesgarrett.com
Chris J. Gallus
GALLUS LAW
1423 Otter Rd.
Helena, Montana 59602
Tel.: (406) 459-8676
chrisjgalluslaw@gmail.com

3
App. 196

Certificate of Service
I hereby certify that a true and correct copy of the foregoing document was served on the
following counsel of record in this matter on July 2, 2020 as follows:
Peter Michael Meloy
MELOY LAW FIRM
P.O. Box 1241
Helena, MT 59624
Ph.: (406) 442-8670
mike@meloylawfirm.com

Anita Y. Milanovich
MILANOVICH LAW, PLLC
100 E Broadway St.
The Berkeley Room
Butte, Montana 59701
Ph.: (406) 589-6856
aymilanovich@milanovichlaw.com

Matthew Gordon
PERKINS COIE LLP
1201 Third Ave., Suite 4900
Seattle, WA 98101
Ph.: (206) 359-8000
mgordon@perkinscoie.com

Emily Jones
Talia G. Damrow
JONES LAW FIRM, PLLC
2101 Broadwater Ave.
Billings, MT 59104
Ph.: (406) 384-7990
emily@joneslawmt.com
talia@joneslawmt.com

Counsel for Plaintiffs
Austin James
Chief Legal Counsel
Secretary of State’s Office
P.O. Box 202801
Helena, MT 59620-2801
Ph.: (406) 444-2034
Austin.james@mt.gov

Counsel for Proposed Intevenor MTGOP

Matthew T. Meade
Smith Oblander & Meade, PC
P.O. Box 2685
Great Falls, MT 59403-2685
Ph.: (406) 453-8144
matt@bigskylaw.com
Counsel for Defendant
/s/ Christopher Gallus

4
App. 197

Edward D. Greim (pro hac pending)
GRAVES GARRETT, LLC
1100 Main Street, Suite 2700
Kansas City, Missouri 64105
Tel.: (816) 256-3181
Fax: (816) 222-0534
edgreim@gravesgarrett.com
Chris J. Gallus
GALLUS LAW
1423 Otter Rd.
Helena, Montana 59602
Tel.: (406) 459-8676
chrisjgalluslaw@gmail.com
IN THE MONTANA FIRST JUDICIAL DISTRICT COURT
LEWIS AND CLARK COUNTY
MONTANA DEMOCRATIC PARTY

)
)
And
)
)
TAYLOR BLOSSOM, RYAN FILZ,
)
MADELEINE NEUMEYER, and REBECCA
)
WEED, individual electors,
)
)
Plaintiffs,
)
)
v.
)
)
STATE OF MONTANA, by and through its
)
SECRETARY OF STATE COREY STAPLETON, )
)
Defendant,
)
)
LORRIE CORETTE CAMPBELL and
)
JILL LOVEN,
)
)
Intervenors-Defendants.
)
)

Case No. CDV-2020-856

Brief Supporting Petition Signers’
Motion to Intervene

1

App. 198

Petition Signers Lorrie Corette Campbell and Jill Loven (collectively the “proposed
intervenors” or the “petition signers”), by and through counsel, hereby submit the following
statements in support of their Motion to Intervene.
FACTUAL AND PROCEDURAL BACKGROUND
1.

On March 2, 2020, circulators submitted a Political Party Qualification Petition to

the Secretary of State pursuant Mont. Code Ann. § 13-10-601 (2017). The petition’s stated intent
was to qualify the Montana Green Party to hold a primary election.
2.

On March 6, 2020, the Secretary certified the petition, thereby permitting the

Montana Green Party to participate in the 2020 primary election.
3.

The Secretary’s certification declared the petition conformed with Section 13-10-

4.

The Montana primaries were held on June 2, 2020.

5.

The primary results were certified on June 26, 2020.

6.

On June 1, 2020, the day before the Green Party held its primary, Plaintiffs filed

601.

the present litigation, seeking to invalidate the Secretary’s certification of the petition that allowed
the Green Party to hold its primary election.
7.

The only named Defendant in Plaintiff’s suit is the Montana Secretary of State.

8.

The proposed intervenors are registered Montana voters who signed the petition to

allow the Montana Green Party to hold a primary election (Campbell Declaration attached as
Exhibit A; Loven Declaration attached as Exhibit B).
9.

Intervenor Campbell is a longtime and continuing supporter of the Plaintiff

Montana Democratic Party (“MDP”). She signed the petition because she believes the Green Party
2

App. 199

deserves to be on the ballot. She believes the Green Party should be on the ballot even if the
leadership of the MDP or other MDP supporters calculate that the Green Party’s participation will
cause the MDP to spend more money to convince voters to support MDP’s candidate in the general
election. She is disappointed and angry that the MDP opposes and has spent substantial resources
to block the Green Party’s access to the ballot and negate the effect of her own petition signature.
10.

Intervenor Campbell does not in any way, shape or form support the Montana

Republican Party. However, the Montana Republican Party’s support for the Greens’ ballot access
does not affect or change her views on the merits of the petition.
11.

Intervenor Loven is a supporter of the Montana Republican Party. She signed the

petition because she believes the Green Party deserves to be on the ballot. She is disappointed and
angry that the MDP opposes and has spent substantial resources to block the Green Party’s access
to the ballot and negate the effect of her own petition signature. She is deeply disappointed and
completely disagrees with the MDP’s legal insinuation that she acted improperly in signing the
petition.
12.

Intervenor Loven does not support the MDP. The fact that some MDP members

support the Green Party and its access to the ballot, however, does not affect or change her views
on the merits of the petition.
13.

The proposed intervenors’ signatures were counted as valid.

14.

The MDP contacted many of the petition signers through phone calls and texts in

an attempt to convince them to withdraw their signatures from the petition. These contacts were
harassing.

3

App. 200

15.

Intervenor Loven received a text message from someone who identified himself as

“Max” with the Montana Democratic Party. The message was received at 10:24 a.m. on February
29, 2020. “Max” claimed that Loven signed a “phony petition” circulated by “Republicans” and
asked her to withdraw her signature. Loven denied this invitation.
16.

The proposed intervenors have not attempted to withdraw their signatures.

17.

The proposed intervenors are proponents of the petition and have an interest in

ensuring their signatures are counted, as well as those of their fellow petition signers.
18.

As proponents of the petition, the proposed intervenors also have an interest in

protecting the Secretary’s certification of the petition and ensuring the Montana Green Party
remains on the election ballot.
19.

Attached to the Motion to Intervene is the proposed Answer of the petition signers

(Exhibit C).
ARGUMENT AND AUTHORITIES
I.

The petition signers should be allowed to intervene as a right, pursuant to Rule
24(a).

Rule 24(a) states that, on timely motion, the court must permit anyone to intervene who:
“claims an interest relating to the property or transaction which is the subject of the action, and is
so situated that disposing of the action may as a practical matter impair or impede the movant’s
ability to protect its interest, unless the existing parties adequately represent that interest.” In other
words, to qualify for intervention under Rule 24(a), an “application for intervention must: (1) be
timely; (2) show an interest in the subject matter of the action; (3) show that the protection of the
interest may be impaired by the disposition of the action; and (4) show that the interest is not

4

App. 201

adequately represented by an existing party. JAS, Inc. v. Eisele, 374 Mont. 312, 318, 321 P.3d 113
(MT 2014).
A. The motion to intervene is timely.
The present motion was timely filed. “Timeliness is determined from the particular
circumstances surrounding the action.” Estate of Schwenke v. Becktold, 252 Mont. 127, 131, 827
P.2d 808 (1992). In Estate of Schwenke, the Montana Supreme Court found a motion to intervene
was untimely when it was filed (1) fifteen months after the suit was initiated, (2) at least 12 months
had passed since the proposed intervenors were made aware of the suit, and (3) trial was in one
week. Id. at 132. Allowing intervention in such a situation would create unduly delays—the
prevention of which is the central focus of Montana precedent. In Connell v. State Dept. of Soc. &
Rehab. Servs., the Montana Supreme Court found that intervention had been properly denied in
three different situations: (1) when filed 16 months after the original action was filed; (2) when 2.5
months had passed since the proposed intervenors received actual notice of the original action; and
(3) when 3 years had passed since the original action was filed. 319 Mont. 69, 74, 81 P.3d 1279
(2003).
The present suit is materially different than the above situations because this suit remains
in its infancy. Here, Defendant’s initial responsive pleading (a motion to dismiss) remains
outstanding and discovery has yet to commence. Besides the filing of initial pleadings, little has
occurred in the case. Moreover, the petition signers only recently learned of this suit, because it
has surprisingly received little media attention. The petition signers have, therefore, not sat on their
rights. Thus, intervention is proper at this stage of the proceedings.

5

App. 202

B. The petition signers have an adequate interest in this suit.
To satisfy the second prong of intervention as a matter of right, the proposed intervenors
are required to make a “prima facie showing of a direct, substantial, legally protectable interest in
the proceedings.” Sportsmen for I-143 v. Mont. Fifteenth Jud. Dist. Court, 308 Mont. 189, 193, 40
P.3d 400 (2002) (internal quotations omitted). In Sportsmen, the Montana Supreme Court held that
a group that had actively sponsored and supported a measure whose constitutionality was being
litigated had an adequate interest in the litigation and intervention was proper. Id. Moreover, in
Devoe v. State, the court considered a challenge by a landowner asserting the state’s easement on
the land had been abandoned and was no longer valid. 281 Mont. 356, 359-60, 935 P.2d 256
(1997). The court permitted the city to intervene because it had a legitimate interest in preserving
its right to use the land for highway purposes. Id. at 363.
Here, signers have a legitimate and cognizable interest in this litigation because the
litigation directly involves the validity of the petition to allow the Green Party to participate in the
state’s primary elections. The proposed intervenors signed the petition because they wanted the
Green Party to have the opportunity to participate in the primary elections and their interest
remains to this day—they have an interest in ensuring the Green Party remains on the ballot. The
petition signers are, therefore, entitled to intervene and ensure their signatures are counted and
ensure the certified petition is not invalidated.
C. The petition signers’ interests will be impaired if they are not permitted to
intervene.
The Court’s denial of this motion to intervene will invariably impair the proposed
intervenors’ interests. Plaintiffs seek to invalidate the signature petition that the proposed
intervenors signed and seek to exclude the Green Party from the election ballot. These are the exact
6

App. 203

interests the proposed intervenors have supported and continue to support. If this Court invalidates
the signature petition, the intervenors will have no other recourse to preserve their interests.
D. No existing party adequately represents the petition signers’ interests.
The petition signers’ interests are not adequately represented by an existing party. The
Plaintiffs certainly do not represent, in any sense, the petition signers’ interests in upholding the
Green Party’s ability to appear on the ballot. Just the opposite; it is the very reason (prohibiting
the Green Party from appearing on the ballot) that Plaintiffs have brought this action. While the
Defendant Secretary has a related interest, the Secretary does not adequately represent the petition
signers in this case. The Secretary has an interest in maintaining orderly election processes;
however, the petition signers have an express interest in ensuring their signatures are counted and
ensuring the Green Party is able to participate in the election process—interests not in line with
the Secretary. The ultimate outcome (whether the Green Party appears on the election ballot) is a
political result that is beyond the interest of the Defendant Secretary. Hence, the Defendant
Secretary does not adequately represent the petition signers’ interests in this case. Therefore, the
petition signers’ interests are not adequately represented by an existing party.
The petition signers should be allowed to intervene pursuant to Rule 24(a). The motion is
timely, and the petition signers have an interest in the subject matter of this litigation. Moreover,
the petition signers have shown that the protection of their interests may be impaired by the
disposition of this action, and the petition signers have shown that their interests are not adequately
represented by an existing party in this action. The Court should, therefore, grant the Motion to
Intervene.

7

App. 204

II.

Alternatively, the petition signers should be allowed to intervene permissively,
pursuant to Rule 24(b).

Rule 24(b) controls when a court may grant intervention permissively. It states: "On timely
motion, the court may permit anyone to intervene who: ... (B) has a claim or defense that shares
with the main action a common question of law or fact." M.R.Civ.P. 24(b)(1)(B) (2017). "In
exercising its discretion, the court must consider whether the intervention will unduly delay or
prejudice the adjudication of the original parties' rights." Rule 24(b)(3). As with Rule 24(a), Rule
24(b) requires that a motion to intervene permissively must be timely. Estate of Schwenke, 252
Mont. at 133.
Here, the proposed intervenors claim the signature petition is valid and contained sufficient
signatures, directly related to Plaintiffs’ first claim. Moreover, in Plaintiffs’ second claim,
Plaintiffs maintain their constitutional rights will be impaired if forced to associate with the
signature petition—that is, with the intervenors. In reality, the proposed intervenors’ First
Amendment right to association will be impaired if Plaintiffs permissive theory of signature
withdrawals is accepted. Plaintiffs’ proposal will create a moving target that imposes significant
burdens upon backers of a minority party who choose to associate for ballot access. These claims
and defenses are directly related to the current litigation and the resolution of these claims involve
common questions of law or fact.
Permissive intervention is proper because, as stated above, this motion to intervene was
timely filed. This suit remains in its infancy, Defendant’s responsive motion remains to be
determined, no discovery has commenced, and the proposed intervenors only recently learned of
this litigation. Moreover, no prejudice will befall the existing parties by granting this motion to
intervene and permitting interested stakeholders from joining the litigation. Litigation works best
8

App. 205

when all interested parties are involved (and is required by Section 27-8-301 in order to grant
Plaintiff’s request for declaratory relief). On the other hand, the proposed intervenors will be
significantly prejudiced if they are denied intervention and are unable to present their unique legal
arguments in this litigation. There will be no subsequent opportunity for the proposed intervenors
to defend their rights or assert their claims.
CONCLUSION
For the reasons set forth above, the Court should grant the petition signers’ Motion to
Intervene under Rule 24(a) or, alternatively, under Rule 24(b).

Dated: July 2, 2020

Respectfully submitted,
Edward D. Greim (pro hac pending)
GRAVES GARRETT, LLC
1100 Main Street, Suite 2700
Kansas City, Missouri 64105
Tel.: (816) 256-3181
Fax: (816) 817-0863
edgreim@gravesgarrett.com
Chris J. Gallus
GALLUS LAW
1423 Otter Rd.
Helena, Montana 59602
Tel.: (406) 459-8676
chrisjgalluslaw@gmail.com

9

App. 206

Certificate of Service
I hereby certify that a true and correct copy of the foregoing document was served on the
following counsel of record in this matter on July 2, 2020 as follows:
Anita Y. Milanovich
MILANOVICH LAW, PLLC
100 E Broadway St.
The Berkeley Room
Butte, Montana 59701
Ph.: (406) 589-6856
aymilanovich@milanovichlaw.com

Peter Michael Meloy
MELOY LAW FIRM
P.O. Box 1241
Helena, MT 59624
Ph.: (406) 442-8670
mike@meloylawfirm.com
Matthew Gordon
PERKINS COIE LLP
1201 Third Ave., Suite 4900
Seattle, WA 98101
Ph.: (206) 359-8000
mgordon@perkinscoie.com

Emily Jones
Talia G. Damrow
JONES LAW FIRM, PLLC
2101 Broadwater Ave.
Billings, MT 59104
Ph.: (406) 384-7990
emily@joneslawmt.com
talia@joneslawmt.com

Counsel for Plaintiffs
Austin James
Chief Legal Counsel
Secretary of State’s Office
P.O. Box 202801
Helena, MT 59620-2801
Ph.: (406) 444-2034
Austin.james@mt.gov

Counsel for Proposed Intevenor MTGOP

Matthew T. Meade
Smith Oblander & Meade, PC
P.O. Box 2685
Great Falls, MT 59403-2685
Ph.: (406) 453-8144
matt@bigskylaw.com
Counsel for Defendant
/s/ Christopher Gallus

10

App. 207

Exhibit
A
App.
208

App. 209

Exhibit B
App. 210

Exhibit B
App. 211

Exhibit B
App. 212

Edward D. Greim (pro hac pending)
GRAVES GARRETT, LLC
1100 Main Street, Suite 2700
Kansas City, Missouri 64105
Tel.: (816) 256-3181
Fax: (816) 222-0534
edgreim@gravesgarrett.com
Chris J. Gallus
GALLUS LAW
1423 Otter Rd.
Helena, Montana 59602
Tel.: (406) 459-8676
chrisjgalluslaw@gmail.com
IN THE MONTANA FIRST JUDICIAL DISTRICT COURT
LEWIS AND CLARK COUNTY
MONTANA DEMOCRATIC PARTY

)
)
And
)
)
TAYLOR BLOSSOM, RYAN FILZ,
)
MADELEINE NEUMEYER, and REBECCA
)
WEED, individual electors,
)
)
Plaintiffs,
)
)
v.
)
)
STATE OF MONTANA, by and through its
)
SECRETARY OF STATE COREY STAPLETON, )
)
Defendant,
)
)
LORRIE CORETTE CAMPBELL and
)
JILL LOVEN,
)
)
Intervenors-Defendants.
)
)

Case No. CDV-2020-856
Intervenors’ Answer to
Plaintiffs’ Complaint for
Declaratory and Injunctive
Relief

INTRODUCTION
1.

Intervenors admit hundreds of Montana voters signed a petition to place Montana

Green Party candidates on the primary election ballot. Intervenors are without sufficient
1
Exhibit
C
App.
213

knowledge or information to form a belief as to the truth of the remaining allegations in Paragraph
1, and Intervenors thereby deny the allegations.
2.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 2, and Intervenors thereby deny the allegations.
3.

Intervenors admit certain petition signers submitted signature withdrawals after

signing the petition to place Montana Green Party candidates on the primary election ballot. The
remaining allegations are largely legal conclusions that do not require a response. To the extent
Paragraph 3 includes any additional allegations of fact, Intervenors are without sufficient
knowledge or information to form a belief as to the truth of the remaining allegations, and
Intervenors thereby deny the allegations.
4.

Intervenors admit the Secretary of State did not remove the Montana Green Party

from the primary election ballot and the Montana Green Party remains eligible for placement on
the general election ballot. The remaining allegations are largely legal conclusions that do not
require a response. To the extent Paragraph 4 includes any additional allegations of fact,
Intervenors are without sufficient knowledge or information to form a belief as to the truth of the
remaining allegations, and Intervenors thereby deny the allegations.
5.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 5, and Intervenors thereby deny the allegations.
6.

Paragraph 6 is largely comprised of legal conclusions to which a response is not

required. To the extent Paragraph 6 contains any allegations of fact, Intervenors are without
sufficient knowledge or information to form a belief as to the truth of the allegations, and
Intervenors thereby deny the allegations.

2
App. 214

7.

Intervenors admit that the Montana courts issued an opinion in 2018 regarding

candidates of the Montana Green Party’s right to be placed on the primary election ballot. The
Court ultimately determined that a sufficient number of the petition signatures were not valid and
the petition failed to satisfy the statutory requirements to place the Montana Green Party’s
candidates on the primary election ballot. To the extent any factual allegations remain in Paragraph
7, Intervenors are without sufficient knowledge or information to form a belief as to the truth of
the allegations, and Intervenors thereby deny the allegations.
8.

Intervenors maintain that Plaintiffs’ Complaint speaks for itself. Plaintiffs present

no factual allegations in Paragraph 8. To the extent Paragraph 8 is interpreted to include any factual
allegations, Intervenors are without sufficient knowledge or information to form a belief as to the
truth of the allegations, and Intervenors thereby deny the allegations.
9.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 9, and Intervenors thereby deny the allegations.
FACTUAL BACKGROUND
I.

Intervenors are without sufficient knowledge or information to form a belief as to
the truth of the allegations in Heading I, and Intervenors thereby deny the
allegations.
10.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 10, and Intervenors thereby deny the allegations.
11.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 11, and Intervenors thereby deny the allegations.
12.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 12, and Intervenors thereby deny the allegations.

3
App. 215

13.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 13, and Intervenors thereby deny the allegations.
14.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 14, and Intervenors thereby deny the allegations.
15.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 15, and Intervenors thereby deny the allegations.
16.

Intervenors maintain that the Montana Green Party’s statement posted to its

Facebook account speaks for itself. Plaintiffs present no factual allegations in Paragraph 16. To
the extent Paragraph 16 is interpreted to include any factual allegations, Intervenors are without
sufficient knowledge or information to form a belief as to the truth of the allegations, and
Intervenors thereby deny the allegations.
17.

Intervenors maintain that the news article cited by Plaintiffs speaks for itself. To

the extent Paragraph 17 contains any additional factual allegations, Intervenors are without
sufficient knowledge or information to form a belief as to the truth of the remaining allegations,
and Intervenors thereby deny the allegations.
18.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 18, and Intervenors thereby deny the allegations.
19.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 19, and Intervenors thereby deny the allegations.
20.

Intervenors maintain that the news article cited by Plaintiffs speaks for itself. To

the extent Paragraph 20 contains any additional factual allegations, Intervenors are without
sufficient knowledge or information to form a belief as to the truth of the remaining allegations,
and Intervenors thereby deny the allegations.

4
App. 216

21.

Intervenors admit Senate Bill 363 (codified at Section 13-37-601) was passed

during the 2019 legislative session. Intervenors maintain that this legislation speaks for itself. To
the extent Paragraph 21 contains any additional factual allegations, Intervenors are without
sufficient knowledge or information to form a belief as to the truth of the remaining allegations,
and Intervenors thereby deny the allegations.
II.

The referenced court opinions and legislative bills speak for themselves. To the
extent Heading II contains any factual allegations, Plaintiff is without sufficient
knowledge or information to form a belief as to the truth of the remaining
allegations, and Intervenors thereby deny the allegations.
22.

The court’s opinion in Larson v. State, 394 Mont. 167, 434 P.3d 241 (2019) speaks

for itself. To the extent Paragraph 22 contains any factual allegations, Intervenors are without
sufficient knowledge or information to form a belief as to the truth of the remaining allegations,
and Intervenors thereby deny the allegations.
23.

The court’s opinion in Larson v. State, 394 Mont. 167, 434 P.3d 241 (2019) speaks

for itself. To the extent Paragraph 23 contains any factual allegations, Intervenors are without
sufficient knowledge or information to form a belief as to the truth of the remaining allegations,
and Intervenors thereby deny the allegations.
24.

The court’s opinion in Larson v. State, 394 Mont. 167, 434 P.3d 241 (2019) speaks

for itself. To the extent Paragraph 24 contains any factual allegations, Intervenors are without
sufficient knowledge or information to form a belief as to the truth of the remaining allegations,
and Intervenors thereby deny the allegations.
25.

The court’s opinion in Larson v. State, 394 Mont. 167, 434 P.3d 241 (2019) speaks

for itself. To the extent Paragraph 25 contains any factual allegations, Intervenors are without

5
App. 217

sufficient knowledge or information to form a belief as to the truth of the remaining allegations,
and Intervenors thereby deny the allegations.
26.

The court’s opinion in Larson v. State, 394 Mont. 167, 434 P.3d 241 (2019) speaks

for itself. To the extent Paragraph 26 contains any factual allegations, Intervenors are without
sufficient knowledge or information to form a belief as to the truth of the remaining allegations,
and Intervenors thereby deny the allegations.
27.

The court’s opinion in Larson v. State, 394 Mont. 167, 434 P.3d 241 (2019) speaks

for itself. To the extent Paragraph 27 contains any factual allegations, Intervenors are without
sufficient knowledge or information to form a belief as to the truth of the remaining allegations,
and Intervenors thereby deny the allegations.
III.

The referenced legislative bills speak for themselves. Heading III contains no
factual allegations.
28.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 28, and Intervenors thereby deny the allegations.
29.

The decision rendered by the Montana Commissioner of Political Practices in Mont.

Dem. Party v. Advan. Micro Targeting, No. 2018-CFP-004 speaks for itself. To the extent
Paragraph 29 contains any factual allegations, Intervenors are without sufficient knowledge or
information to form a belief as to the truth of the remaining allegations, and Intervenors thereby
deny the allegations.
30.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 30, and Intervenors thereby deny the allegations.
31.

Intervenors admit Senate Bill 363 was passed during the 2019 legislative session.

To the extent Paragraph 31 is interpreted to include any factual allegations, Intervenors are without

6
App. 218

sufficient knowledge or information to form a belief as to the truth of the allegations, and
Intervenors thereby deny the allegations.
32.

Intervenors admit Senate Bill 363 has been codified at Section 13-37-601. This

provision speaks for itself. To the extent Paragraph 32 is interpreted to include any factual
allegations, Intervenors are without sufficient knowledge or information to form a belief as to the
truth of the allegations, and Intervenors thereby deny the allegations.
33.

The hearing report cited in Paragraph 33 speaks for itself. Plaintiffs present no

factual allegations in Paragraph 33. To the extent Paragraph 33 is interpreted to include any factual
allegations, Intervenors are without sufficient knowledge or information to form a belief as to the
truth of the allegations, and Intervenors thereby deny the allegations.
34.

The hearing report cited in Paragraph 34 speaks for itself. Plaintiffs present no

factual allegations in Paragraph 34. To the extent Paragraph 34 is interpreted to include any factual
allegations, Intervenors are without sufficient knowledge or information to form a belief as to the
truth of the allegations, and Intervenors thereby deny the allegations.
35.

The hearing report cited in Paragraph 35 speaks for itself. Plaintiffs present no

factual allegations in Paragraph 35. To the extent Paragraph 35 is interpreted to include any factual
allegations, Intervenors are without sufficient knowledge or information to form a belief as to the
truth of the allegations, and Intervenors thereby deny the allegations.
36.

The statutory sections cited in Paragraph 36 speak for themselves. Plaintiffs present

no factual allegations in Paragraph 36. To the extent Paragraph 36 is interpreted to include any
factual allegations, Intervenors are without sufficient knowledge or information to form a belief as
to the truth of the allegations, and Intervenors thereby deny the allegations.

7
App. 219

37.

The statutory sections cited in Paragraph 37 speak for themselves. To the extent

Paragraph 37 contains any factual allegations, Intervenors are without sufficient knowledge or
information to form a belief as to the truth of the remaining allegations, and Intervenors thereby
deny the allegations.
IV.

Intervenors are without sufficient knowledge or information to form a belief as to
the truth of the allegations made in Heading IV, and Intervenors thereby deny the
allegations.
38.

Intervenors admit certain petition signers submitted signature withdrawals to

county election offices. Intervenors are without sufficient knowledge or information to form a
belief as to the truth of the remaining allegations in Paragraph 38, and Intervenors thereby deny
the allegations.
39.

Intervenors maintain that the referenced statutory provisions speak for themselves.

Paragraph 39 contains no factual allegations. To the extent Paragraph 39 is interpreted to include
any factual allegations, Intervenors are without sufficient knowledge or information to form a
belief as to the truth of the allegations, and Intervenors thereby deny the allegations.
40.

Intervenors maintain that the referenced statutory provisions speak for themselves.

Paragraph 40 contains no factual allegations. To the extent Paragraph 40 is interpreted to include
any factual allegations, Intervenors are without sufficient knowledge or information to form a
belief as to the truth of the allegations, and Intervenors thereby deny the allegations.
41.

Intervenors maintain that the referenced form speaks for itself. Paragraph 41

contains no factual allegations. To the extent Paragraph 41 is interpreted to include any factual
allegations, Intervenors are without sufficient knowledge or information to form a belief as to the
truth of the allegations, and Intervenors thereby deny the allegations.

8
App. 220

42.

Intervenors maintain that the referenced form speaks for itself. To the extent

Paragraph 42 is interpreted to include any factual allegations, Intervenors are without sufficient
knowledge or information to form a belief as to the truth of the allegations, and Intervenors thereby
deny the allegations.
43.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 43, and Intervenors thereby deny the allegations.
44.

Intervenors admit that petition signers were contacted by representatives for the

MDP attempting to convince Intervenors to withdraw their signatures from the petition.
Intervenors are without sufficient knowledge or information to form a belief as to the truth of the
remaining allegations in Paragraph 44, and Intervenors thereby deny the allegations. Further
answering, Intervenors state that for many signers, MDP’s repeated contacts via phone calls and
text messages were unwanted, unauthorized, and harassing.
45.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 45, and Intervenors thereby deny the allegations.
46.

Intervenors admit the allegations contained in Paragraph 46.

47.

Intervenors admit the Secretary certified the petition on March 6. Intervenors are

without sufficient knowledge or information to form a belief as to the truth of the remaining
allegations in Paragraph 47, and Intervenors thereby deny the allegations.
48.

Intervenors admit six candidates filed to run in the Montana Green Party primary

elections. The referenced Facebook post speaks for itself. To the extent Paragraph 48 is interpreted
to contain any further factual allegations, Intervenors are without sufficient knowledge or
information to form a belief as to the truth of the allegations, and Intervenors thereby deny the
allegations.

9
App. 221

49.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 49, and Intervenors thereby deny the allegations.
V.

Intervenors are without sufficient knowledge or information to form a belief as to
the truth of the allegations contained in Heading V, and Intervenors thereby deny
the same.
50.

Intervenors maintain the referenced news articles speak for themselves. To the

extent Paragraph 50 is interpreted to include any factual allegations, Intervenors are without
sufficient knowledge or information to form a belief as to the truth of the allegations, and
Intervenors thereby deny the allegations.
51.

Intervenors maintain the referenced news articles and federal campaign finance

filings speak for themselves. To the extent Paragraph 51 is interpreted to include any factual
allegations, Intervenors are without sufficient knowledge or information to form a belief as to the
truth of the allegations, and Intervenors thereby deny the allegations.
52.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 52, and Intervenors thereby deny the allegations.
53.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 53, and Intervenors thereby deny the allegations.
54.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 54, and Intervenors thereby deny the allegations.
55.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 55, and Intervenors thereby deny the allegations.
56.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 56, and Intervenors thereby deny the allegations.

10
App. 222

57.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 57, and Intervenors thereby deny the allegations.
58.

Intervenors admit that petition signers were contacted by representatives for the

MDP attempting to convince Intervenors to withdraw their signatures from the petition.
Intervenors are without sufficient knowledge or information to form a belief as to the truth of the
remaining allegations in Paragraph 58, and Intervenors thereby deny the allegations. Further
answering, Intervenors state that for many signers, MDP’s repeated contacts via phone calls and
text messages were unwanted, unauthorized, and harassing.
59.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 59, and Intervenors thereby deny the allegations.
60.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 60, and Intervenors thereby deny the allegations.
61.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 61, and Intervenors thereby deny the allegations.
62.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 62, and Intervenors thereby deny the allegations.
63.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 63, and Intervenors thereby deny the allegations.
VI.

Intervenors are without sufficient knowledge or information to form a belief as
to the truth of the allegations in Heading VI, and Intervenors thereby deny the
allegations.
64.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 64, and Intervenors thereby deny the allegations.

11
App. 223

65.

Denied.

66.

Intervenors maintain the referenced statutory section speaks for itself. To the extent

Paragraph 66 is interpreted to contain any factual allegations, Intervenors are without sufficient
knowledge or information to form a belief as to the truth of the remaining allegations, and
Intervenors thereby deny the allegations.
67.

Intervenors maintain the referenced statutory section speaks for itself. To the extent

Paragraph 67 is interpreted to contain any factual allegations, Intervenors are without sufficient
knowledge or information to form a belief as to the truth of the remaining allegations, and
Intervenors thereby deny the allegations.
68.

Denied.

69.

Denied.

70.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 70, and Intervenors thereby deny the allegations.
71.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 71, and Intervenors thereby deny the allegations.
72.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 72, and Intervenors thereby deny the allegations.
73.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 73, and Intervenors thereby deny the allegations.
74.

Denied.

12
App. 224

PARTIES
75.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 75, and Intervenors thereby deny the allegations.
76.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 76, and Intervenors thereby deny the allegations.
77.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 77, and Intervenors thereby deny the allegations.
78.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 78, and Intervenors thereby deny the allegations.
79.

Intervenors are without sufficient knowledge or information to form a belief as to

the truth of the allegations in Paragraph 79, and Intervenors thereby deny the allegations.
80.

Intervenors admit the allegations in Paragraph 80.
JURISDICTION AND VENUE

81.

Intervenors admit that the referenced statutes and cases grant Montana courts the

power to issue declaratory judgments, but deny that these Plaintiffs have standing to seek such
relief.
82.

Intervenors deny that these Plaintiffs have alleged an injury that can be remedied

by the relief they seek, and therefore deny that the Court has jurisdiction to hear their claims.
83.

Intervenors admit this venue is proper in this Court. The Intervenors deny the

remaining allegations of Paragraph 83.
COUNT I: DECLARATORY RELIEF
84.

Intervenors reallege and incorporate by reference all prior responses as though fully

set forth herein.

13
App. 225

85.

Intervenors admit that Plaintiffs seek declaratory relief.

86.

Intervenors admit the allegations in Paragraph 86.

87.

Intervenors deny the allegations in Paragraph 87.

88.

Intervenors maintain the referenced cases speak for themselves. Intervenors admit

that timely withdrawals filed before the final action occurs should be given effect, but deny that
Plaintiffs’ withdrawal requests, which were almost entirely received after the final action occurred,
should be given effect.
89.

Intervenors deny the allegations in Paragraph 89.

COUNT II: INFRINGMENT ON STATE CONSTITUTIONAL RIGHTS
90.

Intervenors reallege and incorporate by reference all prior responses as though fully

set forth herein.
91.

Intervenors maintain the referenced constitutional provisions speak for themselves

and deny any allegation that these provisions give the Plaintiffs or anyone else the right to
withdraw their petition signatures after the petition has been certified. To the contrary, the First
Amendment controls here, and prohibits the state from imposing undue burdens on those—like
Intervenors—who exercise their speech and association rights by signing a petition to achieve a
political goal such as the qualification of a party for the primary ballot.
92.

Intervenors maintain the referenced cases speak for themselves and deny any

allegation that these cases give the Plaintiffs or anyone else the right to withdraw their petition
signatures after the petition has been certified. To the contrary, the First Amendment controls here,
and prohibits the state from imposing undue burdens on those—like Intervenors—who exercise
their speech and association rights by signing a petition to achieve a political goal such as the
qualification of a party for the primary ballot. Allowing the MDP to sabotage the petition by

14
App. 226

pressuring hundreds of citizens to withdraw their signatures after the petition has been submitted
and certified would create an undue burden on the right to political association and speech via the
petition process. The right to petition, if a state grants it, also includes the right to effectively
petition. The petition process is impossible for proponents like Intervenors to use, however, if
opponents like the MDP can mount statewide withdrawal campaigns to pressure signers after
signature gathering ends and the petition is certified. Even if a right to withdraw is required by the
“right not to associate,” that right ends where it infringes upon the rights of proponents (like
Intervenors) to effectively exercise their own right to associate.
93.

Intervenors maintain the referenced cases speak for themselves. Paragraph 93

solely contains legal conclusion to which a response is not required. Further answering, they deny
any allegation that these cases give the Plaintiffs or anyone else the right to withdraw their petition
signatures after the petition has been certified. To the contrary, the First Amendment controls here,
and prohibits the state from imposing undue burdens on those—like Intervenors—who exercise
their speech and association rights by signing a petition to achieve a political goal such as the
qualification of a party for the primary ballot. Allowing the MDP to sabotage the petition by
pressuring hundreds of citizens to withdraw their signatures after the petition has been submitted
and certified would create an undue burden on the right to political association and speech via the
petition process. The right to petition, if a state grants it, also includes the right to effectively
petition. The petition process is impossible for proponents like Intervenors to use, however, if
opponents like the MDP can mount statewide withdrawal campaigns to pressure signers after
signature gathering ends and the petition is certified.
94.

Intervenors maintain the referenced cases speak for themselves. Further answering,

they deny any allegation that these cases give the Plaintiffs or anyone else the right to withdraw

15
App. 227

their petition signatures after the petition has been certified. To the contrary, the First Amendment
controls here, and prohibits the state from imposing undue burdens on those—like Intervenors—
who exercise their speech and association rights by signing a petition to achieve a political goal
such as the qualification of a party for the primary ballot. Allowing the MDP to sabotage the
petition by pressuring hundreds of citizens to withdraw their signatures after the petition has been
submitted and certified would create an undue burden on the right to political association and
speech via the petition process. The right to petition, if a state grants it, also includes the right to
effectively petition. The petition process is impossible for proponents like Intervenors to use,
however, if opponents like the MDP can mount statewide withdrawal campaigns to pressure
signers after signature gathering ends and the petition is certified.
95.

Intervenors maintain the referenced cases speak for themselves. The First

Amendment controls here, and prohibits the state from imposing undue burdens on those—like
Intervenors—who exercise their speech and association rights by signing a petition to achieve a
political goal such as the qualification of a party for the primary ballot. Allowing the MDP to
sabotage the petition by pressuring hundreds of citizens to withdraw their signatures after the
petition has been submitted and certified would create an undue burden on the right to political
association and speech via the petition process. The right to petition, if a state grants it, also
includes the right to effectively petition. The petition process is impossible for proponents like
Intervenors to use, however, if opponents like the MDP can mount statewide withdrawal
campaigns to pressure signers after signature gathering ends and the petition is certified.
96.

Intervenors deny the allegations in Paragraph 96. Further answering, the

Secretary’s action in refusing to honor late withdrawal requests not only fails to violate the

16
App. 228

Montana Constitution, it was required in order to avoid infringing Intervenors’ rights of speech
and association as set forth in Intervenors’ responses to paragraphs 91 to 95.
PRAYER FOR RELIEF
Intervenors respectfully request the Court deny Plaintiffs the relief requested.
AFFIRMATIVE DEFENSES
1.

Plaintiffs failed to state a claim for relief under Counts I and II by failing to

establish the necessary elements required for relief.
2.

Plaintiffs are not entitled to declaratory relief because all necessary parties to be

affected by the requested declaratory relief are not parties to these proceedings, as required by
Section 27-8-301.
3.

Individual Plaintiffs lack standing to adjudicate the rights and obligations of

petition signers not present in this litigation. “[A] litigant may only assert her own constitutional
rights or immunities.” Hefferman v. Missoula City Council, 360 Mont. 207, 221, 255 P.3d 80
(2011). Plaintiffs essentially attempt to bring a class action to declare the rights and obligations
of an entire class of persons (those signers who have sought to withdraw their signatures)
without satisfying the requirements of a class action.
4.

Individual Plaintiffs’ claims under Count I are moot because their signature

withdrawals have, in fact, been counted by the Secretary.
5.

Plaintiff MDP lacks standing to bring Count I, because Plaintiff MDP has failed

to allege any sufficient injury. The only injury alleged by Plaintiff MDP is theoretical rather than
concrete and particular. See Schoof v. Nesbit, 373 Mont. 226, 232, 316 P.3d 831 (2014) (holding
an adequate injury must be “concrete, and not abstract”). Further, feeling that one is compelled to
engage in political speech to oppose a rival political party is not a legally cognizable injury.

17
App. 229

6.

Plaintiff MDP lacks standing to bring Count II, because Plaintiff MDP has failed

to allege any sufficient injury or stake in this litigation. “A party must demonstrate a personal
stake in the outcome of the controversy.” Jones v. Mont. Univ. Sys., 337 Mont. 1, 13, 155 P.3d
1247 (2007). Here, the Complaint includes no allegations demonstrating how the Defendant
Secretary has violated the MDP’s constitutional rights. Only the individual Plaintiffs are named
in Count II. Therefore, Plaintiff MDP lacks standing to proceed with Count II.
7.

Plaintiff MDP should be prohibited from seeking relief due to the doctrine of

unclean hands. MDP and its out-of-state surrogates continually and repeatedly solicited the
petition signers by text and phone calls in an effort to pressure them to withdraw their signatures.
MDP’s solicitation efforts were harassing and an attempt to coerce, overwhelm, and exercise
undue influence over signers, many of whom, on information and belief, agreed to electronically
“withdraw” their signatures merely to end harassment from out-of-state callers. Moreover, MDP
engaged in the same conduct of which it accuses the Republican Party, secretly backing its own
Green Party candidate, when in fact its effort—a last-minute candidacy in the Greens’ primary
race for U.S. Senate—was an effort to win the primary and then drop out of the race, keeping the
Green Party off the general election ballot altogether. MDP, therefore, comes to this litigation
with unclean hands.
8.

Plaintiffs’ claims are barred by the doctrine of laches and waiver in that Plaintiffs

did not timely present their claims to the court for adjudication. Plaintiffs learned of their
claimed injuries and then waited months to bring their claims, waiting until the eve of the
primary election to file their Complaint. Plaintiff MDP waited to bring their claims until after
their secretly-backed Green Party candidate appeared to be losing the primary. The Green Party
voters heard from one candidate who said she wanted to be on the general election ballot, and

18
App. 230

one candidate who suggested he would back the MDP’s interests in torpedoing a Green Party
general election candidacy. The Green Party’s voters rejected the argument of the Democrats’
surrogate. Having attempted to use the Greens’ primary election to achieve their desired political
result and having failed, the MDP asks this Court to effectuate legally what it could not convince
the Greens to do politically. The time for relief was before the primary election occurred when
Plaintiffs were made aware of their supposed injuries. Plaintiffs have now waived their rights to
bring the current claims.
9.

Plaintiffs’ Count II does not present a justiciable controversy because they have

failed to allege an injury-in-fact. Plaintiffs do not assert that they have suffered an injury via
association with the Green Party, the party with which they voluntarily associated by signing the
petition at issue. Plaintiffs likewise do no assert that they have ideological differences with the
Green Party, such that association with the Green Party violates their "right not to associate.”
Instead, they argue that they are being forced to associate with the Republican Party. That is
simply incorrect. Their alleged connection with the Republican Party is highly attenuated and
hinges solely on the fact that the Republican Party paid for petition circulators. Plaintiffs have
not been forced to associate with the Republican Party. In their own Complaint, they admit that
they have been free for months to exercise their rights to attack and disavow any association with
the Republicans. Here, when they signed the petitions, the Plaintiffs freely associated with those
of all ideologies who shared their goal of placing the Greens on the ballot. Even now, Plaintiffs
do not allege an unwillingness to support the Green Party. Instead, they allege bitterness in
supporting the Green Party who is also supported by the Republican Party. As shown below,
avoiding the bitter feeling of having supported a political goal that also happens to be supported

19
App. 231

by one’s ideological enemies is not a right protected by any federal or state constitutional
provision.
The “right not to associate” is most often implicated when a political party exerts
influence over who may be a member of that party or participate in its primaries. Indeed, the case
Plaintiffs cite for the proposition that they have a right not to associate with the Republican Party
by supporting the Green Party makes clear that “the Court has recognized that the First
Amendment protects the freedom to join together in furtherance of common political
beliefs…which necessarily presupposes the freedom to identify the people who constitute the
association, and to limit the association to those people only…That is to say, a corollary of the
right to associate is the right not to associate.” California Democratic Party v. Jones, 530 U.S.
567, 574 (2000) (internal quotations and citations omitted); see also Tashjian v. Republican
Party of Connecticut, 479 U.S. 208 (1986) (closed primary); Eu v. San Francisco Cty.
Democratic Cent. Comm., 489 U.S. 214 (1989) (primary endorsements and internal party
governance); Timmons v. Twin Cities Area New Party, 520 U.S. 351 (1997) (anti-fusion laws). In
no case has this negative “corollary” ever been held to apply to individual voters whose only
alleged “association” is signing a petition along with thousands of others whose underlying
political views and ideologies the signers can never hope to have learned. Plaintiffs’
constitutional interests in avoiding “forced association,” if they are individual rights at all, are
simply not implicated by having their signatures on a petition supporting the party which they
chose to support: the Green Party.
10.

Further, even if Plaintiffs were deemed to have “associated” with the Republican

Party, and this Court were to become the first in the country to find that Plaintiffs have a
constitutional interest in not being “associated” with the Republican Party under these facts, that

20
App. 232

interest is adequately protected by allowing them to withdraw their support of the petition up to
the point that the signatures are filed. If, as Plaintiffs assert, individuals have an unfettered right
to withdraw their signatures from a political party qualification petition until some ambiguous
“final act” is performed, such a right would infringe upon the rights of petition proponents and
signers under the First Amendment to the United States Constitution and Article II, Sections 6
and 7 of the Montana Constitution. That right is the right to effectively associate through the
petition process. See Meyer v. Grant, 486 U.S. 414, 421-22 (1988) (“…[T]he circulation of a
petition involves the type of interactive communication concerning political change that is
appropriately described as ‘core political speech.’”); see also Nader v. Brewer, 531 F.3d 1028
(9th Cir. 2008) (finding residency and filing deadline provisions of Arizona law unconstitutional
because they unduly burdened process by which independent candidate gathered signatures to
gain ballot access). Plaintiffs’ theory is immediately suspect because they are unable to point to a
date certain at which a political party qualification petition signer’s “right” to withdraw his
support ceases. The Complaint fails to identify such a date, but makes clear that Plaintiffs believe
that the “final act” occurs well after the deadline for submission of signatures on March 2nd, after
the Secretary of State announced that the Green Party had submitted sufficient signatures to
qualify to hold a primary on March 6th, and even after the candidate filing deadline on March 8th
passed. Plaintiffs’ Complaint impliedly acknowledges that the “final act” for all other petitions –
the date which also serves as the deadline for a signatory to withdraw his signature – is the date
on which the petitions must be submitted to county election officials. Section 13-27-301(1)(3),
MCA; Section 13-27-104, MCA.
In State ex rel. O'Connell v. Mitchell, 111 Mont. 94, 106 P.2d 180, 181 (1940), in the
absence of an express deadline on signature withdrawal for an initiative petition, the Montana

21
App. 233

Supreme Court applied the “final act” rule. In doing so, it found that the rule did not render the
initiative procedure “unworkable”, implying that a withdrawal deadline which does render the
process unworkable would be held in disfavor. Id.; Cf. Uhl v. Collins, 217 Cal. 1, 4, 17 P.2d 99,
100 (1932) (“But, if the alleged right of withdrawal, based upon change of mind, is to be
exercised to the destruction of the initiative procedure, then we may well question its
justification. In order to accomplish anything, the proponents of a measure must be able to rely
upon signatures obtained, and, if continually forced to seek new ones to take the place of
withdrawals, may never be able to prepare a proper petition within the limited period which
usually exists. To permit withdrawals after the petition is completed and filed, and the work of
securing signatures abandoned, seems to us to make the system wholly unworkable.”). Since
O’Connell and many of the other cases on which Plaintiffs rely were decided, the Montana
legislature enacted Section 13-27-301(1)(3), which provides a specific deadline for the
withdrawal of signatures on petitions for constitutional amendments, constitutional conventions,
initiatives, and referendums. The “final act” requirement fulfills the same purpose as the
statutory withdrawal deadline in Section 13-27-301(1)(3): to create an adequate, orderly process
to govern the timeframe in which a signature may be withdrawn. However, Plaintiffs’ theory is
anything but orderly and fails to establish the same level of temporal certainty by leaving
unanswered the question of what constitutes the “final act” after which withdrawal is no longer
permitted. If the Plaintiffs do have a date in mind, it is apparently long after the point at which
the primary has been held, and even longer after the point at which proponents must stop
gathering signatures. For weeks and months after their petition is certified, proponents are
powerless to add signatures, but their opponents can mount a relentless statewide campaign to
pressure proponents’ co-signers to withdraw their signatures. The opponents are doubly

22
App. 234

advantaged: whereas the proponents must gather signatures from 5% of registered voters in 1/3
of the legislative districts before the filing deadline, a withdrawal campaign like that mounted by
Plaintiffs need only focus on the weakest geographic districts that supported the petition in order
to sabotage the petition altogether. The lack of finality creates a moving target because
proponents can never know how many people will change their minds during the months-long
“withdraw-only” phase. A proponent can never gather enough signatures because opponents will
have months to sit back and bombard signers with texts and emails, picking off voters one by
one.
To avoid this lack of finality and provide an orderly process, many states – including
Montana with regards to petitions for constitutional amendment, constitutional convention,
initiative, or referendum – require withdrawals to occur at the same time as the filing deadline
for proponents’ signatures in order to avoid a situation in which opponents of the petition can
continue to work to defeat it via signature withdrawal campaigns, while the petition’s proponents
can no longer gather signatures in support due to the filing deadline. See, e.g., State ex rel. Harry
v. Ice, 207 Ind. 65, 191 N.E. 155, 156 (1934) (“If nominating petitioners are permitted to
withdraw their names after opportunity for supplying additional names, or filing new petitions,
has passed, a very patent door to chicanery and fraud upon the voters and the community is
provided.”). Because it fails to provide an orderly or predictable process, Plaintiffs’ theory, if this
Court were to now adopt it as the law of Montana, would infringe on electors’ and petition
proponents’ rights under the First Amendment to the United States Constitution and Article II,
Sections 6 and 7 of the Montana Constitution.
11.

Even if the Court were to grant Plaintiffs the ability to submit untimely signature

withdrawals, the petition still contains sufficient signatures to satisfy the certification

23
App. 235

requirements because local election officials—and therefore the Secretary—failed, on
information and belief, to count numerous valid signatures in the affected districts. Therefore,
Plaintiffs will not be able to successfully invalidate the certification.

Dated: July 2, 2020

Respectfully submitted,
Edward D. Greim (pro hac pending)
GRAVES GARRETT, LLC
1100 Main Street, Suite 2700
Kansas City, Missouri 64105
Tel.: (816) 256-3181
Fax: (816) 817-0863
edgreim@gravesgarrett.com
Chris J. Gallus
GALLUS LAW
1423 Otter Rd.
Helena, Montana 59602
Tel.: (406) 459-8676
chrisjgalluslaw@gmail.com

24
App. 236

Certificate of Service
I hereby certify that a true and correct copy of the foregoing document was served on the
following counsel of record in this matter on July 2, 2020 as follows:
Peter Michael Meloy
MELOY LAW FIRM
P.O. Box 1241
Helena, MT 59624
Ph.: (406) 442-8670
mike@meloylawfirm.com

Anita Y. Milanovich
MILANOVICH LAW, PLLC
100 E Broadway St.
The Berkeley Room
Butte, Montana 59701
Ph.: (406) 589-6856
aymilanovich@milanovichlaw.com

Matthew Gordon
PERKINS COIE LLP
1201 Third Ave., Suite 4900
Seattle, WA 98101
Ph.: (206) 359-8000
mgordon@perkinscoie.com

Emily Jones
Talia G. Damrow
JONES LAW FIRM, PLLC
2101 Broadwater Ave.
Billings, MT 59104
Ph.: (406) 384-7990
emily@joneslawmt.com
talia@joneslawmt.com

Counsel for Plaintiffs
Austin James
Chief Legal Counsel
Secretary of State’s Office
P.O. Box 202801
Helena, MT 59620-2801
Ph.: (406) 444-2034
Austin.james@mt.gov

Counsel for Proposed Intevenor MTGOP

Matthew T. Meade
Smith Oblander & Meade, PC
P.O. Box 2685
Great Falls, MT 59403-2685
Ph.: (406) 453-8144
matt@bigskylaw.com
Counsel for Defendant
/s/ Christopher Gallus

25
App. 237

IN THE MONTANA FIRST JUDICIAL DISTRICT COURT
LEWIS AND CLARK COUNTY
MONTANA DEMOCRATIC PARTY

)
)
And
)
)
TAYLOR BLOSSOM, RYAN FILZ,
)
MADELEINE NEUMEYER, and REBECCA
)
WEED, individual electors,
)
)
Plaintiffs,
)
)
v.
)
)
STATE OF MONTANA, by and through its
)
SECRETARY OF STATE COREY STAPLETON, )
)
Defendant,
)
)
LORRIE CORETTE CAMPBELL and
)
JILL LOVEN,
)
)
Intervenors-Defendants.
)
)

Case No. CDV-2020-856

Order Granting Petition
Signers’ Motion to Intervene

Lorrie Corette Campball and Jill Loven (“petition signers”) have filed a Motion to
Intervene. The Court now having reviewed the motion and briefing thereof,
IT IS ORDERED that the motion is GRANTED. The Clerk shall enter Ms. Campbell
and Ms. Loven as Intervenor-Defendants in this matter and enter their Answer, submitted as an
exhibit, into the record as a separately filed entry.
The Clerk is directed to provide copies of this order to all counsel of record.
SO ORDERED this _______ day of _____________, 2020.

_____________________________
District Court Judge

App. 238

MONTANA FIRST JUDICIAL DISTRICT COURT
LEWIS AND CLARK COUNTY
---------------------------------------------------------MONTANA DEMOCRATIC PARTY,
and
TAYLOR BLOSSOM, RYAN FILZ,
MADELEINE NEUMEYER, and REBECCA
WEED, individual electors,
Plaintiffs,
vs.

CAUSE NO. DDV-2020-856

STATE OF MONTANA, by and through
its SECRETARY OF STATE COREY
STAPLETON,
Defendant.
---------------------------------------------------------TRANSCRIPT OF THE PROCEEDINGS, VOL. I
ORDER TO SHOW CAUSE, PRELIMINARY INJUNCTION

Heard before the Honorable James P. Reynolds
Lewis and Clark County Courthouse
228 Broadway
Helena, Montana
July 14, 2020

REPORTED BY:

CHERYL ROMSA
CHERYL ROMSA COURT REPORTING
1 NORTH LAST CHANCE GULCH, SUITE 1
P. O. BOX 1278
HELENA, MONTANA 59624
(406) 449-6380

App. 239

2

A P P E A R A N C E S
ON BEHALF OF PLAINTIFFS:
PETER MICHAEL MELOY
MELOY LAW FIRM
P. O. Box 1241
Helena, Montana 59624-1241
MATTHEW P. GORDON
PERKINS COIE LLP
1201 Third Avenue, Suite 4900
Seattle, Washington 98101-3099
ON BEHALF OF DEFENDANT:
AUSTIN JAMES
MONTANA SECRETARY OF STATE'S OFFICE
P.O. Box 202801
Helena, MT 59620-2801
MATTHEW MEADE
SMITH, OBLANDER & MEADE, P.C.
104 2nd Street South, Suite 400
Great Falls, Montana 59401
ON BEHALF OF PROPOSED INTERVENORS:
CHRIS J. GALLUS
GALLUS LAW
1423 Otter Road
Helena, Montana 59602
EDWARD G. GREIM
GRAVES GARRETT LLC
1100 Main Street, Suite 2700
Kansas City, Missouri 64105
ANITA Y. MILANOVICH
MILANOVICH LAW PLLC
100 East Broadway Street, The Berkeley Room
Butte, Montana 59701

App. 240

5

1

WHEREUPON, the proceedings were had as follows:

2

THE COURT:

We are here in Cause DDV-2020-856.

3

It's the Montana Democratic Party and others against the

4

State of Montana by and through the Secretary of State

5

Corey Stapleton.

6

the application for preliminary injunction.

7
8

Why don't we have everybody introduce yourselves for
the sake of our court reporter.
MR. MELOY:

9
10

MR. GORDON:

MR. JAMES:

Good morning, Your Honor.

Austin James for the Defendants.
MR MEADE:

15
16

Good morning, Your Honor.

Matthew Gordon for the Plaintiffs.

13
14

Mike Meloy for the Plaintiffs,

Your Honor.

11
12

This is the time set for the hearing on

Your Honor, Matthew Meade on behalf of

the Secretary of State.
THE COURT:

17

All right.

So I think there are a

18

few preliminary matters that we probably need to address

19

here.

20

it and reading the various documents that have been filed,

21

and I have some conclusions.

And I'm going to tell you, I've been thinking about

22

First of all, with regard to the proposed intervenors,

23

I've got a motion to intervene from the Montana Republican

24

Party and also a proposed intervention by a couple of the

25

petition signers.

And so I am going to deny both of those

App. 241

6

1
2

motions to intervene.
I don't think -- The Republican Party wants to

3

intervene because they have been accused in this

4

proceeding with improperly circulating the petition that's

5

at stake here.

6

the Republican Party to defend itself against those

7

accusations.

8

before the Commissioner of Political Practices that are

9

ongoing, and that is the place for that particular debate

10
11

I don't think this is the proceeding for

In my understanding, there are proceedings

to be had.
With regard to the two proposed intervenors who signed

12

the petition who wish to have the petition remain as an

13

accepted petition, I'm also going to deny that.

14

no effort, as I read these pleadings here, to remove those

15

folks as valid signers of the petition, and I don't

16

think -- I mean, I don't know how many people signed this

17

ultimately, but I don't think individual signers under

18

those circumstances are entitled to intervene here; or

19

otherwise, I could have 500 more people in here.

20

There is

So I'm going to deny both of those motions to

21

intervene.

22

amicus in the case if they wish to submit briefs.

23

I will allow both parties to participate as

So that brings me to a second part, and that's --

24

Mr. Greim, you have applied to be admitted pro hac vice

25

here, and since I'm not going to allow you to participate

App. 242

7

1

as a party, you may want to withdraw that and preserve

2

your ability to apply at a future point.

3

consideration for you?
MR. GREIM:

4

Is that a

Well, Your Honor, I'm already over

5

my -- my firm is over our two-person limit, and so we

6

applied two years ago for good cause to the

7

Montana Supreme Court because we were already over the

8

limit then.

9

left to preserve, so we would want to stand on that.

10

Because even as amici, we would have to be admitted.

They allowed it.

THE COURT:

11

Okay.

So I think there's nothing

Well, I'll leave it up to you.

12

I'm not going to deny your application to appear here.

13

read through your application, and you certainly would be

14

eligible to participate in this, but only as amicus.

15

Mr. Gallus.
MR. GALLUS:

16
17

I

I was just standing ready,

Your Honor.

18

THE COURT:

Okay.

19

MR. GREIM:

So, Your Honor, I'm sorry to delay

20

things.

21

appear pro hac vice, but with the understanding we're here

22

as amicus?

23

Do I understand you're granting my motion to

THE COURT:

Right.

Right.

Not as a party.

Of

24

course, anybody can participate in the proceedings if they

25

want to as a witness.

That's not being barred.

But as

App. 243

App. 244

App. 245

AUSTIN JAMES
Chief Legal Counsel
Secretary of State's Office
P.O. Box 202801
Helena, MT 59620-280 I
406-444-2034
Austin.James@mt.gov
MATTHEW T. MEADE
Smith, Oblander & Meade, PC
PO Box 2685
Great Falls, MT 59403-2685
406-453-8144
CO-COUNSEL FOR DEFENDANTS
MONTANA FIRST JUDICIAL DISTRICT COURT
LEWIS AND CLARK COUNTY
MONTANA DEMOCRATIC PARTY,
TAYLOR BLOSSOM, RYAN FILZ,
MADELEINE NEUMEYER, and REBECCA
WEED, individual electors,
Plaintiffs,
v.
STATE OF MONT ANA, by and through
COREY STAPLETON, SECRETARY OF
STATE,

Cause No. CDV-2020-856
Hon. Kathy Seeley

DEFENDANT'S BRIEF IN
SUPPORT OF DEFENDANT'S
MOTION TO DISMISS AND
DEMONSTRATING CAUSE
WHY RELIEF SHOULD NOT BE
GRANTED

Defendants.
COME NOW, the Defendant State of Montana, by and through Corey Stapleton as the
Secretary of State ("SOS"), and submits the following combined Brief in support of their Motion
to Dismiss and Demonstrating Cause 1 as to why Plaintiffs' Declaratory Relief should not be
granted.

1

As required by the Court's June 4, 2020, Order to Show Cause.
Defendants' Brief in Support of Motion to Dismiss and BriefShowing Cause Why Declaratory ReliefShould Not Be Granted- Page l

App. 246

INTRODUCTION
Every election year, public servants are tasked with administering a fair election for this
state pursuant to Montana's election laws. Local and state election officials find comfort in
following their legally prescribed duties. Although voluminous, Plaintiffs' filings fail to
overcome Montana statutes and established precedent regarding signature withdrawals.
The statute, MCA § 13-10-60 I (a), requires a threshold showing of support for minor
party access to the ballot. The law does not require all supporters of minor party ballot access to
agree with the financial support behind signature gathering efforts. Plaintiffs admit they
understood the contents of the petition. Their objection to the petition stems not from its
contents, but rather from the fact that Plaintiffs claim they did not know, and did not ask, who
sponsored the clipboard. Disclosure and financial compliance and enforcement is a duty of the
Commissioner of Political Practices, not the Secretary of the State. The proper forum to litigate
these concerns rests with Plaintiffs' pending case before the Commissioner, where Plaintiffs
allege the same concerns as alleged in this case.
This is a case about certifying a minor party as eligible for the ballot, per MCA§ 13-10601. The statutory requirements for a minor party to demonstrate sufficient support via petition
are not disputed. Plaintiffs' principal claim is that the State arbitrarily created a withdrawal
deadline and failed to incorporate timely withdrawal requests by petition signers in the
certification. The undisputed record shows that the final act of certifying the petition occurred
on March 6, 2020, and the tally count by SOS accounted for all withdrawn signatures, including
timely submission by Plaintiffs.
The Secretary of State certified the Green Party petition contained legally sufficient
signatures from more than enough districts, as required by§ 13-10-601(2)(b), on March 6, 2020.
In addition to signature verification, election clerks and state election officials processed several
Defendants· Brief in Support of Motion to Dismiss and Brie/Showing Cause Why Declaratory ReliefShould Not Be Granted- Page 2

App. 247

withdrawal forms submitted in response to an advocacy campaign by the Montana Democratic
Party. The duties of county election officials and the Secretary of State remain unaltered by
Republican efforts toward qualifying the Green Party, or Democrat efforts to prevent or
eliminate Green Party eligibility. The salient issue is whether the petition to qualify the Green
Party met the threshold of§ 13-10-601. After all withdrawn signatures were removed, the Green
Party petition meets the statutory eligibility threshold.
Plaintiffs' existing rights are rooted in century-old authority, precisely followed by the
Secretary of State. Plaintiffs have not shown why the Montana Supreme Court's guidance should
be overruled, and they are unlikely to succeed in doing so. Even if Plaintiffs timely brought suit
with clean hands and without delay, the balance of equities is in Defendant's favor.
On the other hand, Defendants, along with nominated Green Party candidates, Green
Party voters, and local election officials will suffer irreparable harm under Plaintiffs' requested
relief. The public interest is served by the preparation and administration of elections under
consistent statutory requirements. Four months after the filing as a candidate for the Green Party,
weeks after securing the Green Party nomination, Plaintiffs belatedly ask the Court to strip these
candidates from the ballot.
The Montana Democratic Party, after a lengthy campaign advocating against signing the
Green Party petition and soliciting withdrawal forms from those that did, asserts that signature
withdrawals must be processed at any unidentified point after the petition is deemed sufficient,
despite their campaign's urgency around the deadline. In support of their position they claim that
statutory silence guarantees indefinite removal of petition signatures.

Defendants' Brief in Support ofMotion to Dismiss and BriefShowing Cause Why Declaratory ReliefShould Not Be Granted- Page 3

App. 248

This is a right no court has ever recognized. It has little to recommend it. If accepted, it
would dramatically alter the requirements for demonstrating sufficiency by a minor party for
access to the ballot and open the floodgates to an entire new arena for major party
gamesmanship. By extension, it would threaten not just minor party petitions, but referendums,
county commissioner actions, and other acts by public officials or bodies requiring a
demonstration of signatures.
Accordingly, this case is not-and never has been-about the actors involved in
promoting or opposing the minor party petition for the Green Party or whether signers were
aware of major party participation on both sides. Instead, the question is whether Title 13 confers
upon the Montana Secretary of State the unprecedented entitlement to disregard neutral and
generally applicable certification of a minor party by petition rules whenever signers of a petition
incidentally change their mind at any point after the final act occurred. The answer is "no."
ARGUMENT
I.

WAIVER

A. Plaintiffs' conduct is evidence of waiver, which is a question of fact.
The Montana Supreme Court expressly declared that a party's right to rescind a petition
signature is waived by failing to promptly act upon learning of the fraud. State ex rel. Peck v.
Anderson (1932), 92 Mont. 298,306, 13 P.2d 231,234. Plaintiffs' "Trial Brief' contends, at 7:

Without relief declaring the withdrawal requests valid and the Petition invalid and
enjoining the Secretary from giving effect to the Petition, Plaintiffs and hundreds of
other Montanans will be deprived of their right to withdraw their signature and will
signing that was promoted by a political party they never wanted to associate with
and a cause - siphoning Democratic votes - that they never supported. The Montana
Republican Party will be rewarded for its misleading conduct ....

Defendants' Brief in Support of Motion to Dismiss and Brie/Showing Cause Why Declaratory ReliefShould Not Be Granted- Page 4

App. 249

The Montana Democratic Party has been aware of this alleged misdeed since the second
week of February. Upon learning of the misdeeds they allege, the MDP and the individual
plaintiffs waived their claim by waiting until June to act upon.
Montana Democratic Party

. ~1
A DC dark money group that has endorsed and spent
millions to elect Matt Rosendale is tampering with
Montana elections.
Out of state interests tried this in 2018, and they're
trying the same thing no•N.

It won't work.

By the date the Complaint herein was filed on the eve of the election, ballots had been
composed, printed, distributed, voted and returned. "Green" candidates had garnered votes
without objection by either the Montana Green Party or the MDP. The Secretary was not even
served with the lawsuit until June 5, 2020, three days after the primary.

The MDP's and Green Party's inaction is dispositive. After petitions are returned
to and signatures are verified by the county clerks and forwarded to the Secretary of
State, and certified as sufficient, the ballot is made.
Also by mid-February 2020, MDP knew that the Montana Green Party
purportedly "disavowed any involvement in the petition." Kendra Miller Aff. at ,r 12. By
their own admission, MDP obtained copies of signature records to individually contact
signers of the Petition stating that individual signers were duped.

Defendants' Brief in Support of Motion to Dismiss and BriefShowing Cause Why Declaratory Relief Should Not Be Granted- Page 5

App. 250

After the deadline to submit signed petitions to election clerks passed, MDP
sounded the alarms of immediacy for withdrawal form submission.

Montana Democratic Party
;·;ih1

Gallatin County Democrats
?i, !,{)

1.:)

!J PLEASE SHARE Q
Dark money groups are funding an effort to mislead
Montana voters and tamper with our elections by
adding a minor party to the ballot. Tile Green Party
has stated publicly that they are NOT collecting
signatures and their name is being misused. If you
were tricked into signing - or were approached by a
petitioner but did not sign - please take two minutes
to share your story and find out how to have your
signature removed. Click the link below to fill out the

URGENT!!!
Did you sign a petition to have the Green Party on the
ballot in the last month in Montana? If so, please sign
this google doc to have your signature removed!! This
group was in no way affiliated with the Green Party
and was paid for by a D.C. dark money group to
tamper with out MT elections. Currently there are
petitions to get the GP on the ballot in Yellowstone,
Missoula, Gallatin, and Lewis and Clark counties!! This
is in NO WAY affiliated with the Green Party.
Please click the google doc link and remove your
signature if you did sign!: tt1;s:/,i'f01 u1::.f_1IP./
toiiHU5d i\'foZq~Jf<:-: ~! g

Google Forms - create and analyze
surveys, for free.

Plaintiff Blossom knew as of February 29, 2020 (Blossom Deel. at ,r 7), Plaintiff
Filz knew sometime in March 2020 (Filz Deel. at ,r 7) and Plaintiff Weed knew during
the first week of March 2020 (Weed Deel. at ,r 6). Plaintiff Blossom and Weed's alleged
harm could have been vindicated had either inquired with the Secretary of State regarding
the status of their withdrawal. Nonetheless, their status has not changed since March 6.
Any urgency of relief by Plaintiffs now is attributed to their own delay.
In its Complaint to the Montana Commissioner of Political Practices dated March
16, 2020, the MDP affirmatively asserted that they knew of the petition effort and that the
Montana Green Party "has repeatedly and publicly condemned this gathering effort." 2

2

Complaint, Luckey v. Advanced Micro Targeting, Inc., Montana Commissioner of
Political Practices No. COPP-2020-CFP-004; James Deel. Ex. 3.
Defendants' Brief in Support of Motion to Dismiss and BriefShowing Cause Why Declarato,y Relief Should Not Be Granted- Page 6

App. 251

Then, MDP waited until mid-April 2020 to restart feeding signed withdrawal
forms to various county clerks. Bolger Deel. Ex. A. When they did, county clerks
repeatedly responded that the withdrawals were too late. Yet MDP did not object, and
remained silent as the ballot including Green Party candidates was compiled and issued.
At no time did anyone contact the Secretary of State.
It appears MDP waited to serve the Secretary until after their initial attempt was
made to thwart the Green Party's primary election. It was publicly reported that MDP
recruited a Green Party Candidate for the Senate as an attempt to thwart the primary
election, and subsequently withdraw. James Deel, at Ex. 4. When the attempt did not go
as planned, MDP turned to this Court with unclean hands. MDP should not be permitted
to benefit from its delay. MCA § 1-3-208.
In doing so, MDP waived their claims. Waiver is defined as the intentional and
voluntary relinquishment of a known right, claim or privilege. Reiter v. Yellowstone

County, 192 Mont. 194,627 P.2d 845,850 (Mont. 1981). While the definition of waiver
is a question oflaw, whether the facts of a particular case constitute waiver is a question
of fact. Masters Group Int 'l, Inc. v. Comerica Bank, 2015 MT 192, ,r 91, 380 Mont. 1,
352 P.3d 1101.
A plaintiff may waive a claim by conduct. Pipe Indus. Ins. Fund Trust ofLocal 41

v. Consolidated Pipe Trades Trust, 233 Mont. 162, 170, 760 P.2d 711, 716 (Mont. 1988).
Specifically, once a plaintiff has notice of its claim it must act. A plaintiff waives its

Defendants' Brief in Support o_f Motion to Dismiss and Brie/Showing Cause Why Declaratory ReliefShould Not Be Granted- Page 7

App. 252

claim by doing nothing to enforce its rights once facts of the claim are known. Seifert v.

Seifert, 173 Mont. 501, 508, 568 P.2d 155, 159 (Mont. 1977).
Plaintiffs are not entitled to the relief that they claim by summary proceeding. At
the very least a trial is necessary to determine whether Plaintiffs waived their claims by
waiting months to assert them while the Montana election process continued and election
officials state-wide worked diligently to provide ballots based upon petitions presented
and information certified pursuant to the party qualification statutes. After discovery,
waiver may indeed be the proper subject of a summary judgment motion by Defendants.
However, at this time it would be premature to grant Plaintiffs the relief that they seek.

B. The Office of Commissioner of Political Practices Is The Proper Forum for
Complaints regarding Ballot Petition Efforts And Campaign Activities, And
The process after the petition filing deadline is far from simple.
Local and State Election officials face a heavy workload and demanding schedule
between the deadline for a minor party petition and the election. Elections Officials must
be able to rely on certifications and timelines to fulfill the statutory and administrative
requirements demanded by an election. Corson Dec. ~3-34.
Even if the Secretary of State had received a complaint from either the MDT or
Green Party concerning the alleged activities by the Montana Republican Party, it would
have been referred to the Commissioner of Political Practices. 3 Neither the Secretary of

3

The only complaint filed with the Secretary of State was filed against Plaintiffs, the Montana
Democratic Party, alleging improper interference with an election because Plaintiffs sent an
unsolicited text message demanding a signature withdrawal by the Petition signer. The Election
Clerk for the County of the Complainant notified the Montana Democratic Party that the
deadline had passed the following week. See James Deel. Ex. 5.
Defendants' Brief in Support of Motion to Dismiss and Brie/Showing Cause Why Declaratory ReliefShould Not Be Granted- Page 8

App. 253

State nor any of his officers are statutorily tasked with the responsibility of investigating
complaints concerning campaign finance for ballot petition efforts or political parties.

Corson Deel. at ,r 35. If the Secretary of State's Office does receive such a complaint, the
complaining party is referred to the Office of the Commissioner of Political Practices. Id.
As further indication of MDP's deficient claims, MD P's filings wholly fail to
address the issue of what, if anything, this Court can or should do relative to "Green"
candidates who have already proceeded through the primary election and actually
received votes. MDP's position, if accepted, would be tantamount to disenfranchising the
votes of many Montana citizens who cast ballots with the expectation that their votes
would be considered. Not only did "Green" candidates win votes, but county clerks
across Montana have acted on the certification of the Green Party's qualification. The
ends of justice are served by finding waiver in such a case. Seifert, 173 Mont. at 508.
II.
A minor party must be eligible to conduct a primary in the first place.
A minor party does not become eligible to conduct a primary after the primary election
concludes. A minor party becomes eligible to conduct a primary election pursuant to § 13-l0601. The Green Party qualified pursuant to §13-10-601 (2), after all withdrawals and signatures
were properly accounted for. All parties eligible for a primary election conducted a primary
election before this lawsuit was served.

A. Signers Exercised Their Right to Withdraw Their Signatures from the Petition
Under Montana Law
Over a century ago, the Montana Supreme Court adopted the well-established rule that, in the
absence of legislative expression to the contrary, signers of a petition have a right to withdraw
before the petition is acted upon. State v. Furnish, 48 Mont. 28, 134 P. 297,300 (1913). Final

Defendants' Brief in Support of Motion to Dismiss and Brie/Showing Cause Why Declaratory ReliefShould Not Be Granted- Page 9

App. 254

action on a minor party petition occurs when the Secretary finally determines that the "petition is
sufficient". 41 Atty Gen. 94. The final act of§ 13-10-601 (2) is when it is determined that§ 1310-601 (2)(b) has been satisfied. § 13-10-601 (2)(b) was satisfied on March 6, 2020. At that time,
all withdrawals received by the Secretary of State and/or County Election Clerks were accounted
for.

B. The Final Act: Certification of Sufficiency
There is no set time period mentioned in the statute providing for petition by minor
parties to conduct a primary election is the Board of Canvassers mentioned. Plaintiffs ask this
Court to arbitrarily insert a limitation into statute that a minor party's ability to conduct a primary
election is not finalized until after the primary election itself. Established case precedent requires
a different conclusion.

In State ex rel. 0 'Connell v. Mitchell, 111 Mont. 94, 106 P2d 180 (1940), the Montana
Supreme Court entertained a familiar issue: when is the right to withdraw from a petition cutoff? In that case, after the clerks verified signatures, the initiative was forwarded and filed by
then Secretary of State Sam Mitchell. Then, just as now, statute required the petition to be signed
by enough signatures. If so, the Secretary of State was to certify the petition enabling the
electorate to vote on the initiative.
At the time Secretary Mitchell received the petition at issue, the initiative contained
sufficient signatures. However, after the petition had been filed, but before the Secretary of State
certified the petition, the number of withdrawal petitions received by the Secretary of State
reduced the number below what was legally required for certification to the ballot. The Supreme

Defendants' Brief in Support of Motion to Dismiss and Brie/Showing Cause Why Declaratory ReliefShould Not Be Granted- Page 10

App. 255

Court held that the right of withdrawal exists until the Secretary of State has determined that the
petition is sufficient, in the absence of legislative expression to the contrary.

45

Here, at the time of certification by the Secretary, the Green Party petition met statutory
requirements. Petition signers that submitted withdrawal requests prior to certifying that the
Green Party was eligible to hold a primary election were NOT included in the threshold
determination of sufficiency, nor should they have been. This includes but is not limited to
Plaintiff Taylor Blossom's withdrawal 6 , and one of the two withdrawals submitted by Rebecca
Weed. 7 Corson Dec., i/37-41.
Once a political party petition is presented to the Secretary of State in satisfaction of§ 1310-601 (2)(b), eligibility pursuant to § 13-10-601 is final. Ford v. Mitchell ( 1936), at 117,823.
("We therefore hold the right to withdraw exists until the Secretary of State has finally
determined, in the manner provided by statute, that the petition is sufficient.") The Secretary of
State's action was already final, and the function of the Green Party's eligibility ended. Plaintiff
Madeleine Neumeyer had a right to withdraw from the Green Party Petition any time before the
certification, but she declined to do so. See also, 41 Op. Atty Gen. Mont. No. 94 ( 1986)
("Signatures may be withdrawn from a recall petition up to the time when the filing officer
finally determines that the petition is sufficient and so notifies the official named in the
petition.") ("Logically, somewhere there has to be an end to the conflict and a count taken.")

4

Thereafter, the legislature addressed the deadline for withdrawal submission from a petition for
constitutional amendment, constitutional convention, initiative, or referendum. Mont. Code Ann.
§ 13-27-301 (3). Withdrawal forms in these instances may be submitted no later than 4 weeks
before the final date for filing the petition with the Secretary of State.
5
If§ 13-27-301 (3) applied to minor party petitions, the deadline for withdrawal would have
occurred on March 2, 2020. Withdrawal forms were accepted up until the time of certification on
March 6, 2020.
6
Submitted on the day of, March 6, but prior to, certification.

Defendants' Brief in Support of Motion to Dismiss and Brie/Showing Cause Why Dec/arato,y ReliefShould Not Be Granted- Page 11

App. 256

C. All signers that withdrew their signature received before the certification of minor
party eligibility were appropriately removed from the count on the minor party
petition.
The right to withdrawal expires upon certification of the petition. In State ex rel. Freeze
v. Taylor ( 1931 ), 90 Mont. 439, the day after a petition containing the requisite number of

signatures had been certified, 118 withdrawal forms were filed. The Montana Supreme Court
declared "the withdrawal [forms] came too late." Id., at 445,481.
Those signing the original petition had a right to withdraw at any time before final action,
but not afterward. The Secretary, statutorily authorized to determine the petition, finally acted.
"None of the authorities recognize the right to withdraw from the petition after the same has been
finally acted upon by the person or board." Id, at 445,481.

D. The Final Act Qualifying The Green Party to Hold a Primary Election Cannot Be
Based On Tabulation of the Primary Elections Result
According to Plaintiffs, finality of the minor party's right to conduct a primary election
does not occur until after the primary election results are canvassed. Plaintiffs confuse
certification of election results with certification of minor party eligibility for a primary election.
Plaintiffs ask this Court to declare that the Green Party was ineligible to have a primary at all.
The Board of Canvassers duty to certify the results of a primary has nothing to do with whether a
minor party is eligible to have a primary in the first place. The law prescribes reasonable
statutory interpretations, not interpretations that produce absurd results. MCA§§ 1-2-101; 1-3233.

E. Plaintiffs' Theory Contradicts MCA§ 13-10-601
Construing § 13-10-601 (2)(b) as Plaintiffs suggest would directly conflict with Title 13
requirements. For instance, the Secretary of State was required to certify the primary election
ballot of eligible parties by March 19, 2020, pursuant to §13-10-208. Local election officials
must be able to rely upon finality to perform their duties. According to MDP, a minor party may
Defendants' Brief in Support ofMotion to Dismiss and BriefShowing Cause Why Declaratory ReliefShould Not Be Granted- Page I 2

App. 257

be stripped of their eligibility to conduct a primary election at any time before the Board of
Canvassers certify the primary election results. This would result in uncertainty and massive
expenses to the county and state in administering elections.
Likewise, according to MD P's position, the most ideal Green Party Candidate for Green
Party voters that declares candidacy upon certification of eligibility, only to be stripped of that
right sometime before the primary, or, as requested here, after the nominee selected by Green
Party voters has moved on to the general election.
How could a party's sufficient eligibility to conduct a primary election remain fluid until
the Board of Canvassers act, when statute provides a mechanism to declare that a primary is
unnecessary for an eligible party to conduct the same? It cannot because such construction would
lead to absurd results. The primary election for a party eligible to conduct a primary can be
statutorily deemed unnecessary pursuant to § 13-10-201. If the Green Party met the conditions
under § 13-10-209 in the 2020 election, Montana law would have required certification for the
general election as of March 19, 2020. Such a statutory construction would lead to an absurd
result.
The Board of Canvassers certifying primary election results is no different than the
numerous other statutory requirements contained in Title 13 by county and state election
officials. The final act of the Secretary declaring sufficiency is required because in the absence of
the Secretary's certification as a final act, the numerous statutes thereafter fall in limbo.
While MDP claims that a candidate may individually gather signatures if the party is
ineligible, the statute clearly states that this is only permissible if a political party does not
qualify pursuant to§ 13-10-601. See, § 13-10-604 (emphasis added). If the finality of
qualification under the provisions of§ 13-10-601 remains in question until the Board certifies, as

Defendants' Brie/in Support of Motion to Dismiss and Brie/Showing Cause Why Declaratory ReliefShould Not Be Granted- Page 13

App. 258

Plaintiffs suggest, the ability of a candidate to qualify under this provision would fall months too
late. An absurd result, indeed.

III.

Plaintiffs' Requested Relief Should Not Be Issued Because Their Offered
Statutory Construction Leads to An Absurd Result
MDP asserts that the court in Wisconsin has adjudicated the meaning of "final action" in an
annexation dispute analogous to this case, citing Town of Blooming Grove v. City of Madison,
(1957), 275 Wis. 342, 81 N.W.2d 721. In Town ofBlooming Grove, the court held withdrawals
may be accepted after the petition submission deadline to the clerk, but only until the petition is
acted upon. If anything, that approach supports the Secretary of State's acceptance of
withdrawals after the petition submission deadline to the clerk up until the final act.
This case is distinguishable from Town ofBloomington in key aspects. First, unlike the
Wisconsin City Council, the Montana Secretary of State does not have the vested authority to
vote to adopt a sufficient petition. Wisconsin law does not even require authentication of
signatures in Wisconsin for an annexation petition. Second, a proposal for consideration by a city
council is not analogous to eligibility of a minor party to participate in the primary election.
The mere implied power of the signer, which is not expressly provided for in the Montana
Constitution or statutes, cannot be used to jeopardize the exercise of the constitutional right to
petition itself. If the alleged right of withdrawal, based upon a change of mind, is to be exercised
to the destruction of the initiative procedure, its justification must be questioned.
In order to accomplish anything, the proponents of a minor party's eligibility for the ballot
must be able to rely on upon the signatures obtained, and if forced to combat well-funded efforts
to obtain withdrawals by a major political party after no more signatures may be gathered, even
beyond the primary election nominated the representing candidates in the general election, the
minor party may never obtain eligibility. The longstanding rule backed by well-established
Defendants· Brief in Support ofMotion to Dismiss and BriefShowing Cause Why Declaratory ReliefShould Not Be Granted- Page 14

App. 259

precedent which limit the withdrawal to the period before the Petition is deemed sufficient gives
a reasonable time for reconsideration to the signer, and also protects the petition when
completed. As one Indiana court concluded:
"Great numbers of electors might desire to cast their ballots might be cheated and defrauded
out of their right to have their names on the ballots by bad-faith pretended supporters
procuring the opportunity to sign their petitions, and afterwards withdrawing names."

State ex rel. Harry v. Ice (1934) 207 Ind 65, 191 NE 155, 92 ALR 1508.
In fact, under the rule Plaintiffs ask this Court to adopt, it would create an impossibility
ofreaching the final act. To count the primary votes that have been cast and counted for
candidates running for a party's nomination, candidates must have the ability to file for
candidacy for the party's nomination. Primary votes cannot be cast for a party's nomination of a
minor party unless and until the minor party has been certified as eligible per MCA § 13-10-601.
The Secretary of State is obligated to certify the ballot names and designations by March
19. Mont. Code Ann. § 13-10-208. The Secretary is unable to do so if any Green Party
candidate's eligibility remains in limbo.

A. Plaintiffs Own Conduct Acknowledges the Deadline
MDP began a widespread effort using all platforms to broadcast the narrative included in
their complaint months before the Green Party was certified as eligible to participate in the 2020
election. MDP's campaign was redistributed by affiliates and members throughout the lengthy
campaign.
The closer the deadline for withdrawing signatures neared, the urgency of MDP's actions
escalated. In the final days before certification, MDP's campaign included red siren emojis,
"URGENT" in all capital letters, "Alert", and/or a graphic containing a red triangle surrounding
an explanation point with bolded letters reading "IMPORTANT" in all capital letters. See, James

Defendants' Brief in Support of Motion to Dismiss and Brie/Showing Cause Why Dec/arato,y ReliefShould Not Be Granted- Page 15

App. 260

Deel. Exs. 1. The campaign was redistributed by local affiliates, candidates, and elected board

officers of the MDP.
In response, several original signatories withdrew their signature from the minor party
petition. Similarly, the campaign motivated some individuals to submit withdrawal forms despite
never signing the minor party petition in the first place. However, even after subtracting the
withdrawing signers, the petition overwhelmingly received signatures sufficiently satisfying
statutory requirements. Plaintiffs' filings ignore this fundamental, crucial fact.

IV.

Plaintiffs' Are Not Entitled To Equitable Relief
A. The Equities Do Not Support Plaintiffs' Position
Look no further the merits of the authority cited by Plaintiffs, and it is clear they are

unlikely to succeed in this case. The alleged injury claimed by Plaintiffs of being associated with
the Green Party is undermined by Plaintiffs own complaint depicting active association,
advocacy, and involvement with MDP-including their involvement in this lawsuit. Especially
considering the Plaintiff individuals that filed timely withdrawals were removed as signatories of
the petition and not included in the certification.
Plaintiffs emotional reaction about financial backers of signature gathering is far
outweighed by the tremendous amount of resources involved by state and local election officials
preparing and printing the ballot under contractual obligations and administering the election.
Among other reasons, the public interest demands defending against an attempt to silence the
thousands of Montanans that cast a ballot to select Green Party candidates in the primary
election, and the personal investment and interest by Green Party candidates in all races to make
their case to the voters leading up to the 2020 Election.

Defendants' Briefin Support ofMotion to Dismiss and Brie/Showing Cause Why Declaratory ReliefShould Not Be Granted- Page 16

App. 261

B. Equitable Principles Such as Laches And Unclean Hands Further Precludes
Plaintiffs' Requested Relief
The equitable affirmative defenses of "Lach es" and "Unclean Hands" bar Plaintiffs
flawed attempt at obtaining equitable relief. They sat for over three months until after voters
selected Green Party candidates in the June 2020 primary election before serving this lawsuit
with the plea of expediency. In doing so, they cried foul over alleged expenditures by a major
party in minor party politics.

i)

Laches

This case exemplifies application of the maxim that "one who seeks the help of a court of
equity must not sleep on his rights". The lack of diligence by the Democratic Party is evident.
Within hours of certification the Montana Democratic Party retained Mr. Meloy as counsel, who
then filed the first of several public records requests to obtain the signature report. Corson Deel.

if55. Despite this, MDP

and the Green Party slept as citizens paid the filing fee to seek

nomination as a Green Party candidate in numerous races. MDP and the Green Party remained
silent as state and county public resources paid by the taxpayer facilitated the Green Party's
primary election and remained so when voters received their ballot. MDP allowed time to
continue to disburse as some county election officials tabulated write-in nominations and tallied
votes by contested races.
ii)

Alternatively, "Unclean Hands"

MDP enters the court with unclean hands. is an unclean litigant. MDP funded and filed
this lawsuit to remove the Green Party from the ballot, crying foul that a party allegedly funded
efforts to qualify the Green Party for the ballot, while MDP funded efforts encouraging citizens

Defendants' Brief in Support of Motion to Dismiss and Brie/Showing Cause Why Declaratory ReliefShould Not Be Granted- Page 17

App. 262

not to originally sign the petition and obtain withdrawals of signature to campaign against Green
Party qualification.
Moreover, MDP solicited individuals to file as Green Party candidates immediately after
the Green Party had been certified rather than timely challenge the certification. As was publicly
reported, MDP put up a US Senate candidate for the Green Party as an attempt to thwart the
election. MDP hoped their candidate would with the Green Party primary, then pull out,
stripping the Green Party from having a candidate in the US Senate Race. 8 After MDP's third
attempt at eliminating the Green Party from having a candidate in the race failed, MDP filed this
lawsuit seeking to eliminate the Green Party's eligibility for the 2020 election entirely. MDP has
unclean hands. Remarkably, the "real" Green Party did absolutely nothing.
CONCLUSION

Plaintiffs Complaint should be dismissed without hearing or additional proceedings. In
the alternative, because Defendant has shown ample cause why Plaintiffs are not entitled to
injunctive and other relief they request, a process including discovery and trial on the merits
would be afforded.
Submitted this 19th day of June, 2020.

Aus
a'mes
Chief Legal Counsel
Secretary of State's Office
P.O. Box 202801
Helena, MT 59620-2801
406-444-2034
Austin. jarnes(c£)mt.gov
Assistant Attorney General
8

See, "MT Green Party candidates: One says, 'don't vote for me' But wants to win Green Party
U.S. Senate primary", KTVH, Dennison, Mike (06/01/2020).
Defendants' Brief in Support of Motion to Dismiss and Brie/Showing Cause Why Declaratory ReliefShould Not Be Granted- Page 18

App. 263

CERTIFICATE OF SERVICE
I certify that a true and correct copy of the foregoing was delivered by email and
US Postal mail to the following on June 19, 2020.

Hon. Kathy Seeley
228 Broadway, Room 104, Helena, MT, 59601
PO Box 158, Helena, MT, 59624-0158
Peter Michael Meloy
MELOY LAW FIRM
P.O. Box 1241
Helena, MT 59624
(406) 442-8670
mike@meloylawfirm.com
Matthew Gordon
PERKINS COIE LLP
1201 Third Ave., Suite 4900
Seattle, WA 98101
(206) 359-8000
mgordon@perkinscoie.com

Defendants' Brief in Support of Motion to Dismiss and BriefShowing Cause Why Declarato1y ReliefShould Not Be Granted- Page 19

App. 264

App. 265

App. 266

App. 267

App. 268

App. 269

App. 270

App. 271

App. 272

App. 273

App. 274

App. 275

App. 276

App. 277

App. 278

App. 279

App. 280

App. 281

App. 282

App. 283

App. 284

App. 285

App. 286

App. 287

App. 288

App. 289

App. 290

App. 291

App. 292

App. 293

App. 294

App. 295

Edward D. Greim, pro hac vice
GRAVES GARRETT, LLC
1100 Main Street, Suite 2700
Kansas City, Missouri 64105
Tel.: (816) 256-3181
Fax: (816) 222-0534
edgreim@gravesgarrett.com
Chris J. Gallus
GALLUS LAW
1423 Otter Rd.
Helena, Montana 59602
Tel.: (406) 459-8676
chrisjgalluslaw@gmail.com

IN THE MONTANA FIRST JUDICIAL DISTRICT COURT
LEWIS AND CLARK COUNTY
MONTANA DEMOCRATIC
PARTY, TAYLOR BLOSSOM,
RYAN FILZ, MADELEINE
NEUMEYER, and REBECCA
WEED,
Plaintiffs,

Case No. CDV-2020-856
Brief of Amici Curiae- Petition
Signers Lorrie Campbell And Jill
Loven

v.
STATE OF MONTANA, by and
through its SECRETARY OF
STATE, COREY STAPLETON,
Defendant.

App. 296

TABLE OF CONTENTS
TABLE OF AUTHORITIES

iii

INTRODUCTION

1

FACTS

1

ARGUMENT
I.

II.

4
The proponents of Green Party ballot access, including the absent
Green Party candidates and the Amici-Signers, have a First
Amendment right to effectively associate through Montana’s party
qualification petition process.

4

Accepting Plaintiffs’ proposed post-turn-in withdrawals renders
the Applicants’ association ineffective, violating their First
Amendment rights.

5

a.

Post-turn-in withdrawals make it impossible to mount an
effective campaign to qualify a party for the ballot.

6

b.

Montana’s petition process worked until now because it long ago
aligned itself with every other state by holding that petition
withdrawals must be before sufficiency is determined and must
observe the same formalities as petition signatures.

7

The combined impact of Plaintiffs’ requested concessions will
make the petition process a completely ineffective means of
associating for political change.

9

c.

III.

Plaintiffs’ asserted right to withdraw is defeated by Amici-Signers’
superior constitutional claim.

10

a.

Plaintiffs’ claims fail as a matter of state statutory and common
law.

10

b.

The Two Remaining Individual Plaintiffs’ constitutional claims
to withdraw by DocuSign, long after the Secretary’s final act,
must yield to petition proponents’ right of effective political
association.

13

i.

Plaintiffs’ lack standing to seek the requested relief.

13

ii.

These facts do not implicate the right not to associate.

14

i

App. 297

1.

2.

3.
IV.

The “right not to associate” does not include the
right to erase the consequences of an association
after it is completed.

14

Plaintiffs’ requested relief is disproportionate to
their injury, and fails to account for petition
proponents’ right to effective association and the
Green candidates’ and voters’ rights.

15

The Plaintiffs’ rights must yield to the proponent
petition signers.

15

The requested relief is not an appropriate remedy for the lack of a public
service announcement by the Secretary stating the deadline for submitting
withdrawals.

17

CONCLUSION

19

CERTIFICATE OF SERVICE

21

ii

App. 298

TABLE OF AUTHORITIES
CASES
Allen v. Lakeside Neighborhood Planning Comm.
371 Mont. 310, 308 P.3d 956 (2013)
Am. Party of Texas v. White
415 U.S. 767, 94 S. Ct. 1296, 39 L. Ed. 2d 74 (1974)
Anderson v. Celebrezze
460 U.S. 780 (1980)

18
5, 16
4, 5, 13

Brown v. Socialist Workers ’74 Campaign Committee
459 U.S. 87, 103 S. Ct 416, 74 L.Ed.2d 250 (1982)

14

Bryan v. Yellowstone Cnty. Elem. Sch. Dist. No. 2
312 Mont. 257, 60 P.3d 381 (2002)

17

Buckley v. Am. Constitutional Law Found., Inc.
525 U.S. 182, 119 S. Ct. 636, 142 L. Ed. 2d 599 (1999)

5

Clingman v. Beaver
544 U.S. 581 (2005)

4

Commonwealth ex rel. Meredith v. Fife
288 Ky. 292, 156 S.W.2d 126 (1941)

7

Cousins v. Wigoda
419 U.S. 477, 95 S. Ct. 541, 42 L.Ed.2d 595 (1975)

14

Emerson-Brantingham Implement Co. v. Anderson
58 Mont. 617, 194 P. 160 (1932)

12

Ford v. Mitchell
103 Mont. 99, 61 P.2d 815 (1936)

8, 11, 12, 16, 17, 19

Healey v. James
408 U.S. 169, 92 S. Ct. 2338, 33 L.Ed.2d 266 (1972)

14

Healey v. Rank
82 S.D. 54, 140 N.W.2d 850 (1966)

7

In re Initiative Petition No. 2, City of Chandler
1935 OK 139, 170 Okla. 507, 41 P.2d 101

7
iii

App. 299

Jenness v. Fortson
403 U.S. 431, 91 S. Ct. 1970 (1971)

5

Larson v. State
394 Mont. 167, 434 P.3d 241 (2019)

11, 12, 15

Meyer v. Grant
486 U.S. 414 (1988)

4

Nader v. Brewer
531 F.3d 1028 (9th Cir. 2008)

5

Norman v. Reed
502 U.S. 279 (1992)

4

Powers v. Carpenter
203 Ariz. 116, 51 P.3d 338 (2002)

16

Rekart v. Kirkpatrick
639 S.W.2d 606 (Mo. banc 1982)

6

Republican Party of Minn. V. White
536 U.S. 765, 122 S. Ct. 2528, 153 L.Ed.2d 694 (2002)

10

Roberts v. U.S. Jaycees
468 U.S. 609, 104 S.Ct. 3244, 82 L.Ed.2d 462 (1984)

14

SJL of Mont. Assoc’s. Ltd. Part. v. City of Billings
263 Mont. 142, 867 P.2d 1084 (1993)

17

State v. Anderson
92 Mont. 298, 13 P.2d 231 (1932)

12

State, ex rel. Harry v. Ice
207 Ind. 65, 191 N.E. 155 (1934)

7

State ex rel. Lang v. Furnish
48 Mont. 28, 134 P. 297 (1913)

16

State ex rel. O’Connell v. Mitchell
111 Mont. 94, 106 P.2d 180 (1940)

8, 17

State ex rel. v. Westhues v. Sullivan
224 S.W. 327 (Mo. banc 1920)

8

iv

App. 300

Uhl v. Collins
217 Cal. 1, 17 P.2d 99 (1932)

6

Wash. State Grange v. Wash. State Rep. Party
552 U.S. 442 (2008)

17

Willems v. State
374 Mont. 343, 325 P.3d 1204 (2014)

18

CONSTITUTIONAL PROVISIONS
Mont. Const., art. II, § 6

10

Mont. Const., art. II § 7

10

Mont. Const., art. II § 8

17

Mont. Const., art. II § 9

17

U.S. Const., amend. I

10

STATUTES
§ 2-3-114, MCA

18

§ 13-10-601, MCA

1, 11

§ 13-27-103, MCA

12

§ 13-27-303, MCA

12

OTHER
42 Am.Jur.2d, Initiative Referendum § 31 (1969)

8

v

App. 301

INTRODUCTION
Amici Curiae Campbell and Loven signed the petition to qualify the Green Party for
primary ballot access. Loyalists of opposing major parties, they both believe the Green Party
deserved to have its voice heard, and both found it irrelevant that the Republican Party funded a
petition effort that gave voice to over 1,000 Green Party primary voters and a slate of Green
Party general election candidates. Like 13,000 other petition signers, they were glad to see the
Secretary of State certify the petition, and for the next three months, resisted an intense push by
the Montana Democratic Party (MDP) to withdraw their signatures. They appeared here to assert
First Amendment rights that directly oppose those asserted by the Individual Plaintiff-signers.
The Individual Plaintiffs claim their Montana constitutional rights “not to associate” with
Republicans should be enforced not against the Republicans, but against absent non-dissenting
petition signers like Amici, absent Green Party candidates, and Green Party voters who cast
primary ballots in their favor and would support them in the general election. All parties agree
that when the Supreme Court created the common law right to withdraw, it imposed limits. They
are immovable because they mark the dividing line between the state-protected rights of the
Individual Plaintiffs and the First Amendment rights to effective association enjoyed by these
Amici, Green candidates, and thousands of other absent parties with real interests at stake. Other
non-legal factors—such as notice given by the Secretary—affected both sides of this dispute, and
ultimately cannot become a basis for retroactively rewriting the rules on a grand scale, long after
the petitioners could have reacted to protect their own rights. In short, there is no basis for the
Court to grant preliminary relief eliminating the Greens’ ballot access and destroying the
effectiveness of Amici’s First Amendment-protected association.
FACTS
In early 2020, over 13,000 Montana voters, including Lorrie Campbell and Jill Loven,
(“Amici-Signers”) signed a petition to qualify the Green Party to hold a primary, stating: “We,
the undersigned and registered voters of the state of Montana hereby request that in accordance
with 13-10-601, MCA, the names of the candidates running for public office from the Green
Party be nominated as provided by law.” Circulators turned in the signatures to county clerks by
March 2; the petition was certified on March 6th; Green candidates filed nominating papers by
March 9; and the Secretary certified all of the Green Party ballots to county clerks by March 19.

1

App. 302

The Green Party primary ballots were immediately designed and printed; mailed to
overseas voters after printing, no later than April 17; and mailed to absentee list voters, and to all
voters where election authorities chose to vote by mail due to Covid (see Exhibit 1, referencing
the Governor’s Executive Order allowing this) by May 8. Only in-person voting remained for
June 2. See Defendants’ Exhibit 1. Between April 17 and June 2, over a thousand voters picked
the Green Party primary ballot (disqualifying them from choosing any other ballot), qualifying
several Green Party candidates for the general election for Montana state and federal offices.
On June 1, 2020, Plaintiffs filed this action seeking not only to invalidate the four
individual Plaintiffs’ signatures, but also to nullify the ongoing primary election by giving effect
to all purported “withdrawals” harvested by the MDP. Plaintiffs introduced no evidence on why
they waited until June 1 to file. The MDP began its campaign over three months earlier, in late
February, a few weeks before petition proponents’ March 2 deadline to submit their petitions.
From the very start, the MDP persuaded signers to withdraw their support for Green Party ballot
access by stating that the petition was a fraudulent, non-Green effort. At trial, the MDP
introduced two purported Green Party Facebook posts: one from February 13 (Ex. 10) stating
that the Greens were not collecting signatures; and one from April 14 (Ex. 14) telling voters to
“ask” Green candidates “to account for their belief in a platform.” Plaintiffs called no Green
witnesses to establish basis of these statements or the authority for assuming they were held by
most Greens. Yet the MDP used these posts, and articles quoting them, for its campaign.
Likewise, the MDP’s evidence regarding signers’ reactions to this message was hearsay (as to
the twelve calls made by its operative Kendra Miller) or double-hearsay (as to Miller’s claims
about how signers reacted during MDP staff’s thousands of other calls).
Of the four withdrawer-Plaintiffs, none testified they had ever planned to vote for a
Green; rather, they viewed the party’s message favorably. Nor did Plaintiffs testify they heard a
false statement from the petition circulators, whose petitions stated: “The principle represented
by the Party is Environmental and Social Justice.” Plaintiff Filz did not appear or testify.
Plaintiffs Weed and Blossom testified that they sought to withdraw after the MDP told them in
February 2020 that the Greens were not behind the effort. The facts showed that their
withdrawals were submitted on or before March 6 and their original signatures were not counted
toward the total. Plaintiff Neumeyer testified that the MDP did not contact her until March, and
she agreed to withdraw after being told the Republicans had hidden their support for the effort.
2

App. 303

She testified that she immediately went to the Lewis & Clark County Elections Office, but was
told it was too late to withdraw. After she reported this to the MDP that same March day, it
emailed a DocuSign form that she immediately signed and returned to the MDP. It stated: “I
want to remove my name from the Green Party Political Qualification Petition. However, due to
public health concerns regarding COVID-19 and the need to minimize nonessential travel and
maintain social distancing, I am unwilling at this time to obtain notary services or go to the
county elections office to submit the attached Request for Withdrawal of Signature form.”
Lorrie Campbell, like the four Plaintiffs, is a strong Democratic Party supporter,
supported Green Party ballot access because she believes its voice should be heard, and intends
to vote for Democratic candidates this fall. Jill Loven is a strong Republican Party supporter,
supported Green Party ballot access because she believes its voice should be heard, and like all
of the other individuals on both sides of the case, still intends to vote with her own party this fall.
While the four withdrawer-Plaintiffs say they are among hundreds who changed their minds
about supporting Green Party ballot access when learning it had either outside support or
Republican support, Amici-Signers Campbell and Loven are among thousands who did not.
The Green Party and its candidates were not brought into the case by Plaintiffs. No
Plaintiff testified that they had actually acquainted themselves with the Green candidates’
positions, believed that they were inconsistent with that of the Green Party, or believed that the
candidates’ or Green Party’s positions should disqualify them from ballot access. Therefore,
where the withdrawing Plaintiffs differ with the Amici-Signers is in their estimation as to
whether it matters that the Republican Party put money behind its own belief that these
candidates’ voices could help Republicans. The two remaining Plaintiffs who find this fact
dispositive argue that it tips the scales against Green Party ballot access, regardless of whether
their fellow petition-signers such as Campbell and Loven agree with them, and regardless of
whether the actual Green Party candidates and voters who participated in the primary also share
that belief. Specifically, the individual Plaintiffs claim that their Montana constitutional “right
not to associate” trumps the conflicting First Amendment “right to effectively associate” that was
asserted by Campbell and Loven in their attempted intervention, but that—in contrast to these
two remaining Plaintiffs’ claimed rights—cannot be asserted in this Court.
Directly opposing these two remaining Plaintiffs’ positions are Amici-Signers Campbell
and Loven. They urged in their Motion to Intervene, and urge again here, that this Court cannot
3

App. 304

sustain Plaintiffs’ claimed rights to withdraw signatures until June 1, and via DocuSign, a degree
of formality far below what is required to sign a petition in the first place. If this is what Montana
allows, it renders illusory the right of minor party ballot access supporters such as Campbell and
Loven to meaningfully and effectively petition the state for ballot access. Here, this Court has
two individual Plaintiffs and two Amici-Signers, all original petition signers who now come to
this Court from two different camps: one camp of hundreds that chose to withdraw and one camp
of thousands that did not waver. If this Court reviews the Plaintiffs’ Cross-Motion for Summary
Judgment on the DocuSign issue, it will find that the Plaintiffs rely on the same First
Amendment case law to support their claimed right to withdraw (late, via DocuSign) that the
Amici-Signers cite to support their right not to have the petition undermined by late, DocuSigned
withdrawals. The parties’ claims of constitutional rights could not be more directly opposed.
Even though this Court denied intervention to Campbell and Loven and has decided to
proceed without the Green Party or its candidates, it must consider all of these parties’ First
Amendment rights to effective association in deciding whether to allow months-after-the-fact
withdrawals by DocuSign. The evidence showed that the Plaintiffs can only prevail if both (1)
withdrawals through late May are allowed; and (2) DocuSigned withdrawals are allowed. As
shown below, even if this Court becomes the first Montana court to find that state law allows
this, the absent parties’ First Amendment right to effectively associate prohibits it.
ARGUMENT
I.

The proponents of Green Party ballot access, including the absent Green Party
candidates and the Amici-Signers, have a First Amendment right to effectively
associate through Montana’s party qualification petition process.
Associating to promote political goals, including signing a petition, is protected under the

First Amendment. Clingman v. Beaver, 544 U.S. 581, 586 (2005); Norman v. Reed, 502 U.S.
279, 288 (1992); Anderson v. Celebrezze, 460 U.S. 780, 793 (1980). More specifically, the First
Amendment protects the right to make that association effective: “to associate in the electoral
arena to enhance their political effectiveness as a group.” Anderson, 460 U.S. at 793. This
particular facet of the First Amendment—a guarantee that a state petition process will not impose
undue burdens on gathering sufficient signatures—protects petition proponents like the AmiciSigners. See Meyer v. Grant, 486 U.S. 414, 421-22 (1988) (striking down restrictions that made
it more difficult to amass petition signatures, and holding that “…[T]he circulation of a petition
4

App. 305

involves the type of interactive communication concerning political change that is appropriately
described as ‘core political speech.’”); Nader v. Brewer, 531 F.3d 1028 (9th Cir. 2008) (finding
residency and filing deadline provisions of Arizona law unconstitutional because they unduly
burdened process by which independent candidate gathered signatures to gain ballot access);
accord Buckley v. Am. Constitutional Law Found., Inc., 525 U.S. 182, 186–87, 119 S. Ct. 636,
639–40, 142 L. Ed. 2d 599 (1999) (invalidating Colorado requirements, including that petition
circulators disclose funders to potential signers, and holding that First Amendment protection for
the petition process is “at its zenith”). Thus, petition proponents like the Amici are protected
from state law that renders petition procedures ineffective for achieving political change.
The First Amendment’s coverage of this right is apparently a point of agreement among
all parties; Plaintiffs argue it protects their own rights to associate in a signature-withdrawal
effort. See Plffs’ Br. Support Cross-Motion for Summary Judgment and in Opp. to Defendant’s
Motion for Summary Judgment, pp. 13-14. If the First Amendment protects the Plaintiffs’ right
to effectively join together to submit withdrawal signatures, it surely protects the Amici-Signers’
right to effectively join together to submit signatures qualifying the Green Party in the first place.
II.

Accepting Plaintiffs’ proposed post-turn-in withdrawals renders the Applicants’
association ineffective, violating their First Amendment rights.
Accepting Plaintiffs’ theories renders illusory the right Montana granted to qualify minor

parties by the petition process. Am. Party of Texas v. White, 415 U.S. 767, 783, 94 S. Ct. 1296,
1307, 39 L. Ed. 2d 744 (1974) (citing Jenness v. Fortson, 403 U.S. 431, 439, 91 S.Ct. 1970, 1974
(1971) (“The Constitution requires that access to the electorate be real, not ‘merely theoretical.’”).
As shown below, Plaintiffs’ rewrite of Montana law would render minor party ballot access
“merely theoretical,” not something that can realistically be achieved. While voters must strictly
follow petition requirements, their opponents could easily nullify those efforts using means as
simple as a phone campaign 1 targeted to the nearest-margin districts. It is even easier where, as
here, the campaign can last three whole months after the petition has been deemed sufficient.
1

In their Cross-Motion for Summary Judgment, Plaintiffs admit, as they must, that their
proposed standard for withdrawals is so lax that a mere email or phone call to a local election
administrator is sufficient to remove a petition name. Plffs’ Br. Support Cross-Motion for
Summary Judgment and in Opp. to Defendant’s Motion for Summary Judgment, p. 7, n. 3. There
is no requirement and no process for ensuring that the request is knowing and authentic.
5

App. 306

That task is rendered even easier using DocuSign. Direct human contact is no longer
necessary, and it is easy to pressure a stranger over email, text, or voicemail. Here, MDP’s
campaign from late February to late June was waged by serial texts and messages to thousands of
targeted signers, claiming the petition was the result of a “fraud” and imploring them to “clear
their names,” as if the signers themselves stood accused of participating in the fraud. Taken
separately, as shown below, each of Plaintiffs’ proposals for loosening existing requirements
regarding withdrawals can and should be rejected as a matter of state law. But considering their
cumulative effect—as the Court must, since Plaintiffs must win on nearly every issue in order to
cross the finish line—Plaintiffs’ proposed rewrite of Montana’s nominating petition standards
renders the process an easily-gamed sham. It therefore violates the First Amendment rights of
voters like Ms. Campbell and Ms. Loven who had a right to expect an effective petition process.
a. Post-turn-in withdrawals make it impossible to mount an effective campaign
to qualify a party for the ballot.
Across the country and across the decades, court after court has recognized that allowing
withdrawals after the proponents’ filing deadline – at which point no further signatures in
support may be submitted – is “unworkable,” making it so impossible to mount a petition
campaign that it jeopardizes the petition right itself. See Rekart v. Kirkpatrick, 639 S.W.2d 606,
608 (Mo. banc 1982) (“To permit withdrawals after the petition is completed and filed, and the
work of securing signatures abandoned, seems to us to make the system wholly unworkable. We
do not believe that this mere implied power of the signer, which is not expressly provided for in
our Constitution or statutes, can be used so as to jeopardize the exercise of the constitutional
right itself.”). And California held long ago:
…if the alleged right of withdrawal, based upon change of mind, is to be
exercised to the destruction of the initiative procedure, then we may well question
its justification. In order to accomplish anything, the proponents of a measure
must be able to rely upon signatures obtained, and, if continually forced to seek
new ones to take the place of withdrawals, may never be able to prepare a proper
petition within the limited period which usually exists. To permit withdrawals
after the petition is completed and filed, and the work of securing signatures
abandoned, seems to us to make the system wholly unworkable.
Uhl v. Collins, 217 Cal. 1, 4, 17 P.2d 99, 100 (1932).
The problem is not merely that proponents will never know how many of their gathered,
pre-validated signatures they can rely on. In a months-long post-submittal period, one party will
6

App. 307

have a free hand to cajole and threaten individual signers by name, privately subjecting each of
them to a degree of pressure and attention that is completely lacking from a normal circulatorsigner interaction in the everyday course of business. See, e.g., State ex rel. Harry v. Ice, 207 Ind.
65, 191 N.E. 155, 156 (1934) (“If nominating petitioners are permitted to withdraw their names
after opportunity for supplying additional names, or filing new petitions, has passed, a very
patent door to chicanery and fraud upon the voters and the community is provided.”);
Commonwealth ex rel. Meredith v. Fife, 288 Ky. 292, 156 S.W.2d 126, 127 (1941) (post-turn-in
withdrawals were prohibited, since otherwise the right to a public vote could be defeated by
deception and fraud in that after the advocates of an election had filed what they thought was a
sufficient petition and it was too late to file a new petition, the election could be prevented by
having signers of the original petition withdraw.). Unlike the petition-gathering process, in which
counter-petition efforts frequently interact in the open with circulators and petition-signers, the
issues are debated simultaneously, and petition supporters can gauge the effect of counter-efforts
and if necessary persuade new groups of voters, the withdrawal process happens in private and in
secret, with no further participation by the proponents.
In conclusion, a petition —which by definition requires an ascertainable, verifiable list of
names—simply cannot work if an entire withdrawal campaign can be mounted after the
proponents must stop gathering signatures.
b. Montana’s petition process worked until now because it long ago aligned
itself with every other state by holding that petition withdrawals must be
before sufficiency is determined and must observe the same formalities as
petition signatures.
When citizen petitions were still a new innovation, Montana joined the many states 2 who
prohibit withdrawals after signature turn-in, or at least after the official charged with accepting

2

In addition to the state court decisions cited above, see also Healey v. Rank, 82 S.D. 54,
58, 140 N.W.2d 850, 852 (1966) (“We think it is not unreasonable to hold, and in fact both good
conscience and sound public policy dictate, that the signer of a purely political petition, such as
one nominating a candidate for office or requesting the submission of a question at an election, is
under an obligation to his fellow signers not to withdraw his name from such petition at a time
when it is too late for the addition of names or the effective filing of a new petition.”); In re
Initiative Petition No. 2, City of Chandler, 1935 OK 139, 170 Okla. 507, 41 P.2d 101, 102
(“Each petitioner acts on his own responsibility and if he should change his mind, or if he should
have been induced to sign under misapprehension or through undue influence, he ought to have
the right to correct his mistake, if he does so before the rights of others have attached by final
7

App. 308

the petition has taken final action to determine its sufficiency. Ford v. Mitchell, 103 Mont. 99, 61
P.2d 815, 821-822 (1936) (collecting earlier Montana cases, and finding that “the right to
withdraw exists until the secretary of state has finally determined, in the manner provided by
statute, that the petition is sufficient.”) In State ex rel. O'Connell v. Mitchell, 111 Mont. 94, 106
P.2d 180, 181 (1940), in the absence of an express deadline on signature withdrawals for an
initiative petition, the Montana Supreme Court applied the “final act” rule. In doing so, it found
that the rule did not render the initiative procedure “unworkable”, implying that a withdrawal
deadline which does render the process unworkable would be held in disfavor.
Montana also adopted the rule, again following authority from across the country, that
withdrawals must be proven with the same formality as the petition signatures they seek to
remove. Ford v. Mitchell, 61 P.2d at 821 (holding that if withdrawals are to be allowed, they
must be completed “in an appropriate manner,” and finding that certification on withdrawal
petition was sufficient because it was identical to the certification required on the underlying
initiative petition). Ford cited State ex rel. Westhues v. Sullivan, 224 S.W. 327, 339 (Mo. banc
1920), in which the Missouri Supreme Court refused to recognize withdrawals via postcards that
had been supplied by the person challenging the petition. It reasoned:
To obviate fraud the statute… requires that each sheet of the petition shall be
verified by the affidavit of the circulator… in which affidavit such circulator shall
give the names of the signers thereon, and make oath that they signed it in his
presence and other matters named in the statute, supra. The very purpose of the
statute in requiring this formality was to obviate fraud. To get off of such a
petition the action of the signer should be at least as formal. His request should at
least be verified by his affidavit before some officer. This to the end that the
secretary of state might know that the signature to the request was genuine. A
mere postal card or letter purporting to be signed by a signer of the petition is not
sufficient. Such course would open wide the gates for fraud. These alleged
withdrawals cannot be considered.
Westhues, 224 S.W. at 339. Montana adopted the Westhues rule 80 years ago and until June 1,
2020, it has never been called into question.

action on the part of the officers or board to whom the petition is addressed”) (emphasis added);
42 Am.Jur.2d, Initiative and Referendum § 31 (1969) (“[W]here a statute prescribes a certain
time within which a referendum petition may be filed, generally signers of the instrument may
withdraw therefrom at any time during the period allowed for filing but not after the expiration
of that period.”)
8

App. 309

c. The combined impact of Plaintiffs’ requested concessions will make the
petition process a completely ineffective means of associating for political
change.
Here, Plaintiffs can only prevail if Montana retroactively jettisons two long-established
protections for petitioning voters by (1) extending the allowable withdrawal period for months
after the petition was turned in and deemed sufficient; and (2) allowing DocuSign—the modernday equivalent of postcards or phone calls—to suffice as proof of a withdrawal. Montana’s
courts cannot now change the rules, as it will render minor party ballot access by petition a
“theory” rather than a usable system for winning voter support.
First, if withdrawals need not be received by petition turn-in, or at least within the few
additional days it requires for the Secretary to find that the petition has sufficient signatures, a
petition drive will consist of two separate campaigns. In the first campaign, circulators will have
to follow strict rules regarding the form of the petition, all of which are meant to deter fraud.
This includes a verification that the named individuals did indeed present themselves to the
circulator and sign, and that they knew what they were signing. The circulator’s affidavit is then
notarized. Proponents keep careful track of the number of signatures gathered in different areas
and validate those signatures by matching them to Montana’s voter database, giving them some
sense of where they stand in meeting statutory requirements. Opponents are free to counteract
circulators by following them and attempting to discourage voters from signing—a frequent
tactic—and are free as the MDP did for weeks before turn-in to mount withdrawal campaigns.
Proponents, in turn, can observe and respond to the opponents’ message as they talk to voters in
the field. Just as important, they can monitor their own petition results, and will have some sense
of who has signed to become part of their association. Most petitioners now have access to state
voter files, so that they can also determine which signatures are valid, and in what districts. If the
opponents’ counter-message begins to resonate and withdrawals are filed, proponents can gather
even more signatures. It is this basic transparency and predictability—knowing who has signed
on to join the team as the campaign draws to a close—that gives political supporters the
confidence that a petition can be effective, and to commit their time and money to the petition
process. Lacking this, what minor party ballot access supporter would rationally make the effort?
If Plaintiffs have their way, every ballot access effort will now have a second phase.
Unlike the first phase, only the opponents will hold the key to membership in the petition9

App. 310

association. The petition will essentially become theirs. Having gained the advantage of seeing
the proponent’s hand and reserving all of their resources for phase two, opponents have the
luxury of running a targeted pressure campaign. Rather than approaching the general population,
they will be able to pick off specific individuals in specific areas where the proponents’ margin
was thinnest. Using modern data mining tools, they can obtain phone numbers and email
addresses and continually pressure their targets in private and in secret, with no further
participation by the proponents. Many former supporters, repeatedly pressed and presented with
only the opponents’ facts, may take the easy route and withdraw.
Once the campaign-after-the-campaign becomes the rule, petition proponents will never
be able to predict how many signers will change their minds or succumb to pressure during this
extended “withdraw-only” phase. In a real sense, a proponent can never gather enough signatures
because opponents will have months to sit back and bombard signers with texts and emails,
picking off voters one by one. This will certainly chill future ballot access efforts.
In conclusion, states do not need to use nominating petitions to allow minor party ballot
access. But once they do so, states must afford proponents a process that gives real effect to their
political association and speech. “If the State chooses to tap the energy and the legitimizing
power of the democratic process, it must accord the participants in that process ... the First
Amendment rights that attach to their roles.” Republican Party of Minn. v. White, 536 U.S. 765,
788, 122 S.Ct. 2528, 153 L.Ed.2d 694 (2002) (internal quotation marks and ellipsis omitted).
Because it fails to provide a predictable process, Plaintiffs’ theory, if this Court were to now
adopt it as Montana law, would infringe on proponents’ rights under the First Amendment to the
United States Constitution and Article II, Sections 6 and 7 of the Montana Constitution by
undermining their rights to petition, to vote, and to access the State’s primary processes.
III.

Plaintiffs’ asserted right to withdraw is defeated by Amici-Signers’ superior
constitutional claim.
a. Plaintiffs’ claims fail as a matter of state statutory and common law.
All parties agree that withdrawals must be submitted before “final action is taken on the

petition.” State v. Mitchell, 111 Mont. 94, 106 P.2d 180, 181 (1940). Final action here was
March 6, 2020, when the Secretary certified the Green Party petition, thereby permitting its
10

App. 311

candidates and voters to participate in the primary election. No more was necessary. 3 Here, this
deadline is dispositive as to all claims, because the Party easily qualified after accounting for all
withdrawals through March 6, 2020. With respect to individuals, Plaintiffs Filz and Neumeyer
failed to submit withdrawals before final action was taken on March 6, 2020. 4 Plaintiffs Blossom
and Weed did in fact sign withdrawals that were accepted and honored by the Secretary. Since
being included on the petition and not having their withdrawals process was the basis for their
complaint, it is now clear that they have suffered no injury and lack standing to assert the claims
alleged. The claims of all four Plaintiffs should be dismissed.
Plaintiffs also ask the Court to require the Secretary to accept withdrawals executed using
DocuSign, electronic document software the MDP began to use in late March or early April,
long after the petition was certified. Aside from the timeliness issue, the DocuSign withdrawals
fail because the common law right to withdraw requires (as this Court observed at the hearing)
use of at least the same formality required for the initial signature. Ford v. Mitchell, 61 P.2d at
821 (holding that if withdrawals are to be allowed, they must be completed “in an appropriate
manner,” and finding that certification on withdrawal petition was sufficient because it was
identical to the certification required on the underlying initiative petition). 5 Plaintiffs’ claim that
Ford allows any affirmative act, such as a phone call, is simply wrong.
Here, the requisite formalities can be found on the original petition form and attached
affidavit. They are strictly enforced: in the 2018 campaign, the Green Party’s last petition failed
because, among other reasons, 36 otherwise-valid signatures were stricken due to the circulator’s

3

Though section 13-10-601 does not specifically task the Secretary with certifying the
minor party petition, he is to collect the verified petitions from the county election authorities
and thereafter determine the contents of the state’s primary ballots. Therefore, in effect, the
Secretary must certify the petition for its placement on the primary ballots. The Montana
Supreme Court’s 2019 decision in Larson supports this proposition by stating the Secretary must
“consider and tabulate” the verified petition signature and thereafter “certify the subject political
party as eligible to nominate candidates for public office.” Larson v. State, 394 Mont. 167, 177,
434 P.3d 241 (2019).
4
Neumeyer’s DocuSign withdrawal was not signed until April 28, 2020. Filz’s withdrawal
was not signed until April 2, 2020. See Plaintiffs’ Ex. 5.
5
The Secretary’s form for withdrawal from all types of petitions other than minor party
petitions includes the same formalities as are required to place ones name on the petition,
including
the
requirement
that
the
withdrawal
form
be
notarized.
See
https://sosmt.gov/Portals/142/Elections/Documents/Officials/Request-for-Withdrawal-ofPetition-Signature.doc
11

App. 312

statement that he had witnessed all of the signatures, when in fact he had not witnessed two. See
Larson v. State of Montana, 434 P.3d 241, 265-266 (Mont. 2019). Other signatures were stricken
because they didn’t match the voter file, didn’t have handwritten names, or were missing dates.
Id. Thus, not only must petitioners “sign” the petition as a matter of law, 6 the circulator’s
affidavit must be true in every respect: “I [name of person who is the signature gatherer], swear
that I gathered the signatures on the petition to which this affidavit is attached on the stated dates,
that I believe the signatures on the petition are genuine, are the signatures of the persons whose
names they purport to be, and are the signatures of Montana’s electors who are registered at the
address or have the telephone number following the person’s signature, and that the signers knew
the contents of the petition before signing the petition.” Section 13-27-303, MCA. As the Court
found, it is the circulator himself, not some other person, who must make this certification to the
local election official. Even demonstrably valid signatures are stricken without this formality.
Regardless of whether the MDP’s DocuSign-and-email system resembles the Secretary’s
form, it falls far short of the strict rule of Larson. Testimony (albeit hearsay) suggested MDP
staffers remotely contacted petition signers, solicited withdrawals, and then used email addresses
to send DocuSign forms. The form was completed remotely and an audit document was created,
but it only showed that the form had come from an email address and a given IP address. There
was no testimony that each staffer followed this process. There was no testimony that each
staffer satisfied himself or herself that the signer had personally appeared—nor could there have
been, because at most there was a remote connection occurring over phone, text, or email. Nor
did each staffer actually swear out an affidavit that this was the case. Finally, no staffer swore
that he satisfied himself that the withdrawers understood what they were signing. Regardless of
whether actual fraud occurred with the DocuSign signatures, it is certain that these steps were not
followed. Because they do not follow the formalities required when a petition signer decides to
add his or her name to a signature, withdrawals submitted by DocuSign are not valid.
Finally, Plaintiffs have failed to present sufficient evidence of fraud to support a decision
to ignore the final act rule in this case. A petition signer seeking an untimely withdrawal based
on fraud must satisfy the normal fraud standard. State v. Anderson, 92 Mont. 298, 13 P.2d 231,
234 (1932) (citing Emerson-Brantingham Implement Co. v. Anderson, 58 Mont. 617, 194 P. 160
6

See Section 13-27-103 (“A signature may not be counted unless the elector has signed in
substantially the same manner as on the voter registration form.”).
12

App. 313

(1920)). To make a sufficient showing of fraud: “it must appear with reasonable certainty that the
party against whom the fraud is alleged made a misrepresentation of a material fact; that he made
it with the intent to induce the other party to act upon it; that the latter believed and relied upon
it; and that he acted upon it to his damage.” Emerson, 194 P. at 164. There is no evidence of a
material misrepresentation by petition circulators to petition signers. 7 Plaintiffs’ fraud claims
fail.
b. The Two Remaining Individual Plaintiffs’ constitutional claims to withdraw
by DocuSign, long after the Secretary’s final act, must yield to petition
proponents’ right of effective political association.
Any concession made to allow the Individual Plaintiffs 8 to withdraw after final action
comes at the expense of the petition proponents that dedicated their efforts and attached their
names to the petition. As explained in Parts I and II, these groups enjoy a right to effective
political association, a right they exercised by engaging in the petition process. See Anderson v.
Celebrezze, 460 U.S. 780, 793 (1980). Petition proponents’ rights under the First Amendment are
violated if opponents, like the Plaintiffs, are permitted to withdraw after final action or in a
manner which has never been permitted under Montana law. Additionally, Plaintiffs’ request
relief—invalidation of the Green Party’s primary—that violates the rights of the candidates who
qualified in the primary.
i. Plaintiffs lack standing to seek the requested relief.
Because the withdrawals of Plaintiffs Weed and Blossom were accepted and the MDP
does not plead its own constitutional claim, the only Plaintiffs that may have standing to assert
constitutional rights are Plaintiff Filz (who never appeared) and Plaintiff Neumeyer, individually.
Yet these Individual Plaintiffs seek not just the withdrawal of their own signatures, but the
wholesale invalidation of the primary results and elimination of ballot access relief for over a
dozen state and federal candidates. For this result to obtain, the Court would have to treat them
as class representatives for hundreds of other Montana electors not before the Court who signed

7

Even if the individual Plaintiffs could have produced sufficient evidence of fraud – which
they did not – the Court’s remedy would be limited to striking Filz’s and Neumeyer’s names
from the Petition. Plaintiffs cannot speak as to the state of mind or reasonable reliance of the
thousands of other petition signers, as they purport to do via their requested relief.
8
The MDP does not, and cannot, assert its own constitutional “right not to associate.”
Thus, only the Individual Plaintiffs can seek relief for themselves under this theory.
13

App. 314

the withdrawals at different times, under different methods, for different reasons. 9 Alternatively,
if Plaintiffs are before this Court as merely two of a mass of late-withdrawing signers seeking to
wield their constitutional rights to negate an entire primary, then this Court must apply the same
rule it applied in denying intervention to the Amici-Signers: they are just two of a mass of nonwithdrawing signers asserting their First Amendment rights not to have the petition and primary
nullified. Either way, these two individual Plaintiffs lack standing to seek the wholesale
invalidation of the petition and the Green candidates’ and voters’ ballot access.
ii. These facts do not implicate the right not to associate.
Plaintiffs’ Count II does not present a justiciable controversy because they allege no
injury-in-fact arising from their theory that they have a “right not to associate.” Plaintiffs do not
assert an injury via association with the Green Party, the party with which they voluntarily
associated by signing the petition at issue. Instead, they argue that they are being “forced” to
associate with the Republican Party. That is simply incorrect. Their alleged connection with the
Republican Party hinges solely on the fact that the Republican Party paid for petition circulators.
Plaintiffs were free to dissociate with the petition when the petition was still an active
association—i.e., when it was being presented to and acted upon by the recipient state officials.
And by Plaintiffs’ own admissions, they have been free for months to exercise their rights to
attack and disavow any association with the Republicans. Plaintiffs really seek a right to file a
late withdrawal—a right unprotected by any federal or state constitutional provision. 10
1. The “right not to associate” does not include the right to erase
the consequences of an association after it is completed.

9

Plaintiffs themselves differ as to whether the material fact that triggered their withdrawal
was the fact of a third party funding the Green Party effort, or the fact that this third party was
the Montana Republican Party.
10
See Roberts v. U.S. Jaycees, 468 U.S. 609, 622–23, 104 S. Ct. 3244, 3252, 82 L. Ed. 2d
462 (1984) (“Government actions that may unconstitutionally infringe upon [the freedom to
associate] can take a number of forms. Among other things, government may seek to impose
penalties or withhold benefits from individuals because of their membership in a disfavored
group, e.g., Healy v. James, 408 U.S. 169, 180–184, 92 S.Ct. 2338, 2345–2347, 33 L.Ed.2d 266
(1972); it may attempt to require disclosure of the fact of membership in a group seeking
anonymity, e.g., Brown v. Socialist Workers '74 Campaign Committee, supra, 459 U.S. 87, 91–
92, 103 S.Ct. 416, 419–421, 74 L.Ed.2d 250 (1982); and it may try to interfere with the internal
organization or affairs of the group, e.g., Cousins v. Wigoda, 419 U.S. 477, 487–488, 95 S.Ct.
541, 547, 42 L.Ed.2d 595 (1975).”).
14

App. 315

Even when the right not to associate is implicated, it is not absolute. Not a single one of
Plaintiffs’ “right not to associate” cases holds that a person can retroactively disavow association
with a group or effort after the purpose for which the group was formed or effort undertaken is
accomplished, as Plaintiffs attempt here. The consequences of an unlimited right to retroactively
associate are particularly troubling in the election context, which relies on deadlines and specific
time periods for making decisions and measuring political support through votes, petition
signatures, and candidate filings. The right is prospectively applied to disentangle a citizen from
an unwanted association, not retroactively to torpedo an election result that a voter regrets.
2. Plaintiffs’ requested relief is disproportionate to their injury,
and fails to account for petition proponents’ right to effective
association and the Green candidates’ and voters’ rights.
Even if the Court adopts Individual Plaintiffs’ theory that their “right not to associate”
has been infringed, their requested relief does far more than remedy their actual injury—it strikes
out to extinguish the rights of 13,000 valid petition signers and eliminate ballot access for Green
candidates, and voters. Plaintiffs’ grievance is with the Republican Party, not with their fellow
petition signers or with the Greens. It is unjustifiable to sacrifice the constitutional rights of
absent and innocent third parties merely to achieve Plaintiffs’ goal of punishing the Republican
Party for daring to legally support the Greens. Put another way, vindicating these Plaintiffs’
“right not to associate” does not require that others’ association be completely destroyed. Nor is
the MDP—granted standing only because its injury consists of having to engage in additional
speech with possible Green voters—within the zone of those whom the “right not to associate” is
meant to protect. At bottom, the extraordinary judicial intervention these Plaintiffs request goes
beyond remedying their own injury and would harm nearly every other party involved. It should
be denied.
3. The Plaintiffs’ rights must yield to the proponent petition
signers.
The rights of Plaintiffs and others who wish to untimely withdraw from the Green Party
petition must yield to the Constitutional rights of the petition’s proponents. Even if Plaintiffs
were deemed to have “associated” with the Republican Party, any interest to be free from such
association is adequately protected by allowing them to withdraw their support of the petition up

15

App. 316

to the point that the signatures are filed. 11 The burden of withdrawing a signature before the
filing deadline (just like the burden of obtaining a signature before the filing deadline) is not
insignificant. But even if neither the MDP nor the journalists who relied on it for sources read the
Montana Republican Party’s timely February 20, 2020 filing disclosing that it had paid AMT for
its petitioning, there was ample media coverage and the MDP started its well-resourced
withdrawal campaign in February. These Plaintiffs did not take note of the MDP’s public
communications push in the latter half of February, and then waited until three weeks (Filz, April
2) and seven weeks (Neumeyer, April 28) after March 9th, the last date shown on the Secretary’s
public election calendar (Defendant’s Ex. 1) for receiving minor party petitions and candidate
filings. Further, the only Plaintiff who came to testify, Neumeyer, did not establish that
DocuSign was necessary to process her late withdrawal. Rather, she visited the elections office at
least once, and on the very day of that visit filled out the MDP-drafted statement that due to
Covid, she was “unwilling” to visit an elections office or notary. These Plaintiffs did not
establish a right to use DocuSign.
On the other hand, as noted above, the petition proponents have a strong First
Amendment interest in an effective petition process, which requires a level of certainty and
predictability in accessing the ballot so as not to render the petition process illusory. 12 That is
particularly true here, where Plaintiffs seek a court order that would change longstanding rules
retroactively, long after the proponents lost the chance to gather more signatures. If the Court
decides it would have to reinterpret Montana law or resort to applying the Montana constitutional

11

See State ex rel. Lang v. Furnish, 48 Mont 28, 134 P. 297, 300 (1913) (finding signers’
right to withdraw temporally restricted to period before final action taken); see also Ford v.
Mitchell, 103 Mont. 99, 61 P.2d 815, 822 (1936) (“[T]he signers of an initiative petition may, in
an appropriate manner and at the proper time if they so desire, withdraw from such petition.”).
Plaintiffs concede that their right to withdraw is limited in that it must be exercised before “final
action” is taken on the petition. See Plaintiffs’ Trial Brief, 12-13 (“Pursuant to this right,
individuals can withdraw their signature so long as: … individuals withdraw before final action
is taken on a petition…”) (internal citations and quotations omitted).
12
See Am. Party of Tex. v. White, 415 U.S. 767, 787, n. 18, 94 S.Ct. 1296, 39 L.Ed.2d 744
(1974) (Recognizing state’s interest in regulating petition process necessarily requires the
imposition of some cutoff period to verify the validity of signatures on the petitions, to print the
ballots, and, if necessary, to litigate any challenges.) (internal quotations and citations omitted);
see also Powers v. Carpenter, 203 Ariz. 116, 119, 51 P.3d 338, 341 (2002) (“…the right to
withdraw is neither indefinite nor absolute; rather, at some point private rights must yield to
society's interest in having a well ordered and functioning government..”).
16

App. 317

rights of the two remaining Plaintiffs to change the result of the primary, it should consider the
superior First Amendment rights of the Amici-Signers, the other petition signers, and the Green
Party voters and candidates. Applying those rights, it must deny the requested relief.
IV.

The requested relief is not an appropriate remedy for the lack of a public service
announcement by the Secretary stating the deadline for submitting withdrawals.
At the close of the hearing, the Court raised for the first time the potential that the

Secretary may have violated the public’s right to know about and participate in government
deliberations and rulemaking when the Secretary confirmed that under controlling law, it could
not accept withdrawals after the petition was certified. 13 For several reasons, that cannot be the
basis of a preliminary injunction eliminating ballot access for Green Party voters and candidates.
First, Plaintiffs have never claimed their rights were violated under these provisions. The
Court should exercise judicial restraint and avoid deciding issues of constitutional law and
matters of first impression that have not been raised by the parties, especially at this preliminary
injunction stage of the proceedings. See Wash. State Grange v. Wash. State Rep. Party, 552 U.S.
442, 450 (2008) (holding that the Court should adhere to “the fundamental principle of judicial
restraint” and should neither “anticipate a question of constitutional law” nor make “unnecessary
pronouncement[s] on constitutional issues.”).
Moreover, Sections 8 and 9 are not applicable. The Montana Supreme Court considered
and explained the effect of both provisions in its 2002 decision in Bryan v. Yellowstone Cnty.
Elem. Sch. Dist. No. 2, 312 Mont. 257, 60 P.3d 381 (2002):
What is intended by Section 8 is that any rules and regulations that shall be made and
formulated and announced by any governmental agency, which of course are going to
affect the citizens of this state and the common welfare, shall not be made until some
notice is given so that the citizen will have a reasonable opportunity to participate
with respect to his opinion, either for or against that particular administrative action.
Id. The rulemaking process is the central focus of Section 8. It is geared toward those “miniature
legislatures who put together rules and regulations that affect us all.” SJL of Mont. Assoc’s. Ltd.
Part. v. City of Billings, 263 Mont. 142, 148, 867 P.2d 1084 (1993). Here, the Secretary was not
exercising his rulemaking authority when election staff confirmed with in-house counsel that it
would adhere to the Supreme Court’s longstanding rule, from Ford, O’Connell, and before, that
the common law right to withdraw extends only to the final act of the official who acts on the
13

See Montana Constitution, Article 2, Sections 8 and 9.
17

App. 318

petitions—here, the Secretary’s sufficiency decision. Because there was no rulemaking, the
public was not deprived of any right to participate in the rulemaking process. Section 9
encompasses “the right to examine documents and the right to observe the deliberations of public
bodies or agencies.” Id. at 267. Plaintiffs were not refused documents or the right to observe any
deliberations of public bodies or agencies. Therefore, Section 9 is simply inapplicable.
Finally, under Section 2-3-114, MCA, any alleged violations of Sections 8 or 9 must be
brought “within 30 days of the date of the [relevant] decision.” Id. at 275; Allen v. Lakeside
Neighborhood Planning Comm., 371 Mont. 310, 319, 308 P.3d 956 (2013); Willems v. State, 374
Mont. 343, 348, 325 P.3d 1204 (2014). The Secretary’s March 3, 2020, memo confirmed the
Secretary would not accept withdrawals after certification. The Secretary emailed all county
election officials on that same day, indicating that they should only process withdrawal forms up
until the petition is certified. Further, as noted above, Plaintiff Neumeyer testified that in March
2020 she was turned away from the Lewis & Clark County elections office because it was too
late to withdraw; she reported this to the MDP, and the MDP sent her a DocuSign form to submit
instead. Other evidence presented by Plaintiffs shows that they were aware of this “policy” no
later than April 13, 2020. An email from the Yellowstone County Election Administrator sent to
Trent Bolger indicated on April 13, 2020, that the deadline for filing withdrawals had passed.
Therefore, when Plaintiffs filed their petition on June 1, 2020, the deadline for submitting a
constitutional claim under Sections 8 and 9, if any such claim ever existed, had long passed.
More fundamentally, though, the Court must consider that, as shown above, the
withdrawal deadline and formality-of-withdrawal rules not only define the limits of dissenting
signers’ right to withdraw, they also protect the First Amendment effective-association rights of
petition proponents, signers, and the affected candidates and voters. Here, all parties had the
same information at the same time: the Secretary’s public election calendar. The proponents
themselves, viewing that calendar and knowing the law, had no reason to predict that the MDP
might be allowed to continue its withdrawal campaign for months after the certification date,
eventually harvesting withdrawals for over two months using DocuSign, far easier to use and
with far less formality than legal, in-person petition circulation. Had there been a hint of any of
this, they could have focused their effort to insulate themselves against the change in law.

18

App. 319

A signer wanting to withdraw would have had the same notice: the Secretary’s public
calendar. 14 It clearly showed the deadlines for turning in petitions (March 2 to the clerks and
March 9 to the Secretary), very close to the expected decision date that, under controlling law,
set the withdrawal deadline. This aside, other fast-approaching dates should have counseled that
a three-month withdrawal campaign was unreasonable: March 19, for certifying candidates for
the primary ballots; the need to design and print those ballots quickly; April 17, for mailing them
overseas; and even May 8, for mailing out all of the mail-in primary ballots.
No PSA was required to inform voters, or a well-counseled major party campaign geared
to engage those voters and with access to controlling caselaw, that a withdrawal campaign could
blow through each of these deadlines. And even if courts had jurisdiction to craft a remedy for
the fact that the Secretary did not issue a PSA that the “final act” would be on March 6th, that
remedy would have to account for the fact that: (1) everyone received notice that the final act did
occur on March 6, and it was important to move quickly since they were now seeking to reverse
those decisions; and (2) the petition signers, proponents, and affected candidates and voters
themselves had no notice that their opponents would have a free hand to harvest withdrawals for
three months using DocuSign—far less formality than would be expected when consulting the
Secretary’s forms but also less than required under Ford. In other words, whatever the effect of
lack of “notice” immediately on March 6, it cannot be used to retroactively make major,
unexpected changes in the law in a manner that is just sufficient to reverse the Green Party’s
results.
CONCLUSION
For the foregoing reasons, Plaintiffs’ requested relief should be denied.

Dated: July 17, 2020

Respectfully submitted,
Edward D. Greim, pro hac vice
GRAVES GARRETT, LLC
1100 Main Street, Suite 2700
Kansas City, Missouri 64105
Tel.: (816) 256-3181
Fax: (816) 222-0534

14

Here, of course, one Plaintiff is the MDP, a political party mounting a heavily-staffed,
multi-month withdrawal campaign and advised throughout by local and national counsel.
19

App. 320

edgreim@gravesgarrett.com
Chris J. Gallus
GALLUS LAW
1423 Otter Rd.
Helena, Montana 59602
Tel.: (406) 459-8676
chrisjgalluslaw@gmail.com
Attorneys for Amici Curiae Campbell and
Loven

20

App. 321

Certificate of Service
I hereby certify that a true and correct copy of the foregoing document was served on the
following counsel of record in this matter on July
2020
as follows:
July1,17,
2020
as follows:
Peter Michael Meloy
MELOY LAW FIRM
P.O. Box 1241
Helena, MT 59624
Ph.: (406) 442-8670
mike@meloylawfirm.com

Anita Y. Milanovich
MILANOVICH LAW, PLLC
100 E Broadway St.
The Berkeley Room
Butte, Montana 59701
Ph.: (406) 589-6856
aymilanovich@milanovichlaw.com

Matthew Gordon
PERKINS COIE LLP
1201 Third Ave., Suite 4900
Seattle, WA 98101
Ph.: (206) 359-8000
mgordon@perkinscoie.com

Emily Jones
Talia G. Damrow
JONES LAW FIRM, PLLC
2101 Broadwater Ave.
Billings, MT 59104
Ph.: (406) 384-7990
emily@joneslawmt.com
talia@joneslawmt.com

Counsel for Plaintiffs
Austin James
Chief Legal Counsel
Secretary of State’s Office
P.O. Box 202801
Helena, MT 59620-2801
Ph.: (406) 444-2034
Austin.james@mt.gov

Amicus Curiae
Counsel for Proposed
Intevenor MTGOP

Matthew T. Meade
Smith Oblander & Meade, PC
P.O. Box 2685
Great Falls, MT 59403-2685
Ph.: (406) 453-8144
matt@bigskylaw.com
Counsel for Defendant
/s/ Christopher Gallus

21

App. 322

84

1

the Montana Democratic Party or MDP learned that the

2

Green Party disavowed any involvement in the

3

petition-gathering efforts, you communicated that

4

information to petition signers?

5

A.

Yes.

I did.

6

Q.

And the information that's in Plaintiffs'

7

Exhibit 10, is that some of the information that you

8

communicated to petition signers?

9
10
11
12
13

A.

Yes.

This is, this is one piece that we

referenced when we were talking to people.
Q.

Can you turn to Exhibit 11, please?

Do you

recognize this document?
A.

Yes.

This is a news article that discusses the

14

fact that no one knew who had funded the Green Party

15

effort.

16
17
18
19
20
21
22
23
24
25

Q.

And is this information that you conveyed to

petition signers as well, the information in Exhibit 11?
A.

Yes.

Until more reports came out that clarified

information, yes.
Q.

Did you send links to voters, links to this

article and other articles?
A.

Yes.

When voters asked for more information, we

often sent them these articles via e-mail or text.
Q.

Turn to Exhibit 12, please.

What's Exhibit 12,

Ms. Miller?

App. 323

85

1

A.

This is another news article that walks through

2

the fact that the Green Party wasn't involved and that it

3

was a mystery, according to the headline, who had

4

organized and funded the petition.

5
6

Q.

Is this another article that you sent links to

and information you conveyed to petition signers?

7

A.

Yes.

8

Q.

Exhibit 13, please.

9

A.

Okay.

10

Q.

Is Exhibit 13 similarly another article that you

11

reviewed and that the information in it, you conveyed to

12

petition signers?

13

MR. MEADE:

14

THE WITNESS:

15

THE COURT:

16

MR. GORDON:

17

THE WITNESS:

18

THE COURT:

19

MR MEADE:

20

THE COURT:

21

MR. GORDON:

22
23
24
25

Q.

Objection; leading.
Yes.

This is another --

Wait a minute.
Hold on.
Sorry.
What was the objection?
Leading.
Why don't you rephrase?
I'll rephrase.

(By Mr. Gordon)

Sure.

Can you describe Exhibit 13,

please?
A.

This is another news article that walks through

some of the information that was and wasn't known about

App. 324

86

1

the Green Party petition in early March, and we referenced

2

information in these, in these news articles as well as

3

sent the news articles themselves to people who wanted

4

more information.

5

Q.

Exhibit 14, Ms. Miller.

What is this exhibit?

6

A.

This is a Facebook post from April where the

7

Montana Green Party says that the Greens aren't actually

8

Green and that the candidates running had nothing to do

9

with the Green Party.

10
11
12

Q.

communicated to petition signers?
A.

Your Honor, I move the admission of

MR. MEADE:

We'll object again, Your Honor, on

the basis of hearsay.
THE COURT:

17
18

It is.

Exhibits 10 through 14.

15
16

Yes.

MR. GORDON:

13
14

And is this information that you reviewed and

Q.

Overruled.

(By Mr. Gordon)

Ms. Miller, let's go back to

19

Exhibit 3, please.

And before we broke, I believe you

20

were talking about how you e-mailed the withdrawal forms,

21

an example of which is in Exhibit 26, to county elections

22

officials; is that accurate?

23

A.

Yes.

That's correct.

24

Q.

What is Exhibit 3?

25

A.

Exhibit 3 is a copy of one of those examples of

App. 325

112

1

As to Counsel's objection as to part of Exhibit 6,

2

Counsel is certainly accurate that the metadata for each

3

of these documents, the fields are not all the same and

4

they don't all include -- But the first page does say

5

creation date April 13.

6

of these documents had been scanned in via copier and some

7

had been in a, in a PDF file.

8
9

And as Ms. Miller testified, some

So all we're trying to do is to say that the entity
from whom these came, the metadata showed that they

10

scanned it or created the PDF or uploaded the PDF --

11

sorry, not uploaded, scanned or created the PDF no later

12

than the date that's shown in the metadata.
THE COURT:

13

Okay.

I think I'm going to overrule

14

the objection.

15

evidentiary rulings for the Supreme Court.
MR. GORDON:

16
17

So Exhibits 4, 5, and 6 are

admitted?
THE COURT:

18
19

I have all kinds of interesting

Q.

4, 5, and 6 are admitted.

(By Mr. Gordon)

Ms. Miller, did you reach any

20

conclusion about the dates by when the withdrawal forms

21

listed in Exhibits 4 and 5 were received by county

22

elections officials?

23

A.

Yes.

The overwhelming majority were received by

24

mid to late May.

There were seven that were stamped in in

25

June in two different counties.

App. 326

113

Q.

And what was the last date that one was stamped

3

A.

June 12th.

4

Q.

Now, do you know if Exhibits 4 and 5 reflect all

1
2

on?

5

of the withdrawal forms that have been submitted to county

6

elections offices relative to the Green Party petition?

7

A.

I don't know for certain.

We made public records

8

requests, quite a few along the way, both to counties and

9

to the Secretary of State.

When we received records, the

10

records provided by the Secretary of State and the county

11

didn't have complete overlap.

12

but sometimes there was one in one public records request

13

and not the other.

14

not know about them.

15

Q.

There was a lot of overlap,

So if there are some missing, I would

And I believe you previously testified that you

16

understood that there were also withdrawal forms that some

17

signers attempted to turn in but were rejected?

18

A.

That's correct.

19

Q.

Turn now to Exhibit 7, please, Ms. Miller.

20
21

What

is Exhibit 7?
A.

Exhibit 7 is a table that I prepared that shows

22

the nine house districts that initially have enough

23

signatures to meet qualification thresholds, but after

24

accounting for all of the withdrawals submitted, they

25

would no longer meet threshold.

App. 327

114

1
2
3
4
5
6
7
8
9
10
11

Q.

Let's go through this column by column.

The

second column, "Signatures Required"?
A.

That comes from the Secretary of State's

information, which is laid out in Montana Code.
Q.

And that was also Exhibit C to Dana Corson's

declaration?
A.

I don't remember the exhibit number, but it was

in Dana Corson's declaration.
Q.

Yes.

Third column, "Signatures Accepted by Secretary

(Petition Signers Report)," what does that represent?
A.

That shows the number of accepted signatures per

12

the Secretary of State's petition signers report on

13

March 12th and April 13th.

14

Q.

So this shows the number that, according to the

15

petition signers report, were counted towards Green Party

16

qualification?

17

A.

Yes.

18

Q.

Fourth column, "Signatures Withdrawn," what does

19
20

that reflect?
A.

That reflects the number of withdrawal forms in

21

Exhibit 5 that were submitted to counties for each of

22

these house districts.

23

Q.

And these are also summarized in Exhibit 4?

24

A.

Yes.

25

Q.

Why does it say "At least"?

App. 328

115

1

A.

If there were more, as I said earlier, I wouldn't

2

necessarily know about them.

3

have copies of.

4
5
6

Q.

These are only the ones we

Fifth column says, "Remaining Signatures Accepted

by Secretary"?
A.

So if you removed -- or if you accounted for the

7

withdrawal forms that had been submitted, removing them

8

from the initial number of accepted signatures, at most,

9

these are the number of remaining signatures in each house

10
11
12
13
14
15
16

district.
Q.

What conclusions did you reach from your analysis

as reflected in this chart on Exhibit 7, Ms. Miller?
A.
ballot.
Q.

That the Green Party no longer qualifies for the
They only qualify in 33, not 34 house districts.
If you account for all of the withdrawal forms in

Exhibits 4 and 5?

17

A.

Yes.

18

Q.

The third column again references the petition

19

signers report.

And I believe you testified that's where

20

that information came from; is that correct?

21

A.

Yes.

22

Q.

Ms. Miller, if you use the numbers -- instead of

23

numbers from the petition signers report, use numbers from

24

Mr. Corson's declaration, that table in his declaration,

25

would your conclusion change?

App. 329

231

1

March, was the Governor's directive regarding elections.

2

So we had to adjust dates that had been previously

3

published because it turned into a mail ballot election.

4

But we wanted to preserve the original, so we just did the

5

interlining.
MR. MEADE:

6
7

THE COURT:

9

MR MEADE:

11

Was

that admitted?

8

10

And I apologize, Your Honor.

Q.

It is admitted.
Okay.

(By Mr. Meade)

Now, Mr. Corson, when can

candidates begin filing for office?

12

A.

It's January 9th.

13

Q.

Is that deadline set by statute?

14

A.

Yes.

15

Q.

When is the deadline to submit new political

16

qualification petitions to county election administrators?

17

A.

That's March 2nd.

18

Q.

Is that deadline set by statute?

19

A.

Yes.

20

Q.

What is the process for a minor political party

21
22

to qualify for the ballot in Montana?
A.

The party qualifications, they must achieve a

23

minimum of 5,000 signatures overall and then qualify in at

24

least a third of the house districts.

25

Q.

And how many is one-third of the house districts

App. 330

232

1

that they must qualify in?

2

A.

Since there's 100, so 34 or greater.

3

Q.

Lawyers aren't good at math.

4

When is the deadline for candidates to file for

5

I appreciate that.

office?

6

A.

For candidates to file for office?

7

Q.

Yes.

8

A.

Is that January 9th date.

9

Q.

I'm sorry.

When is the deadline?

10

A.

I'm sorry.

The deadline for candidates to file

11
12
13

is March 9th.
Q.

If a candidate wishes to appear on a primary

ballot, must they file by this deadline?

14

A.

Correct.

Yes.

15

Q.

When is the deadline for the Secretary of State

16

to receive verified new political party qualification

17

petitions from county election administrators?

18

A.

19

March 9th.

20

Q.

21

For the Secretary of State to receive those is

Were there any minor parties who qualified for

the general election this year?

22

A.

Green Party.

23

Q.

And how many house districts did the Green Party

24
25

qualify in?
A.

I believe it was 42.

App. 331

233

1

Q.

When did the Secretary of State certify that the

2

Green Party had qualified to appear on the general

3

election ballot?

4

A.

On March 6th.

5

Q.

Why did the Secretary certify on that date?

6

A.

Because after going through the petitions and

7

accumulating them by house district, looking for any

8

errors or omissions or any other potential problems, and

9

taking into account everything that was on the petition

10

together with any withdrawals, there was sufficiency on

11

March 6th.

12

Q.

13

And how did your office know there were enough

signatures at that time?

14

A.

Say again?

15

Q.

How did your office know that there were enough

16
17

signatures on the petition at that time?
A.

Those are collected at the counties.

We know

18

what house districts that people belong in.

19

signatures were accepted.

20

Miller's testimony regarding rejected signatures, things

21

like that.

22

district, those were tallied up and certified by our

23

office based on what appeared on the petitions and

24

withdrawal forms.

25

Q.

The

It was spoke earlier in

So those that were accepted within the house

And how does your office actually receive the

App. 332

234

1

forms?

2

A.

3

They are submitted, you know, through the county.

The county does their work.

The county sends them to us.

4

Q.

When did you receive those from the counties?

5

A.

We started receiving them early March, maybe late

6

February.
Q.

7
8

county?
A.

9
10

When did you receive the final submittal from a

6th.

I believe the final submittal was received on the
I'd have to check for sure.

11

Q.

And that was the date that you certified?

12

A.

Correct.

13

Q.

How many people signed the Green Party petition?

14

A.

Overall, there was, like, 19,000 signatures, give

15

or take.

16

Q.

And how many were accepted?

17

A.

The 13,000 number that was spoken of earlier.

18

Q.

And why is there a discrepancy between the two?

19

A.

Sometimes there's duplicates.

Sometimes the

20

people don't live in the district.

21

even registered voters.

22

know, you can't determine who the voter is in order to

23

compare the signature.

24
25

Q.

Sometimes they're not

Sometimes they're unreadable; you

How long did Green Party candidates have to file

for office from the time that the Green Party qualified

App. 333

240

1

A.

No.

2

Q.

And why is that?

3

A.

The candidate filing deadline has passed, and so

4

Not at this time.

has the petition process, on May 26th, I think it is.

5

Q.

Which statewide races would be affected?

6

A.

Well, we had candidates at the U.S. Senate,

7

U.S. House level, governor, attorney general.

8

a lower house district race, I believe, in the mix of this

9

too.

10
11

Q.

When is the deadline for election administrators

to send ballots to military and overseas electors?

12

A.

13

woops.

14

sorry.

15

Q.

16

We even had

For the primary, it was back on April 8th -Make sure I got that right.

April 17th.

I'm

And is it your office's understanding that the

first ballots had been mailed to voters by that time?

17

A.

Correct.

18

Q.

Is there a way to remove a person from a primary

19

ballot after the ballot has been sent?

20

A.

No.

21

Q.

May a voter in Montana vote in multiple

22

primaries?

23

A.

No.

24

Q.

So once a voter decides that she is going to vote

25

in the Green Party primary, she cannot vote in the

App. 334

